<html>
<title> - [H.A.S.C. No. 116-23] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2020 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED SIXTEENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 116-23]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2020

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                     THE FISCAL YEAR 2020 NATIONAL

                      DEFENSE AUTHORIZATION BUDGET

                     REQUEST FOR THE DEPARTMENT OF

                       ARMY AND THE DEPARTMENT OF

                             THE AIR FORCE

                               __________

                              HEARING HELD

                             APRIL 2, 2019
                             
                             
                             
                               ______

                 U.S. GOVERNMENT PUBLISHING OFFICE 
 36-884                   WASHINGTON : 2020                             
                                     


                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Sixteenth Congress

                    ADAM SMITH, Washington, Chairman

SUSAN A. DAVIS, California           WILLIAM M. ``MAC'' THORNBERRY, 
JAMES R. LANGEVIN, Rhode Island          Texas
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                ROB BISHOP, Utah
JOE COURTNEY, Connecticut            MICHAEL R. TURNER, Ohio
JOHN GARAMENDI, California           MIKE ROGERS, Alabama
JACKIE SPEIER, California            K. MICHAEL CONAWAY, Texas
TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
DONALD NORCROSS, New Jersey          ROBERT J. WITTMAN, Virginia
RUBEN GALLEGO, Arizona               VICKY HARTZLER, Missouri
SETH MOULTON, Massachusetts          AUSTIN SCOTT, Georgia
SALUD O. CARBAJAL, California        MO BROOKS, Alabama
ANTHONY G. BROWN, Maryland, Vice     PAUL COOK, California
    Chair                            BRADLEY BYRNE, Alabama
RO KHANNA, California                SAM GRAVES, Missouri
WILLIAM R. KEATING, Massachusetts    ELISE M. STEFANIK, New York
FILEMON VELA, Texas                  SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 RALPH LEE ABRAHAM, Louisiana
KENDRA S. HORN, Oklahoma             TRENT KELLY, Mississippi
GILBERT RAY CISNEROS, Jr.,           MIKE GALLAGHER, Wisconsin
    California                       MATT GAETZ, Florida
CHRISSY HOULAHAN, Pennsylvania       DON BACON, Nebraska
JASON CROW, Colorado                 JIM BANKS, Indiana
XOCHITL TORRES SMALL, New Mexico     LIZ CHENEY, Wyoming
ELISSA SLOTKIN, Michigan             PAUL MITCHELL, Michigan
MIKIE SHERRILL, New Jersey           JACK BERGMAN, Michigan
KATIE HILL, California               MICHAEL WALTZ, Florida
VERONICA ESCOBAR, Texas
DEBRA A. HAALAND, New Mexico
JARED F. GOLDEN, Maine
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia

                     Paul Arcangeli, Staff Director
                 Katy Quinn, Professional Staff Member
               Jesse Tolleson, Professional Staff Member
                          Justin Lynch, Clerk
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Committee on Armed Services....................................     1
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Ranking Member, Committee on Armed Services....................     3

                               WITNESSES

Esper, Hon. Mark T., Secretary of the Army, United States Army...     4
Goldfein, Gen David L., USAF, Chief of Staff, United States Air 
  Force..........................................................     9
Milley, GEN Mark A., USA, Chief of Staff, United States Army.....     6
Wilson, Hon. Heather, Secretary of the Air Force, United States 
  Air Force......................................................     8

                            APPENDIX

Prepared Statements:

    Esper, Hon. Mark T., joint with GEN Mark A. Milley...........    73
    Wilson, Hon. Heather, joint with Gen David L. Goldfein.......    90

Documents Submitted for the Record:

    [The document was not available at the time of printing.]....

Witness Responses to Questions Asked During the Hearing:

    Ms. Escobar..................................................   109
    Mr. Gallego..................................................   109
    Ms. Haaland..................................................   110
    Ms. Sherrill.................................................   109
    Ms. Stefanik.................................................   109

Questions Submitted by Members Post Hearing:

    Mr. Cook.....................................................   118
    Mr. Courtney.................................................   114
    Ms. Escobar..................................................   124
    Mr. Garamendi................................................   114
    Ms. Haaland..................................................   125
    Ms. Horn.....................................................   120
    Ms. Houlahan.................................................   120
    Mr. Kim......................................................   118
    Mrs. Luria...................................................   125
    Mr. Scott....................................................   116
    Ms. Torres Small.............................................   123
    Mr. Turner...................................................   114
    Mr. Wilson...................................................   113
    
    
                 THE FISCAL YEAR 2020 NATIONAL DEFENSE

                  AUTHORIZATION BUDGET REQUEST FOR THE

                 DEPARTMENT OF ARMY AND THE DEPARTMENT

                            OF THE AIR FORCE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                            Washington, DC, Tuesday, April 2, 2019.
    The committee met, pursuant to call, at 10:00 a.m., in room 
2118, Rayburn House Office Building, Hon. Adam Smith (chairman 
of the committee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
       WASHINGTON, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. We will call the committee to order.
    Good morning, all. Just process-wise, we don't really have 
a hard stop on the hearing today, so we will see how it goes. 
Depending on how many members are left sort of in the 12 to 
12:30 range, we may take a break at that point.
    And I will reiterate and remind everybody that the way it 
works is those of you who are here now at the drop of the gavel 
are in line, basically. Everyone else who comes in goes to the 
back of that line. And then even if any of the people who are 
here at the drop of the gavel leave, when they come back, if 
they are next, it is their turn. So I will handle that 
according to the rules and just hope you all are aware of it.
    Well, welcome today. We are pleased to have the posture 
hearing for the Army and the Air Force. We do have with us as 
witnesses the Honorable Mark Esper, Secretary of the Army; 
General Mark Milley, Chief of Staff of the Army; the Honorable 
Heather Wilson, Secretary of the Air Force; and General David 
Goldfein, Chief of Staff of the Air Force.
    I want to congratulate General Milley on his nomination to 
be Chairman of the Joint Chiefs of Staff. I very much enjoyed 
working with him in his current capacity and look forward to 
working with him in that capacity as well.
    And thanks, Secretary Wilson, for what will likely be her 
last hearing before the House Armed Services Committee. 
Appreciate her service both in Congress and in the military and 
wish you very, very well. And I don't think you actually left 
just because of the space force, but I would be sympathetic if 
you did. So we will talk about that more later.
    But thank you all for being here. There are a lot of issues 
to go over. I will not attempt to cover all of them in my 
opening statement. I just want to mention a couple. First of 
all, I know the Army has done a very, very aggressive effort to 
look at all of their programs and basically modernize what the 
Army is purchasing and how they are organizing for the future. 
And it is a rapidly changing environment both in terms of the 
threats and in terms of the technology that is going to be 
necessary to meet those threats. So I look forward to hearing 
more about the details of how you arrived at the decisions that 
you did and how you think we can support you in that effort 
going forward.
    And yes, with the Air Force, I know you have done a similar 
effort to try to look at how you can maintain the number of 
airframes that you need to meet all the needs and requirements 
that you have. I am curious. I know the study came back that 
there was a substantial need for an increase in the number of 
planes in the Air Force. I am curious about exactly which 
planes you think are most important and how that is going to 
fit into the future budget. And yes, I am interested in getting 
your specifics on how we handle the space force.
    This is really a simple, straightforward thing, and I want 
to compliment Mike Rogers and Jim Cooper, two Members who have 
been working on this issue for a number of years on the 
Strategic Forces Subcommittee. We need to place a greater 
emphasis on space without question. Put simply, our goal there 
is to place a greater emphasis on space without wasting money, 
without creating more unnecessary bureaucracy, and to figure 
out what the best way is to rearrange that within the DOD and 
within the Air Force's responsibility. So we will be curious to 
hear your comments on how we can proceed on that front.
    And then there are two broader issues I just want to touch 
on. Number one is something we have said over and over again in 
this committee, but the importance of getting an on-time 
appropriations process so that on October 1, you have your 
budget, you know how much money you are going to have to spend 
during the course of that year cannot be overstated.
    For fiscal year 2019, that is the first time in a long time 
where we had that. I know we cut the deal for fiscal year 2018, 
but we didn't cut that deal until about 6 months into the 
fiscal year, and that is not the same as having the money at 
the start. So whatever our differences on what the budget caps 
should be, we need to resolve them and go forward.
    I will also say that, you know, whatever led to the budget 
caps and the Budget Control Act that was passed in 2011, 
thinking that strict adherence to that law that was passed 8 
years ago is in any way going to make us fiscally more 
responsible I think is folly. In a $4.75 trillion budget, 
obsessing over tens of billions of dollars in the discretionary 
portion of it, be it defense or non-defense, isn't all that 
helpful from a fiscal responsibility standpoint and is 
unbelievably damaging in terms of the ability of the government 
to function. If you don't know how much money you are going to 
have from one month to the next or what programs you can and 
can't spend it on, it is very difficult to function.
    And I, you know, worked with the Pentagon over the course 
of the last 8 years as you have attempted to function in that 
environment. It is brutal and difficult, and it is just as 
brutal and difficult for the non-defense discretionary budget 
to try and do that as well.
    And the last issue I will point out is the issue of the 
audit, the issue of understanding exactly where DOD spends its 
money. I would recommend to everyone here, if you haven't read 
it, Rolling Stone did a very interesting article about the 
challenges that exist within the Department of Defense figuring 
out how and where it spent its money, just simple basic 
accounting, and the problem goes back decades. It has been 
built in the Department of Defense long before any of you in 
front of us showed up at the Pentagon, and now it has reached 
the point where there is certain argument that it is so 
confusing, so tangled up that there is no way to untangle it. 
This committee does not accept that.
    And what I would be curious, how can we begin the process? 
We are not going to get a full audit next month, next year. It 
is unbelievably cumbersome. But there has to be--you know, it 
is like when the cords get all bundled up, there has got to be 
some place to start to sort of pull it apart and start working. 
And that is what I want to see, progress, so that eventually we 
can get to the point where we can track the money because right 
now, in the Department of Defense, you don't even really know 
how much inventory you have. You know, you have to make it up 
at a certain point just to put a number out there, but you 
don't know. Not on the big stuff. You know how many bombers you 
have, but on all of the other things, on the buildings, on the 
basic pieces of equipment, we just don't know, and we can't 
account for that in a way that gives us any confidence in the 
overall efficiency and effectiveness of the budget, so we are 
going to need to work on that as well.
    As I said, there are a lot of more issues, but that is all 
I have for now. With that, I turn it over to the ranking 
member, Mr. Thornberry.

      STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
 REPRESENTATIVE FROM TEXAS, RANKING MEMBER, COMMITTEE ON ARMED 
                            SERVICES

    Mr. Thornberry. Thank you, Mr. Chairman, and let me join in 
welcoming and thanking our witnesses for being here and for 
their service. I would particularly say that I am grateful that 
Secretary Wilson allowed herself to be persuaded to return to 
government service and would point out that as she leaves 
government service at the end of next month, she is choosing to 
be a Texan, and all of you could take a hint with that good 
judgment when it comes time to do something else.
    I want to commend a couple of things at the beginning 
because in some ways, I think they are unusual. Number one, I 
want to commend what at least has seemed to be, from my vantage 
point, a close working relationship between the service 
secretaries and their respective service chiefs as well as, I 
think, an unprecedented relationship among the service 
secretaries. Now, you would think that is the way it always 
ought to be, and maybe it should but it is not always the way 
it has been. I am sure there are stresses and strains that are 
not obvious from the outside, but I think that is important, 
and all of--each of you have participated in that.
    Secondly, I want to commend the Army for first, taking the 
time to go through each of the programs under your jurisdiction 
and to make tough decisions. I may or may not agree with all 
the decisions you make. That is irrelevant, but the point is 
you all have been serious about making the changes internally 
to ensure that the Army is prepared for the challenges coming 
at us. That includes reorganization, the creation of Army's 
Futures Command, and a number of other decisions. I think that 
is important, and it is something that not only the services, 
but we need to share as well.
    I agree completely with comments the chairman has made 
about the budget. We have, in my estimation, begun to turn 
things around when it comes to readiness and modernization and 
the other things this committee has focused on in the previous 
few years, but that job is not done, and I know we will talk 
more about that.
    I also agree with the chairman that we all, and this has to 
be a joint effort, the committee and the services need to 
continue to work to not only track where the money goes but 
improve the way that it is spent. And I think the very first 
step was when this committee put into law several years ago a 
requirement that the audit take place. We knew it was not going 
to have a good outcome, but the point is, you have got to find 
the problems before you can start to solve them. And I think 
going through program by program as you all have done, that 
sort of intense scrutiny is good and important.
    The last point I want to make is a few years ago, President 
George Bush, in a different context, talked about the soft 
bigotry of low expectations. Well, I think that kind of applies 
to some of the work we do too because sometimes you hear the 
excuse well, that program can't be cut. It has--it is just too 
hard, or that is just how long it takes to get a new program 
fielded, or Congress will never go for that, or you know, all 
sorts of excuses.
    With every briefing and hearing we have about the security 
environment in which we operate and the adversaries which we 
face, I have a greater sense of urgency that the Congress and 
the Pentagon need to make the changes necessary so that the 
country can be defended today and into the future. And I don't 
think any of those excuses, you know, are going to cut it when 
at some point in the future, people look back and judge all of 
our tenure here.
    So as the chairman said, there are lots of issues to talk 
about specifically, but I think it is on all of us to push hard 
and push fast because that is the way the challenges are coming 
at us, and they are not going to slow up and wait for us to 
catch up.
    I yield back.
    The Chairman. Thank you. I heartily agree with the ranking 
member's statement, and particularly his last point. I think it 
was incredibly well put and the most important thing that we 
need to work on.
    With that, Mr. Esper, you will kick us off. Go ahead.

STATEMENT OF HON. MARK T. ESPER, SECRETARY OF THE ARMY, UNITED 
                          STATES ARMY

    Secretary Esper. Thank you, sir.
    Chairman Smith, Ranking Member Thornberry, and 
distinguished members of the subcommittee--of this committee, 
thank you for the opportunity to appear before you today. I 
want to first thank Congress for helping us reverse the 
readiness decline that developed following several years of 
budget uncertainty. Because of the strong support provided in 
the fiscal year 2018 and fiscal year 2019 budgets, we have 
increased the number of fully ready brigade combat teams by 55 
percent over the past 2 years. However, while I am confident we 
would prevail against any foe today, our adversaries are 
working hard to contest the outcome of future conflicts.
    As a result, the Army stands at a strategic inflection 
point. If we fail to modernize the Army now, we risk losing the 
first battles of the next war. For the past 17 years, the Army 
bore the brunt of the wars in Iraq and Afghanistan. For over a 
decade, we postponed modernization to procure equipment 
tailored to counter insurgency operations. Our legacy combat 
systems designed for high-intensity conflict entered service 
when I joined the Army in the early 1980s.
    While they dominated in past conflicts, incremental 
upgrades for many of them are no longer adequate for the 
demands of future battlefield as described in the National 
Defense Strategy. We must build the next generation of combat 
systems now before Russia and China outpace us with their 
modernization programs.
    Despite Russia's looming economic difficulties, they are 
steadily upgrading their military capabilities. In addition to 
field testing their next generation T-14 Armada tank, they 
continue to advance the development of their air defense and 
artillery systems. And when combined with new technology such 
as drones, cyber, and electronic warfare, Russia has proven its 
battlefield prowess.
    We have no reason to believe that Moscow's aggressive 
behavior will cease in the short term. Russia's blatant 
disregard for their neighbors' sovereignty as demonstrated in 
Ukraine and Crimea and Georgia. It is a deliberate strategy 
meant to intimidate weaker states and undermine the NATO [North 
Atlantic Treaty Organization] alliance.
    In the long run, China presents an even greater challenge. 
They continue to focus their military investments in cutting-
edge technologies such as artificial intelligence, directed 
energy, and hypersonics. Beijing's systematic theft of 
intellectual property is also allowing them to develop 
capabilities cheaper and faster than ever before.
    To deter the growing threat posed by great power 
competitors and to defeat them in battle, if necessary, we must 
leap ahead to the next generation of combat systems, and we 
must do so now. Over the past year, the Army took a major step 
forward in reorganizing its entire modernization enterprise 
with the establishment of Futures Command. In doing so, we 
stripped away layers of bureaucracy and streamlined our 
acquisition process while achieving unity of command and 
greater accountability. Guided by our six modernization 
priorities, Army Futures Command is hard at work developing the 
systems needed to maintain battlefield overmatch in future 
conflicts.
    When we reviewed the budget this time last year, we felt 
that it was unreasonable to ask Congress for the additional $4 
to $5 billion needed annually to fund our modernization without 
first looking internally to find the necessary resources. As a 
result, the Army's senior leaders took an unprecedented 
initiative to comprehensively review every Army program. Our 
goal was simple. Find those programs that least contribute to 
the Army's lethality and reallocate those resources into higher 
priority activities.
    After over 50 hours of painstaking deliberations, we 
eliminated, reduced, or delayed nearly 200 programs, freeing up 
over $30 billion over the next 5 years. We then reinvested this 
money into our top priorities, those systems and initiatives we 
need to prevail in future wars. The Army will continue to 
ruthlessly prioritize our budgets to provide a clear, 
predictable path forward that will achieve our strategic goals. 
That process is underway now as we develop next year's budget. 
Support for the Army's fiscal year 2020 budget is critical to 
building the Army the Nation needs and demands.
    Those who are invested in legacy systems will fight to hold 
on to the past while ignoring the billions of dollars in 
opportunity created by our investments in new technologies and 
what it means for the Army's future readiness. While change 
will be hard for some, we can no longer afford to delay the 
Army's modernization. We believe we are following the sound 
guidance conveyed to us by many of you.
    In this era of great power competition, we cannot risk 
falling behind. If left unchecked, Russia and China will 
continue to erode the competitive military advantage we have 
held for decades. The Army has a clear vision which I ask be 
entered into the record and a sound strategy to maintain 
battlefield overmatch. We are making the tough choices. We now 
need the support of Congress to modernize the force, and it 
starts with the fiscal year 2020 budget.
    The bottom line is this. We owe it to our soldiers to 
provide them the weapons and equipment they need to win 
decisively in future battles. Thank you again for your 
continued support. I look forward to your questions and 
appreciate the opportunity to discuss these important matters 
with you today.
    [The joint prepared statement of Secretary Esper and 
General Milley can be found in the Appendix on page 73.]
    The Chairman. Thank you. Without objection, the statement 
that you asked for will be entered into the record.
    General Milley.

 STATEMENT OF GEN MARK A. MILLEY, USA, CHIEF OF STAFF, UNITED 
                          STATES ARMY

    General Milley. Chairman Smith, Ranking Member Thornberry, 
and distinguished members of the committee, thank you for the 
opportunity to join Secretary Esper here today. And I would 
like to also acknowledge the great service in uniform, in 
Congress, and as the Secretary of the Air Force, with Secretary 
Wilson. Her performance and her exceptional service is a 
tremendous inspiration to all of us. It is true that the Air 
Force got away from us in 1947. We are determined to get them 
back, but we are, I can say without equivocation that the 
United States Air Force is the Army's absolute best friend in 
the field of battle, and they are always the first one we call. 
So thank you, Secretary, for your service.
    It remains an incredible privilege for me to represent the 
almost one million soldiers in the regular Army and National 
Guard, the United States Army Reserve. They are arrayed in 18 
divisions, 58 brigade combat teams, and deployed to over 
180,000 troops today in 140 countries around the world on 
freedom's frontier.
    While much of our testimony today and your questions are 
going to focus on the challenges the Army faces and how to make 
us stronger and more lethal, and that is appropriate, it is 
also important to note up front for you, the American people, 
for this committee, for the entire Congress, our allies, and 
most importantly, for our adversaries, that the United States 
Army, as part of the joint force, is a highly capable, globally 
deployable force today and we can go anywhere any time and beat 
anyone on very short notice in the conduct of ground combat. We 
have the training, the equipment, the people, the leaders to 
prevail today, and no adversary out there should ever doubt 
that.
    I concur with Secretary Esper's comments on the threats 
posed by China and Russia, and they are, in fact, in my view, 
rising. The international order, and by extension, the United 
States' interests are under increasing and dangerous pressure. 
China is a significant threat to the United States and our 
allies in the mid and long term. And I would categorize them as 
a revisionist power seeking to diminish U.S. influence in the 
Pacific and establish themselves as the controlling regional 
power in the Western Pacific, and more broadly, in all of Asia, 
and they are setting conditions to challenge the United States 
on a global scale no later than mid century.
    Russia seeks to return to great power status and will 
continue to challenge the United States not only in Europe but 
also in the Middle East, Asia, the Arctic, Africa, the West 
Hemisphere. They continue to undermine NATO as an alliance and 
sow dissent throughout the European continent as we know even 
in our own homeland through a variety of means. Russia remains 
the only current existential threat to the United States that 
will become, in my opinion, increasingly opportunistic and 
willing to take greater risks in the near term.
    So what this budget will do. In the last 17 years, our 
strategic competitors have eroded our military advantages as 
outlined by Secretary Esper. With your help, starting 2 years 
ago, we began to restore our competitive advantage, and our 
recent budgets have helped improve our readiness and lay the 
groundwork for future modernization, and we ask with this 
budget that you sustain those efforts.
    Our goal remains 66 percent, two-thirds of the Active Duty 
Army brigade combat teams, and 33 percent of the National Guard 
and the U.S. Army Reserve units, to be on the highest levels of 
readiness. Those numbers, those levels of readiness are what we 
need to be able to align with the strategy that is laid out in 
the National Defense Strategy, and with continued, consistent, 
predictable congressional support, on-time budgets, we can 
reach those levels of readiness sometime in 2022.
    Specifically, this budget will fund 58 brigade combat teams 
and 6 security force assistance brigades for the total Army, 32 
combat training center rotations to include 4 for the National 
Guard, increased prepositioned stocks in both Europe and 
INDOPACOM [U.S. Indo-Pacific Command], and many, many other 
current readiness initiatives.
    In terms of modernization, which is really just another 
term for future readiness, this budget will fund improved 
capabilities across our 6 modernization priorities which 
include 30 specific programs that are embedded within them. In 
addition, another 50 programs of significant importance of the 
Army. In short, this budget will increase the lethality of 
munitions and forces across the globe and increase the 
lethality of the Army in the future against any threat.
    Lastly, I want to highlight that this committee, Congress 
as a whole, has provided us tremendous support over the last 
several years. We recognize that, and we are committed to 
applying our resources deliberately and responsibly, 
understanding that they have been entrusted to us by Congress 
and the American people, and we will continue to do that going 
forward to ensure that we maintain our solemn obligation to our 
soldiers that we will never send our sons and daughters into 
harm's way unless they are properly trained, fully manned, have 
the best equipment money can buy, and are extraordinarily well 
led.
    Thank you again for your continued supported to our 
soldiers and their families, and I look forward to answering 
your questions.
    The Chairman. Thank you.
    Secretary Wilson.

 STATEMENT OF HON. HEATHER WILSON, SECRETARY OF THE AIR FORCE, 
                    UNITED STATES AIR FORCE

    Secretary Wilson. Mr. Chairman, I would like to put my 
entire statement in the record.
    The Chairman. Without objection, so ordered.
    Secretary Wilson. And then just summarize a few things.
    The budget that the Air Force has presented this year is 
aligned with the National Defense Strategy. That is the 
guidance we gained as we began to develop this budget, and we 
have been consistent about that all the way through.
    I would like to really just highlight three things with 
respect to our budget and the state of the Air Force today. 
Last year, the Congress asked the chief and I what is the Air 
Force you need to implement this National Defense Strategy? And 
at the time, we didn't know, and we should know. And you 
directed in the Defense Authorization Act last year that we do 
a piece of analysis on what is the Air Force we need to 
implement the National Defense Strategy. Not what is the Air 
Force we have or what is the Air Force we can afford in this 
year's budget, but what do we need.
    The answer to that is that the Air Force will be in the 
forefront regardless of where the next conflict occurs, and we 
are too small for what the Nation is asking us to do. Today we 
have 312 operational squadrons. The Air Force we need has 386 
operational squadrons. Putting that in context, at the start of 
the Gulf war, there were 401 operational squadrons in the 
United States Air Force. It is not unreasonable, given the 
threats that we face, that we need to build a larger and more 
capable Air Force. But it is not just more of the same. We have 
to evolve, to incorporate advanced technology, and use it in 
new ways.
    Second, America is building a more lethal and ready Air 
Force. We are more ready today than we were 2 years ago, in 
large part, because of the resources that Congress has made 
available to the Air Force and our focus on restoring the 
readiness of the force. That means people, and training, and 
equipment, and maintenance, and spare parts, and munitions. 
What you have allowed us to do is to be more ready for anything 
the world may throw at us.
    Third, we are fielding tomorrow's Air Force faster and 
smarter. In 2016 and 2017, the Congress gave us new authorities 
and pushed more authority down from the Office of the Secretary 
of Defense level to the services to give us more authority to 
buy equipment faster and smarter. We are implementing those 
authorities and stripping time out of program plans to get 
capability from the lab bench to the warfighter faster.
    We cannot succeed, Mr. Chairman, without your support, and 
I wanted to personally thank all of you for the on-time budget 
that you gave to us in this fiscal year. It gives us stability 
and the ability to plan and execute that budget.
    I would also be remiss if I didn't point out the need that 
we have for a supplemental for this year to cover the costs of 
the terrible storm that hit Tyndall Air Force Base and, more 
recently, Offutt Air Force Base. If we don't work together to 
find a way through to do a supplemental, it is going to have a 
devastating impact in the last 6 months of this fiscal year as 
we try to hold things together in the wake of two terrible 
storms.
    I look forward to answering your questions.
    [The joint prepared statement of Secretary Wilson and 
General Goldfein can be found in the Appendix on page 90.]
    The Chairman. Thank you.
    General Goldfein.

   STATEMENT OF GEN DAVID L. GOLDFEIN, USAF, CHIEF OF STAFF, 
                    UNITED STATES AIR FORCE

    General Goldfein. Chairman Smith, Ranking Member 
Thornberry, distinguished members of the committee, what an 
honor to once again represent your Air Force, Active, Guard, 
Reserve, and civilian airmen who stand the watch and provide 
top cover for the Nation and our joint and allied teammates to 
include the finest and most lethal Army on the planet. And I 
will just say ``hooah''.
    General Milley. ``Hooah''. Come on.
    General Goldfein. This hearing is among the first official 
forums since Secretary Wilson announced her pending departure 
from the Air Force to become a Texan. And I want to say 
publicly on behalf of all airmen and their families what an 
honor it has been to work with her every day to make our Air 
Force more ready and more lethal, and this budget represents 
the culmination of our work together to build the Air Force we 
need to compete, to deter, and if deterrence fails, to fight 
and win.
    And so I want to state for the record that we are a better 
Air Force because of the leadership and the vision of our 
Secretary, Dr. Heather Wilson.
    Chairman, I went to war for the first time as a young 
captain flying F-16s out of Shaw Air Force Base in South 
Carolina just a few days after Saddam Hussein invaded his 
neighbor in Kuwait. And as the Secretary said, at the time, we 
had 401 operational squadrons and 945,000 Active, Guard, 
Reserve, and civilian airmen in an Air Force that landed our 
Nation's initial punch: 401 operational squadrons to defeat a 
middleweight, non-nuclear power who threatened his neighbor in 
the region but who posed little threat to our homeland and our 
way of life.
    Today, as the Secretary said, we have 312 operational 
squadrons, down from 401, and we have 685,000 airmen, down from 
945,000. We are not the Air Force of Desert Storm. When General 
Tony McPeak was the chief in 1991, he and his fellow Joint 
Chiefs were focused on supporting a single combatant commander, 
General Norm Schwarzkopf, the commander of U.S. Central 
Command. But today, should deterrence fail, and we find 
ourselves defending our Nation against a major nuclear power, 
as chief, I will be simultaneously supporting at least three 
combatant commanders who will be demanding air, space, and 
cyber power.
    The geographic combatant commander will request forces to 
support his campaign which will include backfill for any 
fighters, tankers, command and control forces he will place on 
nuclear alert. The next call I will receive will be from U.S. 
Strategic Command. He will tell me how many bombers, tankers, 
and command and control forces he needs to execute his nuclear 
mission, protecting not only our homeland but also our allies 
and our partners. And the third will be from U.S. Northern 
Command who will tell me how many fighters and tankers and ISR 
[intelligence, surveillance, and reconnaissance] and C-2 
aircraft he needs to execute his plan to defend the U.S.
    And the Air Force will support these missions 
simultaneously, not sequentially, while at the same time 
shoulder to shoulder with our joint teammates maintaining a 
global presence to deter any rogue nation who might choose to 
take advantage of our situation while simultaneously 
maintaining campaign pressure against violent extremism.
    This is the stark difference between fighting a 
middleweight rogue nation without nuclear weapons versus 
competing, deterring, and if deterrence fails, fighting and 
winning a peer fight. And it is why Secretary Wilson and I 
continue to articulate in every forum that the Air Force is too 
small for what the Nation is asking us to do. It is why we 
reported to this committee that the Air Force we need to 
execute the National Defense Strategy requires 386 operational 
squadrons.
    With your support of this budget request, we will continue 
to rebuild the readiness and lethality of this Air Force which 
you supported last year with an on-time appropriation following 
a damaging sequester and years of budget uncertainty, and for 
that, we thank you.
    You know, Chairman, Ranking Member, members of the 
committee, history doesn't always repeat, but it does rhyme now 
and then. My father fought as a young F-4 pilot in Vietnam. He 
and many of his peers stayed in and rebuilt the Air Force his 
son needed to fight and win in Desert Storm, followed by 28 
years of continual combat operations including 10 years of 
Operations Northern and Southern Watch, air campaigns in 
Bosnia, Kosovo, Serbia, and continuing through the past 17 
years fighting violent extremism in Afghanistan, Iraq, Syria, 
and North Africa.
    My daughter and my nephews are young airmen today. With 
your continued support, with on-time budgets, we will build the 
Air Force they will need to fight and win side by side with our 
incredible Army in this era of great power competition. Thank 
you for the opportunity to testify, and we look forward to your 
questions.
    The Chairman. Thank you all. I will start with the Air 
Force, sort of building on the main point that both you and the 
Secretary made, General Goldfein, that--I forget the numbers 
off the top here, but roughly you said we have how many 
squadrons at this point, Madam Secretary?
    Secretary Wilson. Sir, we have 312 operational squadrons.
    The Chairman. Right. And you were saying that we needed 
388, something like that?
    Secretary Wilson. 386.
    The Chairman. 386 to get there. And, you know, I realize 
the Air Force budget is a little bit complicated because, you 
know, some of that goes to the intel, some of it goes here, but 
roughly, I think your budget request is in the $150-160 billion 
range, is that correct?
    Secretary Wilson. It is a little above 160. It is a 6.5 
percent increase over last year.
    The Chairman. Okay. So I guess the question is how much 
would you need in order to have the Air Force that you both say 
that we don't have but desperately need?
    Secretary Wilson. If you just look in rough numbers, first 
of all, we are looking out in the 2025, 2030 timeframe which is 
what you guided us to do and to look at the threat in that era.
    The Chairman. Just clarify on that point. So you are--the 
numbers that you cited earlier about how large you think the 
Air Force needs to be is to meet the 2025 threat environment, 
not to meet the current threat environment?
    Secretary Wilson. That is correct. You guided us to look in 
the 2025----
    The Chairman. I get what we guided you to do. I am not 
asking about that. You basically stated, and it seemed like it 
was more present tense than future tense when you both were 
talking about it, that we right now today do not have the Air 
Force that you think we need to defend the country, and I am 
just curious how much more money we would have to spend to get 
that Air Force.
    Now, I understand you don't create planes out of whole 
cloth in the blink of an eye, and it takes time, but putting 
that point aside, how much more would it cost to have the Air 
Force that you think we need right now?
    Secretary Wilson. Well, if you just look in rough terms, 
the Air Force we need of 386 squadrons is about 25 percent 
larger than the Air Force we have.
    The Chairman. Right. And realistically, within the budget, 
I mean, even assuming--and you got a really good budget in 
2019, $717 billion, you know, an increase. I mean, do you 
realistically think that within the DOD budget and the budget 
writ large that we are going to be able to get to those kind of 
numbers, because it is not just the Air Force that would make 
that argument about how they don't have enough. How does that 
factor into what we are realistically going to be able to 
provide you?
    Secretary Wilson. We fully recognize that there are 
tradeoffs that are made and that the country may not be able to 
afford the Air Force that we need in order to execute the 
National Defense Strategy at moderate levels of risk. What that 
represents, that gap between the strategy that we have, what is 
necessary to execute that strategy, and what we really have, 
represents risk.
    The Chairman. Yes.
    Secretary Wilson. And that risk is that we will not be able 
to accomplish the objectives that the combatant commanders have 
set out in their plans on the timelines that they have asked us 
to meet.
    The Chairman. Here is the problem I have with that, and I 
won't drill too deeply into because it could take a long time 
if I did. So we have got a $750 billion budget request from the 
President. That is a hell of a lot of money, certainly a lot 
more than a lot of our adversaries spent. And at the same time 
we got that, over the course of the last week from all of you, 
we have been getting here is the stuff that the $750 billion 
didn't include. And I haven't done the math on that one, I 
apologize, but it is a reasonably large number that the 
Pentagon is now telling us that they can't possibly--well, 
sorry. I overstated that slightly. Saying that there is an 
unacceptable level of risk created by the fact that we are not 
funding all the stuff in addition to the $750 billion throwing 
at it that we put in the budget.
    My point is this has no end, okay. I remember a discussion 
in this committee between a member who shall remain nameless 
who wanted Secretary Gates to tell him stop talking to us about 
risk. Give us the budget that has no risk in it. If Secretary 
Gates was one given to laughing, he would have. He just finally 
said we don't live in that world. You cannot eliminate risk.
    And to a certain extent, you can always compel us. I mean, 
we could spend a trillion dollars, and I am halfway convinced 
you would all be sitting here telling us okay, that is great, 
but here is all the things we can't do. And that frustrates me 
at a certain point because I hear about risk, but you know, I 
saw the CENTCOM [U.S. Central Command] nominee say 3 or 4 
months ago when the number was going to be $733 billion that 
anything below $733 billion presented a, quote, unacceptable 
level of risk. And 2 days later, it was boosted to 750 which I 
imagine that anything below 750 would present an unacceptable 
level of risk.
    What I am asking for long term is a better understanding of 
what risk is because we could throw money at you all day long, 
and you are going to come back at us and say well, there is 
still an unacceptable level of risk. I don't find that helpful, 
which brings me to my second point and that is the audit and 
the issue of not knowing where the $750 billion is going to go. 
And it is impossible to overstate this point. We literally 
don't know where a chunk of that $750 billion is going to go. 
We can identify some of it here and there, but by any normal 
accounting measure, you can't tell us where you are spending 
your money, how much inventory you have. There was, I don't 
know, something like 427 structures within the DOD [Department 
of Defense] disappeared in a year. They were just off the 
books.
    So without getting into the broader issue here, what I 
would like for you, and I will turn over to the Army now, maybe 
Secretary Esper having done the deep dive on your programs that 
you did, you can tell us. What steps could this committee take, 
and we are not going to get a full audit. I get that. I 
understand that, you know, this is probably 60 years worth of 
mismanagement in terms of accounting and accountability, and we 
are not going to fix it in a year.
    I want progress, okay. Is there some piece of the inventory 
that we could say okay, let's do a deep dive and figure out 
because we don't even use, like, a normal barcoding system to 
keep track of what we move within the Pentagon and buy and 
sell. Is there some step, steps, that we could take that are 
achievable in the short term to help us have greater confidence 
on where this 733 or 750 or trillion or whatever it is we 
decide we want is going to be spent?
    Secretary Esper. Mr. Chairman, I think the audit is very 
important. I found it very helpful during my time in the 
private sector. I think it tells you a lot about yourself and 
your organization.
    For the first year, we made our way through most of the 
process. We came up with 429 findings. We now are building 
corrective action plans for each of these. The Army Corps of 
Engineers did pass their audit, and based on our progress 
today, and we can get into the details as to IT [information 
technology] systems incompatibility, databases, et cetera, but 
we think that we will get a clean opinion on our working 
capital fund in 2021 and our general fund in 2022.
    The Chairman. Okay. But specifically to my question, you 
know, and I am sorry. Accounting is very complicated and 
difficult. I appreciate the fact that we have at least one 
accountant on the committee. I think that is enormously 
helpful. But could you give us a concrete sort of, I don't 
know, layman's example that says here is something that was 
going wrong. We have either fixed it, or we are about to fix 
it, and here is why that is going to help us better understand 
where the money is going.
    Secretary Esper. Well, what comes to mind is accountability 
of real estate, buildings, and so----
    The Chairman. Good example.
    Secretary Esper. The databases, first of all, don't 
necessarily have all the buildings in them. And if they have to 
talk between installations, I might have to come back and give 
you more detail, but in many cases, the databases don't talk. 
And then you have to go out--so we had to hire teams and 
dispatch them out to each installation to literally walk block 
by block and count buildings and describe them and try and put 
a price on them because it requires a value, and just that 
inventory process alone takes a lot of time and a lot of 
effort. But we made good progress this year.
    But then you have to update the database and make sure they 
can talk, so at the end of the day, you know what you have and 
what you don't have, and you can see yourself a whole lot 
better. That is--to me, that is what is great about an audit. 
It tells you what you really look like based on your inventory 
of your real property. You know, we have a very good 
accountability of munitions. That is pretty important, but 
across the board, that is just one example, and we can provide 
you more if you would like.
    The Chairman. And that is good, and of course, the problem 
is that it is always easier whether you do it on the front end, 
okay. So if we had had these sets set up in place in the 1950s, 
1960s, and 1970s, the incident from, like, 15 years ago when 
there were six nuclear weapons that were put on, I think it was 
a B-52, and flown across the country, and nobody knew that it 
had happened because they didn't have an adequate accounting of 
where the nuclear weapons were is perhaps the most alarming 
example. But you know, yeah, with the buildings, should have 
done that when we bought the damn things, okay. You know, why 
do you have buildings that you didn't put on the books when you 
bought them?
    So going back and fixing that I think is enormously 
important because then we can have greater confidence in the 
numbers that you all are talking about in terms of what we 
need. I could go on, but I won't.
    Mr. Thornberry.
    Mr. Thornberry. Let me just follow up on a subset of what 
the chairman was talking about. In addition to putting more 
responsibility on the services rather than DOD for the 
acquisition of things, another major push of this committee in 
recent years has been to adopt more commercial practices in 
various ways because it turns out that Walmart and others are 
pretty good at barcodes and keeping track of logistics and 
various other examples.
    But part of my frustration is a number of the things we 
passed into law have not yet been implemented because it takes 
so long to write the regulations and get through that whole 
process. I don't want to spend a lot of time on this, but can 
either Secretary Esper or Secretary Wilson give me a little 
hope that the process in implementing what we have already 
passed to improve these processes is actually picking up pace?
    Secretary Esper. I was going to let her go first since I 
will be able to do this again next year, and she won't.
    I would say, Mr. Thornberry, that we are making great use, 
I think, in the Army, probably all the services, because we 
meet and talk a lot about this. Whether it is the middle-tier 
acquisition authority, OTAs [other transaction authority], we 
are making a lot of progress on that front. I mean, a purpose 
why we stood up Army Futures Command was to get outside, out 
from behind our gates and walls, out into the community to work 
more with the commercial sector, the private sector, and 
particularly young entrepreneurs and innovators.
    And by the same token, then use that legislation to move 
quickly. So we have funded quick prototyping. We have been able 
to bring folks in in our version of a shark tank, if you will, 
to help get those innovators in and tie them--get them working 
with our requirements developer, so we are making good use of 
it. I think there is some things we need to clear up inside the 
building to make sure it is as efficient and as timely as 
possible, but we thank you for the authorities that was given 
to us.
    Secretary Wilson. Mr. Chairman, I would only add to that 
that I think the thing to be cautious about, the Air Force, 
like the Army, is moving out very quickly and not only using 
these authorities but being more transparent and accountable 
for how we are using them. I think the thing to be cautious 
about is that old habits die hard, and they are--the thing to 
watch over the coming years is attempts to take these new 
authorities and make them look like the way we used to do 
business. And there are plenty of checkers who are checking the 
checkers, and that doesn't always add all that much value.
    Mr. Thornberry. Well, it is something that I want to 
continue to talk to you all about. Again, what I am talking 
about right now are the things we already passed and 
implementing them in the way for the goals that we intended.
    Let me ask the service chiefs just to comment on one other 
issue. As has already been noted, the pace of operations, the 
rising threat, and the declining budgets resulted in a 
significant, I would say, readiness crisis. We actually lost 
lives that we need not have lost, in my opinion, because of the 
combination of those factors.
    So we, together, have put more resources into the budget. 
We have, I hope, started to turn it around, but I think it is 
important for us to hear from each of you a summary, not in 
great detail, the progress we have made on the readiness issues 
and where we are versus where we need to be. Is the job done? 
Have the last 2 years of increasing budgets and having one on 
time really got us back to where we need to be when it comes to 
readiness?
    Because as one of you said, I can't remember which one, I 
would interpret it as morally wrong to send somebody out on a 
mission without the best equipment, the best training, the best 
support that this Nation can provide. And that is on our 
shoulders as much as you-all's. So I would appreciate, General 
Milley and General Goldfein, a snapshot of progress on 
readiness and where we are versus where we need to be.
    General Milley. Thanks, Congressman. I appreciated the 
question. In short, about 55 percent, as Secretary Esper said, 
and we have improved our readiness of our tactical units. When 
I became Chief of Staff 3\1/2\ years ago, there were three 
brigade combat teams at the highest level of readiness. Today 
we have got, roughly speaking, 28 as of about December. So that 
is a significant improvement, but that is not where we need to 
be.
    If we are serious about great power competition and really, 
the key, we want to be able to win if deterrence fails, but the 
key is deterrence. You never want the question asked or 
answered whether you can win or lose against Russia and China. 
You want to deter the possibility of conflict being raised. So 
the way to do that is strength, to have large, capable, 
extraordinarily ready forces that can rapidly deploy and 
project combat power anywhere on earth.
    And then if the enemy or your adversary knows that, then 
the probability of them taking a risk and crossing some sort of 
red line won't happen. So for the Army, we have improved our 
readiness significantly in the last 2 years or so, but you are 
not going to dig yourself out of an 8- or 10-year hole plus all 
the cost of fighting a war in Iraq and Afghanistan, et cetera. 
You are not going to do that in just two budget cycles. This is 
going to be a sustained level of effort.
    We think if all other things remain equal, which of course, 
they never do, we think, though, if they do that we will be at 
the levels of readiness we project, 66 percent in the Regular 
Army, 33 percent in the Guard and Reserve, sometime in 2022. If 
we don't get budgets on time, we won't. If we go to a BCA 
[Budget Control Act], it will be catastrophic. We will revert 
back to squad- and platoon-level training which will increase 
risk and increase the probability of war.
    So readiness is all about being able to fight and win, but 
it is all about deterrence, and that is really what the game 
is. So we want to--we have a ways to go, a lot of work to do, 
and we appreciate your continued support.
    General Goldfein. Sir, what I would just add to that is 
that, you know, we stopped the crisis in 2018. We sort of 
leveled off. We began the recovery in 2019, and what we are 
bringing forward in 2020 continues and actually accelerates 
that recovery going forward.
    For the Air Force, readiness first and foremost is about 
people, and I know we have had this discussion. We were 4,000 
maintainers short, and we are--with your support, we have 
closed that gap to zero. They are young, but we have closed the 
maintainer gap, and so--and we are also flying more in this 
budget than we have in the past, so we are moving in the right 
direction.
    Among the most important things that Secretary Wilson and I 
did was we took--we are approaching the additional dollars 
towards readiness different than we have in the past. In the 
past, we would have spread that across all squadrons, and then 
all ships would have rose to a higher tide over time. We 
determined we couldn't wait that long, so we went back and 
looked at those squadrons that are required in the opening days 
of a China or a Russia campaign, labeled them as pacing units, 
and we took the additional money and put it to them first. And 
as a result of that, we were able to shorten our readiness 
recovery by 6 years.
    So today, over 90 percent of the lead packages for those 
pacing units required in the opening days of a China/Russia 
campaign, over 90 percent of those are ready for combat 
tasking. The remainder of those pacing units will be complete--
will be ready in 2020, and then we will continue to apply that 
additional resources as we go forward.
    And I would just end by saying that we also, for the Air 
Force, have a very near-term readiness challenge, and that is 
the impact of readiness if we don't get a supplemental because 
right now, we are cash-flowing the recovery of Tyndall and 
Offutt. And as the Secretary is forced to make decisions as we 
go forward, that is going to have an absolute near-term impact 
on the readiness of our force.
    Mr. Thornberry. Well, I appreciate it, and I think it is 
important to look at what our responsibility in this is as well 
as you-all's.
    Mr. Chairman, I yield back.
    The Chairman. Thank you. Ms. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    I want to thank you all for your dedicated and 
distinguished service, and particularly best wishes as you move 
on, Dr. Wilson. And with that, I will defer my questions to Ms. 
Slotkin.
    Ms. Slotkin. Thank you, Congresswoman.
    General Milley, I was really glad to hear in your opening 
statement that you described Russia as, quote, the only current 
existential threat to the United States. I just want to make 
sure I have that. It wasn't in your written statement. I just 
was hoping you could confirm that statement that you read aloud 
here in front of us.
    General Milley. That is correct. And the reason for that is 
because of Russian nuclear capability. Now, we have nuclear 
capability as well, so there is, therefore, a standoff and 
mutual deterrence. But because of their nuclear capability, 
they are the only country on earth that is capable. I am not 
saying they would do it----
    Ms. Slotkin. Right.
    General Milley [continuing]. But they are capable of 
destroying the United States of America.
    Ms. Slotkin. I just thought it was just a really important 
and striking statement from someone who is going to be our 
chairman soon, and I hope you maintain that strong focus on 
that threat as you elevate to the chairman position and keep 
that independent voice with our President and with others.
    I wanted to ask both service chiefs or basically everyone 
on there. We are about to have NATO's 70th anniversary. We have 
the secretary general coming to speak with us, and the 
conversation around partners and allies and their value to us. 
I think sometimes the conversation gets caught up in sort of 
the feel good pieces of having allies and partners where I see 
it as, you know, our allies and partners have a real economic 
value to us. When they come and fly their F-16s in our 
operation, that is one F-16 we don't have to fly, right? When 
they bring their carriers in, when they bring their resources 
in, that that actually lessens the burden on us. And can I have 
both generals speak to the financial value of fighting in 
combination with allies and partners?
    General Goldfein. Well, I will give you one example that is 
real term right now today, and that is the combined North 
American Command-NORAD [North American Aerospace Defense 
Command] that protects the homeland with Canada. And so every 
day we stand the watch protecting this homeland with our 
Canadian allies and partners with dual-headed commander at 
NORTHCOM-NORAD, and so that is just one example of how we 
benefit from it every single day.
    General Milley. I commanded the IJC [International Joint 
Command] corps-level headquarters underneath General Dunford in 
Afghanistan a few years ago, and I think we had 42 allies and 
partners at the time. Every one of those soldiers that filled a 
duty position would have otherwise had to have been filled by 
an American soldier, so that is an example.
    But more broadly, though, on 19 February 1945, my father 
hit the beach at Iwo Jima, and 7,000 Marines were killed in 19 
days, 34,000 wounded in action in that same time. My mother 
took care of the wounded coming back.
    The reason NATO exists is to prevent a war, a great power 
war. We did two of those, World War I and World War II. The 
reason it went into place is because those people 70 years ago 
said we screwed this up. The first half of the last century was 
a mess, 140, 150 million people killed between 1914 and 1945. 
We cannot do it again. Allies matter, NATO matters, and working 
together shoulder to shoulder matters in order to maintain the 
international order, preserve deterrence, and prevent great 
power war.
    Ms. Slotkin. I appreciate that.
    Turning to the budgets, you know, I think--when I am at 
home in Michigan trying to explain increasing budgets to the 
population back home will feel like they want money invested in 
different ways, you know, I am always a huge advocate as 
someone who has been in the defense world my entire life, but I 
see the conundrum between the complete lack of uncertainty that 
you all have to deal with from us, right, and knowing what your 
budget is going to be year after year, dealing with things like 
sequestration; and then on the other side for us and the 
American public, the lack of transparency because we can't say 
with a straight face that you all can pass an audit. That, to 
me, is the conundrum.
    So I wanted to ask this question. First of all, I am glad 
to hear that there is going to be progress on the audit. I 
can't emphasize enough as someone who speaks with the general 
public, if I can say you guys can pass an audit, it is a lot 
easier to advocate and explain to the American people why the 
budgets need to keep going up. Would you take the tradeoff of 
more predictability over a 5-year period, concrete 
predictability, for a lower top line?
    Secretary Wilson. Congresswoman, I have never been asked 
that question before, but I think predictability matters. And 
particularly, given the history of what we have seen in 10 out 
of the last 11 years where programs get scrunched and things 
get stretched out, I think it actually does matter quite a bit. 
I know how hard it is to think about it when you are 
budgeting----
    The Chairman. The gentlelady's time has expired. If you 
could summarize quickly.
    Secretary Wilson. I think that is it.
    The Chairman. Great. Very well done.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman, and thank each of you 
for your service, and thank you for being here today with 
Secretary Wilson. I was really grateful. In serving in the 
House, we were the Wilson and Wilson team. And so I just wish 
you best on your future career, and I am very pleased to find 
out that the ranking member, Thornberry, is thrilled about your 
coming to Texas. It is all positive.
    And Madam Secretary, in October of 2018, the Secretary of 
Defense issued a memorandum directing the Air Force to achieve 
an 80 percent mission capable rate for F-15s, F-22s, and F-35 
aircraft by the end of fiscal year 2019. Will the Air Force be 
able to meet this readiness goal on each of the platforms, and 
how will it sustain 80 percent mission capable rate?
    Secretary Wilson. Mr. Chairman and Congressman, there is a 
couple of things that are conditional now. If we don't end up 
with a supplemental, it will be extremely difficult to meet 
those readiness, those mission capable rates.
    With respect to the overall plans, we are trying to meet 
the guidance of the Secretary of Defense, but for the Air 
Force, we are not just interested in mission capable rates of 
pieces of equipment. We are actually looking at the C1 and C2 
readiness rates of units. I can have mission capable aircraft 
that are sitting in a hangar, and it doesn't give us the combat 
capability that we need. So we look at overall readiness, and 
the chief described our readiness recovery plans.
    Mr. Wilson. And it is very encouraging to see the focus on 
readiness.
    Secretary Esper, I am grateful to represent the people of 
the Second District of South Carolina which is the home of Fort 
Jackson. Fort Jackson trains over 60,000 soldiers per year with 
about 10,000 soldiers in basic combat training on any given 
day. The Army brought in 70,000 troops last year. How are you 
improving basic training facilities at Fort Jackson? Please 
describe how this budget invests in better trained soldiers so 
that they can be ready to execute the duties upon arrival at 
their first duty station.
    Secretary Esper. Yes, sir. So one of the reforms we made 
over the past year involves basic training for our infantry 
soldiers, and this pilot was conducted at Fort Benning but will 
find its way to our other posts where we train infantry 
soldiers.
    Basically what we did was this. Recognizing the needs of 
the operational force, we expanded combat basic training, one 
station unit training, from 14 weeks to 22 weeks, by 2 months. 
We instituted a number of reforms where we changed the program 
of instruction to reflect the challenges of future warfare such 
as urban--fighting in urban warfare environments.
    We also addressed additional physical training for our 
soldiers. We lowered the drill sergeant ratio to 12 to 1, and 
we have seen incredible results from this pilot, and that will 
eventually work its way to Fort Jackson as well.
    Mr. Wilson. That is very encouraging. And Ms. Secretary, it 
is very encouraging the Army plans to field two batteries of 
the Iron Dome system which was developed in Israel in the 
continental United States as an interim solution for the 
indirect fire protection capability against rockets and cruise 
missiles. Is the Iron Dome an interim solution or an enduring 
solution? When do you plan to submit the request to Congress? 
What would be the impact to national security if the request is 
not approved?
    General Milley. Let me, if I could, Congressman----
    Mr. Wilson. Yes, General.
    General Milley [continuing]. Just comment on that. The Iron 
Dome is a very capable system. It is got basically 100 percent 
track record in combat. We clearly need it to protect our 
formations, and we are buying the two batteries as mentioned. 
They will be coming online here next year, 2020, as part of 
this budget, and we will have the first unit equipped, and we 
will employ them as necessary.
    Mr. Wilson. Well, it is an extraordinary system.
    General Milley. It is extraordinary.
    Mr. Wilson. And it is very encouraging.
    General Milley. It is very good
    Mr. Wilson. And, General, how is the Army progressing 
towards the goal of ensuring 66 percent of the force is ready 
as meeting full-spectrum readiness requirements? Will the Army 
reach this by fiscal year 2022?
    General Milley. I believe, yes, unless--if the 
international environment remains as it is right now and we get 
predictable budgets on time at the amounts requested, then I 
think we will--our estimate is--the Army's estimate is it will 
achieve the 66 percent and 33 percent for the Guard and Reverse 
by sometime in 2022.
    The key components are manning, training, and equipping, as 
you well know. Equipping has come along very, very well with 
these budgets. We have increased the pace and OPTEMPO 
[operational tempo] of training. We have reorganized the CTCs 
[Combat Training Centers] and the amount of time for Guard and 
Reserve. The long pole in the tent has always been manning, and 
it remains manning. So we want to get the formations that we do 
have on the books, we want those manned at 100 percent strength 
for all the combat units brigade and below by 2022. And once we 
achieve that, we will look at other formations.
    Mr. Wilson. Thank you very much.
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank all 
of our witnesses for your testimony today, and I most 
especially want to thank you all for your service to the 
country. Madam Secretary in particular, we have had the 
opportunity to work together both on the HPSCI [House Permanent 
Select Committee on Intelligence] and the HASC [House Armed 
Services Committee], and I appreciate the great contributions 
you have made to our national security and wish you well as you 
transition now into the next chapter of your career.
    And General Milley, I just want to take the opportunity to 
congratulate you on becoming the next Chairman of the Joint 
Chiefs, and look forward to our continued working relationship 
as well.
    If I could start with Secretary Wilson.
    You recently testified that the recovery and reconstruction 
of Tyndall and Offutt Air Force Bases, which have been 
devastated by extreme weather and flooding, will cost nearly $5 
billion. The fiscal year 2018 NDAA [National Defense 
Authorization Act] requires that the Department of Defense 
describe future-focused mitigations needed to ensure mission 
resiliency and their cost.
    Unfortunately, the Department of Defense has failed 
significantly to meet its statutory mandate on this report, and 
I am concerned that we are now in a cycle of throwing good 
money after bad. The lack of foresight with regard to 
investments, in my opinion, in resiliency is not only fiscally 
irresponsible, but places our service members and our readiness 
at risk.
    So my question is really to all of our witnesses, and I 
don't want anybody filibustering, I want to try to get to these 
as quickly as possible. I have several.
    Do you agree that the changing climate poses a threat to 
our readiness?
    Secretary Esper.
    Secretary Esper. I am not sure that I could say that it 
poses a threat to our readiness, but climate change is 
something we have to take into account as we consider our 
installations, our training ranges, and how and where we may 
fight in the future.
    Mr. Langevin. General Milley.
    General Milley. I would say the effects of climate change 
are things that we have to consider at the strategic, 
operational, tactical level in all of our military operations 
in the future.
    Mr. Langevin. Secretary Wilson.
    Secretary Wilson. I agree, we have to take it into account 
for the Air Force. Weather and weather effects, from the South 
Pole to the deserts of the Middle East, is something we have to 
deal with and predict every day.
    Mr. Langevin. General.
    General Goldfein. I would just add that we are a land-based 
force that is globally--we have a global footprint, and so we 
are watching everywhere, and especially in the Arctic, where we 
have a significant footprint, and the effects there.
    Mr. Langevin. So to each of you, are you planning and 
making investments in the fiscal year 2020 budget in order to 
mitigate the risks that we will face in the short, medium, and 
long term to our CONUS [continental United States] and OCONUS 
[outside continental United States] installations?
    Secretary Esper.
    Secretary Esper. Mr. Langevin, we are doing work at our 
installations, consistent with our installation management 
plans. But I would have to go back and bring you back more 
detail to lay that out more clearly for you.
    Mr. Langevin. Okay. I would welcome that answer when you 
have a chance to get up to speed on it.
    General.
    General Milley. The same thing. We will have to get back to 
you for the record, Congressman.
    [The information referred to was not available at the time 
of printing.]
    Mr. Langevin. Secretary Wilson.
    Secretary Wilson. Congressman, when we are rebuilding 
Tyndall, we are trying to rebuild it in a way that is 
resilient. And we actually have a new infrastructure investment 
strategy that tries to make our bases resilient, because we 
fight from our bases and they have to be resilient to all kinds 
of adversaries, including the weather.
    Mr. Langevin. General.
    General Goldfein. Yeah, same.
    Mr. Langevin. Okay. I would hope that we are building 
resiliency in, that we are planning ahead. I mean, climate 
change, whether people want to recognize it or not, it is 
happening, and we are going to be throwing good money after bad 
if we do not plan.
    Whether a base should be rebuilt or we build it resiliency 
in, it has to be done, because it is going to be a waste of 
taxpayer dollars if we don't. And it is going to affect our 
mission readiness, I am convinced.
    So what I want to ask, Secretary Esper, let me switch to 
this--well, let me ask you, how are you evaluating those risks 
as they evolve? How are you prioritizing your budgets? And can 
you commit to providing a briefing in the coming months on this 
topic and the methodologies that you are using?
    Secretary Esper. Congressman, you are referring with regard 
to the impacts of climate change?
    Mr. Langevin. Yes, and your planning and how you are 
building----
    Secretary Esper. Yes, sir, we will commit to coming back 
and briefing you.
    Mr. Langevin. Okay.
    And, Secretary. Or whoever.
    Secretary Wilson. Congressman, I would say that, for 
example, in our infrastructure strategy, when we look at a 
base's resilience, we look at how is it--you know, we are doing 
some things in the Arctic with respect to making sure 
permafrost stays permanent. I was just at Offutt Air Force 
Base, and because of the backup power systems we put in, 
STRATCOM [U.S. Strategic Command] and the new STRATCOM 
headquarters didn't miss a beat, even though a third of the 
base was being flooded by the terrible storms that----
    The Chairman. And again, I apologize, the gentleman's time 
has expired.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Secretary Wilson, it is great to see you. It is great to 
have you here before us as Secretary of the Air Force. We are 
all saddened that you are departing, but I look forward to when 
you return as Secretary of Defense. I am going to say that 
everywhere I go, because I think you truly, with your 
background and expertise, I think, are very poised to be the 
first female head of the Secretary of Defense, and I look 
forward to when we welcome you here at that time.
    General Goldfein, you have stated I think most eloquently 
about the budget that we are facing and the real costs if the 
number should go down. We have seen budget proposals of $750 
billion, we have seen 733. There have been some who have said 
it could even be lower.
    You have made it clear that this is not a luxury, that 
there are real, hard things that would be devastating to the 
Air Force if this number goes down. Could you please share 
those thoughts with us?
    General Goldfein. Yes, sir. And all the Joint Chiefs as we 
have gotten together to talk in the Tank with Chairman Dunford, 
we have all aligned with the fact that at 3 percent real 
growth, it allows us to maintain our current capability; 5 
percent growth actually allows us to both modernize and really 
improve readiness.
    The impact of the instability, we talked earlier about the 
impact to the services and our ability to plan ahead, and that 
is a real challenge for us.
    Mr. Turner. But, General, you have talked about, like, we 
will lose specific things; there are things that will be 
affected in your capabilities if this number drifts downward. 
Can you speak to those?
    General Goldfein. Yes, sir. There will be flying hours that 
we will lose, which are a direct impact on readiness. There 
will be aircraft modernization that we will lose, which we 
absolutely need to stay ahead of the threat. And there will be 
significant impacts on our investment in space, which is 
significant as we go forward to transition from a benign 
environment to a contested environment.
    Mr. Turner. Okay. Thank you.
    Secretary Wilson, as you know, I am the past chair of the 
Air and Land Subcommittee, so I am very dedicated to our work 
to go to fifth-generation aircraft and the F-35. I am 
disappointed, obviously, in the number of aircraft that the Air 
Force is currently looking to acquire for the F-35. The prior 
budget request had indicated that you should be probably at 60. 
The request we get is 48.
    I just wanted to have a discussion with you, that we all 
know about the F-35 production, and just get your confirmation 
of my thoughts here.
    If we don't buy more F-35s next year, we can't buy more 
than next year, right? I mean, because every year that we put 
off increasing the amount of F-35s that we buy, the supply 
chain doesn't keep up, the production line doesn't keep up, and 
we put off the ability for us to ramp up to where we would have 
both increased cost savings and also increased numbers of F-35 
that we can put into service.
    Do you have some concerns that as we continue to put off 
buying higher numbers of F-35s, that we are really just locking 
in increased costs, locking in inefficiency, and making it more 
difficult for us to have the flexibility to do that later?
    Secretary Wilson. Congressman, I am not sure that I am 
concerned so much about those effects. I do think that we--the 
Air Force is committed to the F-35. We need its game-changing 
capability.
    We also need both capacity and capability. And one of the 
things that we are facing, now let's--I mean, let's go back a 
second. It was before any of all of us were here, really, but 
it was the F-22 was supposed to replace the F-15. That didn't 
entirely happen. And those decisions are made and behind us.
    The reality is we have got F-15Cs that are not going to 
live long enough to get replaced, and the consequence would be 
that our force structure will decline in size. The best thing 
we think we can do given the resources that we have is to buy 
the 48 F-35s this year and to supplement them by replacing the 
F-15Cs.
    Mr. Turner. Okay. Well, I didn't raise the F-15 because I 
really think it should not be an apples-and-oranges discussion. 
As we were having the discussion earlier, in fact, you had 
represented that you thought that the choices of modernizing, 
or buying new F-15s, shouldn't be at the cost of the F-35.
    Which is why I wanted to walk you through the--if we buy 48 
aircraft this year and not 60 doesn't it make it more difficult 
to buy 78 the next year? And isn't it absolutely that we lock 
ourselves into an inability to have flexibility to increase the 
number of the F-35s by what we do this year?
    Secretary Wilson. Congressman, as I understand it, we had 
our folks check with Lockheed, could they build 60 this year, 
in the fiscal year 2020, and the answer is, yes, they could. So 
as far as flexibility in the supply chain, I think at least at 
that level, that kind of flexibility exists.
    I would also maybe ask the chief to talk a little, 
including about the UPL [unfunded priorities list].
    Mr. Turner. But it does generally affect the next year, 
right? I mean, if they could do 60 this year but we only buy 
48, aren't they going to come back and say, well, we could do 
60 next year, versus we could do 78 next year? I mean, we are 
pushing off the inevitability of the ramp-up that we are losing 
by us pulling that line forward.
    General Goldfein. Yes, sir. I can't speak for industry, but 
my understanding of how they invest in their workforce, in 
addition to the tooling and the line, is that they invest year 
to year. And so it would be more difficult to go to--the larger 
the jump, the more difficult it will be for industry.
    Mr. Turner. Secretary Wilson, you have done an excellent 
job of trying to lower the cost of sustainment for the F-35, I 
know, with the problems that we have had with the ALIS system 
that you are working on. Can you give us a short update on 
that?
    Secretary Wilson. The Air Force is using its software 
factory, called Kessel Run, and working with Lockheed to jump 
forward to development ops and get more capability to ALIS 
faster, and the first drop of software, I believe, is this 
month.
    Mr. Turner. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    They seem determined, Secretary Wilson, to ask you the 
question with, like, no time left, and then force you to answer 
that. So I appreciate your flexibility on that.
    I do want to have just one point of clarification, maybe 
General Goldfein. Is it your testimony that you do not feel 
that the Department of Defense can adequately defend the 
country for $733 billion?
    General Goldfein. Sir, I absolutely believe that we can 
defend the country today. I think the question that you asked 
us, you specifically asked us was, what does the Air Force need 
in the 2025 to 2030 timeframe to be able to adequately defend?
    The Chairman. Right. And I apologize, I am going bigger 
picture here than just your individual budgets.
    And, General Milley, as the soon-to-be Chairman of the 
Joint Chiefs of Staff, I mean, we have heard testimony about a 
bunch of numbers. Do you think you can adequately defend the 
country for $733 billion in the fiscal year 2020 budget? 
Forgetting the future for the moment, just talking about the 
fiscal year 2020 budget.
    General Milley. I think the Army's component of the defense 
of the United States, what we are asking for, the answer is 
yes.
    The Chairman. Okay. Thank you.
    Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    Thank the witnesses.
    I would like to ask Secretary Wilson and General Goldfein a 
very simple question. Are you in favor of the Pentagon's 
current proposal for a space force?
    Secretary Wilson. Yes.
    General Goldfein. Yes.
    Mr. Cooper. I thought your testimony was interesting. On 
page 9 you say--you use the passive voice here: ``The 
Department of Defense recently submitted legislation to 
establish the space force as a new armed service within the 
Department of the Air Force.'' You didn't seem as enthusiastic 
in that paragraph as in some other paragraphs.
    Secretary Wilson. I am not really sure what to say about 
the use of the passive voice. Maybe my English teacher would be 
upset with me. But the point is that the proposal came from the 
Department of Defense. It wasn't something that we just wrote. 
That was all I was trying to say.
    General Goldfein. Congressman, can I offer that when the 
President gave guidance, we spent several months within the 
Department of Defense debating, very robust debate, on where we 
would land to get in line with his guidance. And that was 
everything from the initial guidance of the separate service, 
separate department, and everything that comes with that, to a 
JAG [Judge Advocate General] Corps, Medical Corps, and 
everything in between.
    Where we landed, from a warfighter's perspective, is a 
recognizable place to have a service that stands up within the 
Department of the Air Force. That decision was made just prior 
to the legislative proposal coming forward.
    And so since then, we have been directed by the Secretary 
of Defense to do the detailed planning associated with what 
this force looks like, and that detailed planning is weeks old.
    Mr. Cooper. More use of the passive voice. You said, the 
decision was made. So I want to know whether the Air Force will 
be enthusiastic about the space force proposal, or are you 
being dragged, kicking and screaming, to support this?
    General Goldfein. I think the fact that we are having a 
national debate about space is absolutely necessary, it is 
needed, and I give the President and the administration a lot 
of credit for raising this level of conversation to the one we 
are having.
    Mr. Cooper. I am not hearing anyone being dragged, but I am 
hearing some gritting of teeth.
    General Goldfein. Sir, there is no gritting of teeth here. 
This is from a warfighter's perspective and as someone--you are 
not going to have many folks sitting in front of you who have 
actually employed space capabilities in combat, like I have, as 
the space coordinating authority for Central Command. And let 
me just tell you that the path that we are on and where we are 
going is the right path.
    Mr. Cooper. So it is wholehearted and full-throated 
support?
    General Goldfein. Yes, sir.
    Mr. Cooper. Whoa. So although the previous testimony had 
been you needed $13 billion to do it, the $2 billion that is in 
the Pentagon's proposal now is sufficient?
    Secretary Wilson. Congressman, let me talk to you a little 
bit about cost estimates. We were asked to come forward with 
the cost estimates for a variety of pieces of proposals. That 
includes the standup of a unified combatant command, which has 
already been approved by Congress, and it included everything 
that would go towards making a fully stand-alone department.
    The proposal that the President approved does not create a 
full stand-alone department. It creates a service underneath 
the Air Force. And one of the benefits of that is that it costs 
less money.
    Mr. Cooper. Well, we like things like in the Army 
testimony, doing more with less. That is an awesome position to 
be in. I hope we can do it here.
    If memory serves, the record of the Air Force in regard to 
the space force is first opposition, then support, once the 
President came on board, now full-throated, wholehearted 
support, although at different budget numbers.
    Is the current Pentagon proposal, is it unamendable, is it 
perfect, or should Congress weigh in with substantial changes?
    Secretary Wilson. Congressman, I think that there is a 
proposal, which we support. We also recognize that this is a 
conversation and that legislation is required by this 
committee, by the House, and by the Senate, and we are open to 
discussing those things with all of you.
    Mr. Cooper. Finally, in the short time remaining, how 
urgent is this request? How quickly do we need to act in order 
to prevent the U.S. from falling further behind?
    Secretary Wilson. Congressman, I think the most important 
thing is the programmatic changes that you approved in fiscal 
year 2019 and the elements in the budget. We also believe that 
this is the year to go ahead and make the changes that are 
needed with respect to organizational structure, and we will 
work with you to accomplish that.
    General Goldfein. Sir, can I add just in a few seconds, of 
all of the work we have ahead of us, the most important work we 
do right now is stand up the new combatant commander, because 
that normalizes the business of warfighting going forward. As 
we get that, every other action we take now follows that and 
aligns with where we need to go.
    Mr. Cooper. Thank you.
    The Chairman. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    And, General Goldfein, you are absolutely right, I agree 
with you on that.
    First of all, thank all of you for your service.
    General Milley, congratulations on your promotion.
    I wanted to ask you, we all know that the Army's Future 
Combat System [FCS] and Ground Combat Vehicle programs were 
failures. How and why will the Optionally Manned Fighting 
Vehicle be different?
    General Milley. I think the key is that, number one, the 
technologies have advanced to a level where we have confidence. 
Secondly is we are doing a lot of experimenting and 
prototyping.
    And that is fundamentally different than what happened 
with, as you noted, with FCS. With FCS we got out in front of 
our headlights in the sense that we were trying to demand a 
requirement and a vehicle for which the technology wasn't 
mature.
    But we know factually that optionally manned or robotic 
vehicles work today. They are working in the commercial world. 
They are driving and delivering goods and services up and down 
the highways and byways of America even as we speak. So it does 
work.
    Driving on the highway is a little bit different than 
driving through the hinterlands or the mountains or the terrain 
of the Earth's surface or in some urban areas that might be a 
result of combat operations.
    So there is some more research, development, science, 
technology that has to be done in order for these robotic 
vehicles to negotiate that type of terrain, and there are some 
more challenges. So I don't want to be Pollyanish about it.
    But we are very, very confident it is going to work, and 
the vehicles that we think will come off the production line 
here in the not too distant future will have great capabilities 
to be optionally manned.
    Mr. Rogers. It appears that the U.S. is finally going to 
withdraw from the INF [Intermediate-Range Nuclear Forces] 
Treaty. Does the Army intend to remove the previously imposed 
range restrictions on your long range precision fires 
initiative that complied with that treaty heretofore?
    Secretary Esper. Congressman, if and when we depart from 
the treaty, the Army is prepared to move forward in extending 
the range of our Precision Strike Missile, for example.
    Mr. Rogers. Great. Thank you.
    I yield the balance of my time to Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Rogers.
    Secretary Esper, last week we received the Army's unfunded 
requirements list, and the railhead at Fort Drum was at the top 
of this list. That is a project that I have very much 
supported.
    Can you explain why infrastructure projects such as this 
railhead at Fort Drum did not make it into the budget request 
and what you are doing in the interim to ensure that units like 
the 10th Mountain Division maintain the capability to rapidly 
deploy in response to worldwide threats?
    Secretary Esper. Right. I will take the first stab at it 
and then let the chief do, as well.
    So on improvements such as that, and MILCON [military 
construction], the wants and needs always exceed the resources, 
and we try and prioritize them based on readiness and power 
projection. Clearly for our installations--and Fort Drum is one 
of them, of course--they are places by which we project power 
forward.
    The Army's--first thing it needs to do anywhere it goes is 
deploy. We have to get there, which means getting first from 
the fort to the port, and then port to overseas.
    So we rack and stack those, and we put them in the order 
based on what we think the mobilization process looks like and 
the timelines for deployment, and that is how we come up with 
that list. And that is likely how it made it onto the UFR 
[unfunded requirements] list, if you will.
    Ms. Stefanik. General Milley.
    General Milley. Just a process note. Each of the service 
chiefs submit the UFR list, the unfunded requirements list, 
based on our assessment of risk and our chiefs' assessment of 
risk that feeds into the Chairman's Annual Risk Assessment. So 
everything is related to risk, as was pointed out by Chairman 
Smith early on.
    With respect to Fort Drum, as you know, the commandant up 
at Fort Drum, that railhead is very important, 10th Mountain 
Division has a strategically deployable, rapidly deployable, 
division size capability, and that railhead is critical to 
getting the troopers from 10th Mountain Division out the door.
    So we want to make sure it is up on there. However, within 
the UFR list, I decided to put that on there as one of many 
things that I think would improve our readiness, if additional 
moneys became available.
    How does it rack and stack to the $182.3 billion of 
requirements that we put into the budget? It was just below the 
cut line on the 182.3, but if additional moneys became 
available, it is on that UFR list, and we would like to see it 
funded if possible.
    Ms. Stefanik. Absolutely. So I will continue to prioritize 
that project and fight for appropriations when it comes to the 
MILCON budget.
    With 30 seconds left, I will ask a question for the record, 
and you can submit written response.
    Secretary Wilson and Secretary Esper, I am curious to hear 
your thoughts and feedback on the transition to the Defense 
Health Agency. What challenges have your services faced? And 
what lessons can we learn from that transition?
    This is something that we understand deeply in the north 
country in New York, given that Fort Drum is one of the only 
Army installations without a hospital on post. We work with 
civilian hospitals. General Milley, of course, is very familiar 
with this model.
    But I will take that for the record and look forward to 
reading your written response.
    Thank you. I yield back.
    [The information referred to can be found in the Appendix 
on page 109.]
    The Chairman. Thank you.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And thank you to all the witnesses this morning.
    In particular, Secretary Wilson, congratulations on your 
service and leaving on your own terms, which is the best way to 
end your chapter, and I am sure you are going to do great 
things in the future.
    After listening to all the Texas talk this morning, I just 
want to say congratulations to General Milley. It is nice to 
see a citizen of Red Sox Nation leading the Joint Chiefs.
    General Goldfein, in July 2017 a Marine Corps KC-130 
crashed and took the lives of 17 service members. The Navy, in 
the wake of that, requested and Congress appropriated funding 
to replace the legacy propellers on the entire C-130 fleet.
    I know the Air Force temporarily grounded the Air National 
Guard C-130s, but it is very unclear whether or not you are 
going to proceed along the same path in terms of replacing 
those propellers, which certainly was identified as a 
contributing factor in terms of the crash.
    Could you clarify what the Air Force position is and 
whether you are going to proceed in terms of replacing those 
propellers?
    General Goldfein. Yes. Thank you, sir.
    So what we found as a result of the accident investigation 
was that propellers procured before--or made before 1971 needed 
to be replaced. We have completed the replacements of all of 
those.
    The propeller that now we are looking at--and we are doing 
the acquisition strategy right now--is the NP2000. It is an 
eight-bladed propeller. And we started off with a business case 
analysis. We are actually now working through the acquisition 
strategy because we think it is the right strategy going 
forward to replace all of the propellers in the C-130H 
community with that.
    Mr. Courtney. Well, that is good to hear because the 
propeller that was involved in that crash was actually a 1980s 
propellers. So I think really let's just move forward, and I am 
glad to hear your answer this morning.
    On March 14, Dr. Roper came before Seapower and Projection 
Forces and talked about the foreign object debris that was 
found at the KC-46 tanker. At that point, he had just visited a 
Boeing factory and said that he felt that their processes were 
valid.
    Unfortunately, 11 days later, they found a second incident 
involving foreign object debris. Could you talk about what the 
Air Force's response is to that second incident?
    Secretary Wilson. Thank you, Congressman.
    We actually stopped again the acceptance of the KC-46s 
because of foreign object debris that we found in some closed 
compartments. We have got corrective action in place, including 
a 100 percent look at some of those closed compartments to make 
sure that the production line is being run the way that it 
needs to be run.
    Mr. Courtney. Great. Well, I know you had made some pretty 
optimistic projections about full delivery, and it just seems 
these keep sort of getting in the way. And hopefully we are 
just going to make sure that the oversight continues as strong 
as possible.
    I would like to go back to the space force proposal, 
because in the budget document that was submitted, section 
1707, I mean, there is some pretty extraordinary transfer 
authorities which the administration is proposing. In fact, 7-
year blanket funding that would allow DOD to move funding from 
anywhere--anywhere--in the Department to the space force as 
long as it is somehow connected.
    Given what is going on right now in terms of the heartburn 
surrounding the transfer authority for border projects, why 
can't we just do a 1-year transfer and then do normal 
budgeting? Why is 7-year transfer authority part of this 
proposal?
    Secretary Wilson. Mr. Chairman and Congressman, we will 
obviously work with you on those kinds of specifics of the 
proposal, but we do need more than 1-year transfer authority. 
At least we think we do. We are in the midst of doing all of 
the detailed planning the chief referred to. We have a team 
that is stood up within the Air Force to go through all of the 
details of what would be required, when.
    Mr. Courtney. Because obviously that sort of changes the 
budget projection that, again, we just discussed here a moment 
ago. If there is transfer authority of that sweeping in nature, 
I mean, actually, the costs could be far different than what 
was put into the budget as a line item.
    Just again, Secretary, Army Secretary, thank you for being 
here today. Again, we just had a discussion regarding the Fort 
Drum construction issue which was left out of the budget. 
Again, that unfunded projects list that came over from the Army 
last week coincided with the $1 billion transfer for border 
construction. How do you balance moving money out of the 
Department of the Army at the same time you are coming back to 
Congress, saying, oh, by the way, there are unfunded 
priorities, such as the Fort Drum project?
    Secretary Esper. Right. I understand, yes, sir.
    Well, Congressman, we didn't move the money out of the 
Army. When we realized we had a military personnel wedge of 
about a billion dollars, we apprised Congress. We have 
certainly notified OSD, Office of Secretary of Defense, of 
that. And as they are more often than not to do, they take that 
wedge from us and use it for broader DOD priorities.
    Mr. Courtney. And without even consulting Congress, by the 
way, which, again, is a very big breach of normal practice 
around here, and I, frankly, think it is going to do damage to 
transfer, reprogramming----
    The Chairman. And while I agree with Mr. Courtney's point, 
his time has expired. So well made.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Ms. Wilson, I know the folks at University of Texas-El Paso 
will be happy to have you and the school will be well served by 
your future service there. So welcome back to Texas--or welcome 
to Texas, I guess. You were almost there when you were in New 
Mexico.
    I did have a couple comments about the audit issue that has 
been discussed heretofore. The real full-court press on getting 
that done began when Leon Panetta was Secretary. He was the one 
who really started the ball rolling and communicated that to 
the leadership.
    I have been watching to make sure that subsequent changes 
in leadership, that each one of the new leaders gave the kind 
of full-throated support that is going to continue to be 
necessary to get this done. And while there is a lot left to be 
done, there has been a lot done.
    And good, hardworking men and women in uniform and 
civilians have been at this process for a long time and I don't 
want our comments here to discourage them or think that we 
haven't recognized that an awful lot has been done.
    Twenty eighteen was the first year that the whole thing was 
under audit. That is a big deal.
    Secretary Esper, I know you mentioned some 400-plus NFRs 
[Notices of Findings and Recommendations]. Individuals have 
been assigned to each one of those to make sure that they are 
done. Is that correct?
    Secretary Esper. Yes, sir, they are preparing corrective 
action plans for each of those to make sure we get them done in 
a timely----
    Mr. Conaway. And I assume the Air Force has done a very 
similar thing, Ms. Wilson?
    Secretary Wilson. Yes, sir.
    Mr. Conaway. And so tracking that work, they all have 
timelines, they all have ways to get at it, and that will get 
us even closer to getting the books and records audited. Is 
that a fair statement?
    Secretary Esper. Yes, sir, based on the timeline I gave 
Chairman Smith earlier.
    Mr. Conaway. I got you. Good work, but the truth of the 
matter is, the systems--maybe those legacy systems were created 
in an environment when auditing was not an issue. It was never 
to be expected. The systems complied with the Appropriations 
Act, with the Antideficiency Act.
    So we do know--we just don't toss money in a bucket and not 
know where it is at, but we can't audit it. And that meant 
setting up internal control systems that could be audited so 
that you don't have to check every single transaction. You can 
count on the system to work. And those have been put in 
process.
    So I just want to give a pat on the back for the 
hardworking men and women throughout your agencies that are 
getting this thing done. Long way to go, and we have got to 
keep the pressure on them. That pressure comes from the top, 
and I appreciate each of the four of you, your attention to 
this.
    It has percolated all the way down further in the systems. 
I have told this story before. I was on the USS Texas, and we 
were doing a bit of a town hall meeting in the galley. And a 
young seaman asked me, ``Mr. Chairman, what about that audit 
thing doing, how is it working?'' Well, I don't know if he was 
put up on that, but if a young seamen on the galley of the USS 
Texas knows about the audit issue, then we are making progress.
    General Milley, last week the Acting Secretary was here and 
the budget drops the end strength of the Army by almost 8,000. 
Can you speak with a little bit of granularity as to what that 
means? General Goldfein mentioned 4,000 maintainers short. What 
happens to our Army when they can't recruit the additional 
8,000 that would have been there had you been able to recruit 
them?
    General Milley. Thanks, Congressman. Let me put it in a 
little bit of context.
    We were able to recruit 70,000 soldiers into the Army last 
year. That is a 10-year high. And, yes, we missed the mark by 
6,500, but we did that because I set the bar too high, on an 
unachievable goal. Secretary Mattis and others cautioned us 
against that, by the way. They thought that the bar was being 
set too high, and, in fact, it proved to be that way. So we had 
a very, very ambitious goal last year, and we came up short.
    But we did achieve a 10-year high. That 70,000, that is 
bigger than the Australian and Canadian Armies combined. So it 
wasn't like we had a bad recruiting year, we just missed the 
mark that we set.
    Having said that, the key point for us is to fill the holes 
in the existing force structure, fill the manning holes. We 
have some units, when I became the Chief of Staff of the Army, 
that were going to major training events at 65 or 70 percent 
strength. That is unacceptable. We need units going to training 
at greater than 90 percent strength. In order to do that, we 
need to make sure that we are filling them at 100 percent 
strength.
    We have also taken action to reduce our nondeployables 
significantly. When I became the chief, we had 140,000, 150,000 
nondeployable soldiers. That has been dropped down 
considerably. So what was 17 percent high on average for units 
and nondeployables is now down around 6 or 7 percent.
    So it is recruiting, retention, reduction of 
nondeployables, and ensuring our soldiers are ready to go. That 
resolves the manning issue for the Army to fill the holes in 
the existing units.
    Mr. Conaway. Thank you. I appreciate the explanation.
    I yield back.
    Mr. Garamendi [presiding]. Thank you.
    I think it is my turn, the chairman not being here.
    General Milley, congratulations on your appointment. We 
await your confirmation.
    General Goldfein, as always, your service is much 
appreciated.
    Secretary Wilson, you are on to new things. El Paso awaits 
you, and we will miss you.
    Esper, you and I are going to be together, so we look 
forward to that.
    General Milley, in your testimony you said that you need $4 
to $5 billion this coming year for modernization, long range 
precision fires, $1.3 billion, combat vehicles, and so forth.
    In your testimony, Secretary Wilson, you mentioned the 
problems at Tyndall and Offutt. You didn't mention the fact 
that the Marine Corps base at Camp Lejeune was also devastated. 
Total cost of recovery from those three bases is somewhere 
around $8 billion. And I assume it is a priority because those 
are key bases for the American military and our security.
    What I don't understand is why the billion dollars from the 
U.S. Army personnel account was transferred to the 
counternarcotics account, so it can then be used to build a 
border wall, when you are giving us testimony that the recovery 
of these bases is absolutely essential, and I don't understand.
    So I am going to ask specifically, Secretary Wilson, what 
is your view of the transfer of that billion dollars from the 
Army personnel account to build a wall rather than to backfill 
the $740 million that you have had to spend to clean up Tyndall 
Air Force Base? Could it be better spent at Tyndall?
    Secretary Wilson. We have had a--I can't think of a time 
when I was here, and certainly in my service in the Air Force, 
where we have had a natural disaster like we have seen hit 
Lejeune and Tyndall and Offutt when there wasn't a supplemental 
to help with that and we didn't take it from other parts of the 
service or other parts of the Department. So I think we need a 
supplemental to recover from the storm damage.
    Mr. Garamendi. I won't press you, but, in fact, the money 
is already in the Department of Defense. The decision was made 
to transfer it for the construction of 150 miles of border 
fence, rather than Tyndall, Offutt, or Lejeune.
    Secretary Esper, what was your view of that transfer? Was 
it the proper thing to do? Is it more important to build a 
border wall than to transfer the billion dollars to the Marines 
for the repair of Camp Lejeune?
    Secretary Esper. Congressman, that is not my call to make. 
My perspective is prioritization within the Army. You know, 
obviously, Acting Secretary Shanahan has a broader perspective 
because he sees all of DOD, and, of course, the White House has 
a national perspective.
    So my ability to prioritize within the Army is what we did. 
I will tell you, the fiscal year 2019 appropriations from which 
that was taken met--meets our----
    Mr. Garamendi. Specifically--excuse me for interrupting--
specifically, the money was in the Army account. Could it have 
been transferred to long range precision fires or maybe combat 
vehicles, or vertical lift, or maybe air missile defense? Could 
it have been transferred there for those purposes, to 
specifically serve the military's need for high-effect combat 
with our near-peer adversaries?
    Secretary Esper. Yes, sir. But there is two qualifiers 
here. One, of course, is it came from the military personnel 
account. They were soldiers we did not have. And so that is 
point number one. The fiscal year 2019 budget satisfied our 
readiness and modernization needs as presented to you all last 
year.
    The second thing is, we came across this in September/
October and turned it over to OSD at that time. So this is well 
before any consideration of, at least to the best of my 
knowledge, of reallocating money to the 284 account came about.
    Mr. Garamendi. So the money could be better spent on a 100-
mile fence rather than on all the other needs that the U.S. 
Army has?
    Secretary Esper. Again, not my call.
    Mr. Garamendi. Including Fort Drum?
    Secretary Esper. Yes, sir. Not my call, Congressman. Again, 
I see the priorities within the Army.
    Mr. Garamendi. So it is not your responsibility how money 
is spent within the U.S. Army?
    Secretary Esper. It is, but you are asking me to make a 
relative value choice between the Army and a border wall.
    Mr. Garamendi. Why were we not notified of this transfer?
    Secretary Esper. I am not--I can't answer that question, 
Congressman. I would have to refer you to OSD.
    Mr. Garamendi. The final point is that, do not expect 
transfer authorities in the coming year. Do not expect transfer 
authorities in the coming year because of what has happened 
this year.
    I yield back my time. I see the chairman is here.
    The Chairman [presiding]. Thank you.
    Mr. Cook.
    Mr. Cook. Thank you, Mr. Chairman.
    Secretary Wilson, sorry to see you are leaving.
    First of all, as somebody that went on the CODEL 
[congressional delegation] to Red Flag, I wish everybody on 
this committee was there. Great, great insight. Everybody knows 
I am the dumbest Marine in the world, and I learned more about 
the Air Force. And if you weren't all in with the F-35, talking 
to those pilots and everything else--and a lot of it, 
obviously, was all in a classified mode--it was fantastic. So I 
encourage you to do it again.
    I did have a couple of questions about those Australian 
AWACS [Airborne Warning and Control System]. They look like 
something out of ``Star Wars.'' Are we evaluating those 
capabilities compared with our old AWACS system that is 
probably older than me, if there is such a thing?
    Secretary Wilson. Congressman, it is called a Wedgetail. 
And maybe I will ask the chief to talk a little bit about 
Advanced Battle Management and where we are going. We don't 
just think about particular platforms anymore, but how do we 
merge data from multiple platforms to get from any sensor to 
any shooter really quickly.
    General Goldfein. Sir, I will just tell you that last year 
we brought to you a significant change in the way we plan to do 
business in the future.
    And the question we asked was, how do we ensure that a 
soldier, sailor, airman, Marine that is on the ground, inside 
of defended airspace, will have visibility on enemy movement on 
day one of a campaign.
    And the current platform-centric approach is not going to 
be viable past the next few years, because the enemy can hold 
it too far out to be able to do its job.
    So we are transitioning from a platform-centric approach to 
a fusion of sensors and capabilities so that that soldier that 
is inside enemy airspace has visibility on day one. Therefore, 
when we talk about platforms, Wedgetails and other kind of 
platforms, you will see the Air Force shifting more to a family 
of systems than a single platform solution.
    Mr. Cook. Thank you.
    General Milley, the active protective system, I am a big 
fan of that, I have been after that for years. I guess, are we 
stopping at 4 armored brigades as opposed to moving on to, 
what, the 11 or 12 that----
    General Milley. No.
    Mr. Cook [continuing]. I was kind of hoping we would get 
for the Abrams?
    General Milley. The short answer is no. We intend to put 
active protective system on every armored vehicle in the United 
States Army over time. The four is interim, at the wait point, 
en route to equipping the entire armored force with active 
protective systems.
    Mr. Cook. By the way, I want to compliment the Army on the 
outstanding job they have done. And I remember 6 years ago when 
we were talking about readiness and all the units were C3, C4, 
it was absolutely horrible. And to come as far as you have, I 
think, is just outstanding.
    I still hold a grudge against you on the fact, on our trip 
to Europe that you deliberately skipped our trip to Belleau 
Wood on the Marine Corps birthday. And I understand that it was 
an all-Army trip, and I had to go into depression training for 
a month.
    But really I just can't compliment you enough on how far 
the Army has come in readiness. It is all about readiness.
    And I know that we are going to have some issues. I am 
worried about the number of the buy, like everyone else, on the 
F-35. And I think of the evil word ``sequester.'' If my mother 
was still alive and I said that she would rinse my mouth out 
with soap, and I think that speaks volume on how I feel about 
that. We are going to have some challenges with the NDAA.
    But I am very, very happy with the panel and some of the 
things that have been done.
    And I yield back. Thank you.
    The Chairman. Mr. Norcross.
    Mr. Norcross. Thank you, Chairman.
    I would like to thank all of the witnesses.
    Secretary Wilson, thank you for your service. Much 
appreciated and had a great relationship.
    And, General Milley, on your nomination, it is good to see 
a New Jersey-educated, since we are doing the States, a good 
Princeton grad, on your nomination.
    But we have sat here over the last two cycles and heard so 
much about the next-generation, fifth-generation fighters. I 
know, General Goldfein, you and I have had this discussion--
same thing with you, Secretary Wilson--is that now, after 
hearing that time after time, there is a shift and a start of 
the F-15E.
    And the discussion had been that the deterioration of the 
C's are going a bit quicker than you expected. But that 
happened in approximately the last 9 months. And I continue to 
get questions from those on my subcommittee and the full 
committee, how could this change have happened rapidly, and so 
soon, that the retirement--if you look at an airframe to an 
airframe, it is an equal.
    But do you consider the F-15 and the F-35 equal when it 
comes to a near-peer competitor, if we were to go to war with 
China or Russia?
    General Goldfein. Sir, no, and not even close. Here is the 
situation we found ourselves in. You won't find a stronger 
proponent of the F-35 than the current Chief of Staff of the 
Air Force. It is a game-changer. But we have to look at it as 
part of a penetrating joint team that doesn't travel alone. 
This F-35 is going to be inside of enemy airspace.
    You know, sometimes we are guilty of placing a red dome on 
a PowerPoint chart as though a country can keep us out. The 
best they can ever do is actually put a block of Swiss cheese, 
because there is holes there, and it is our job to know where 
they are and get in and exploit them.
    And the quarterback of the penetrating joint team that is 
capable of doing that, that we bought to do that, that can fuse 
information and call the audibles we need, is the F-35.
    But you got to look at it from the F-35, plus the B-21, 
plus the RQ-170, plus the X-37, plus a brigade combat team, 
plus a SOF [special operations forces] team, plus a tactical 
submarine.
    We have invested $135 billion in this budget over the FYDP 
[Future Years Defense Program] in penetrating capability. But 
the challenge we find ourselves in is we need both penetrating 
and standoff, and four aircraft have to fly into the 2030s to 
give us the capacity we need to fight and win--the A10, the F-
15E, the F-16, and the F-15C. The F-15C is not going to make 
it.
    So what we found ourselves with was a capacity shortfall. 
And we started by saying we are going to keep the F-35 on our 
program of record. We are the largest customer, we are a tough 
customer, and our program of record is 1,763. And we are not 
backing off an inch, and we are not putting a dime of the F-35 
into anything else but what we need to do with the F-35.
    But we have a capacity challenge. Those F-15Cs are not 
going to make it. And when we look at options on the table, we 
have a hotline of F-15EXs--F-15Es. The Saudis and the Qataris 
have put money into a hotline. And when you look at the 
operating costs over time, it became the most affordable 
solution to fill a short-term capacity shortfall. Yes, sir.
    Mr. Norcross. So you talk about the sustainability of the 
operational. If the costs were to continue to come down on the 
F-35, it will now be somewhat slower because you are investing 
in the F-15.
    So how did this come not in the last 4 years, but in the 
last 9 months? That is what people keep asking me, how did this 
all of a sudden, in the last 9 months, change to the last 48 
months?
    General Goldfein. Sir, I think it is important to start 
with what hasn't changed. And the chairman made the same 
comment, I believe, in his testimony, is what has not changed 
is our commitment to the F-35. We just have a capacity 
shortfall that we have to solve in the timeframe we have to 
solve it.
    We looked at the best cost estimates that we had available 
to us, which not only procurement, but also operations and 
sustainment. And by having an F-15 variant replace an F-15, 
same construction, same hangars, same operating and support 
equipment, same maintainers, same--so the transition costs are 
minuscule. And so, therefore, in terms of time and readiness, 
as long as we do this on top, as a small slice on top of the F-
35 and the other penetrating joint capability, this gives us 
more combat lethality. This is not an either/or discussion. 
This is an additive discussion.
    Mr. Norcross. I am almost out of time, but we are going to 
have further discussion, because we need to make sure we are 
making what little investment we can make go to the right way, 
particularly when it comes to that fifth-generation fighter.
    Thank you. I yield back.
    The Chairman. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Thank you all for the service you have provided our 
country.
    And, Secretary Wilson, you will be missed. I enjoyed 
serving with you in Congress, and I enjoyed working with you in 
your current position. I wish you the best in the future.
    For General Goldfein and General Milley, the fiscal year 
2020 budget proposal goes a long way towards rebuilding our 
forces toward readiness and finally investing in modernization, 
but we still have a long ways to go. We have talked about the 
risk involved if we don't have $750 billion, but can you be 
specific, as specific as possible, with what capabilities are 
at risk if we do not have that top-line amount of 750, what 
training risks we incur, and what risks we would incur in the 
event, God forbid, of a major conflict?
    General Goldfein. So I will start out.
    First of all, let's talk training. For an Air Force, we 
train both virtually and on our ranges. And on those ranges we 
have got to be able to replicate the threat that we would 
expect to meet if we were to send airmen into harm's way. And 
so what would be at risk is our ability to replicate that 
threat with the proper environment, both virtually and 
physically on our ranges, going forward.
    What is also, I think, at risk, is the significant movement 
that we started last year--and Congress supported this--and it 
was a significant move for the Air Force to shift from a 
platform solution on command and control and battle management 
to a network solution going forward.
    That is our future in the business of joint warfighting, is 
to ensure that we are taking every sensor and every shooter and 
connecting them together so that we can have better decisions 
and bring effects from all domains simultaneously to overwhelm 
an adversary, and it has as much of a deterrent effect as it 
has a warfighting and winning effect. That will be at risk with 
lower budgets.
    General Milley. Congressman, I would say in terms of 
manning, we would likely have to turn back and not fill the 
holes that we have been filling.
    In terms of training, your larger-scale operations or 
training exercises will be trimmed back in various places, not 
only in the continental United States, like at NTC [National 
Training Center] or JRTC [Joint Readiness Training Center], but 
also overseas. Right now, for example, we are doing our first 
emergency deployment readiness exercise, deploying an armored 
brigade combat team out of Fort Bliss, Texas, all the way to 
Europe. First time that has been done in probably 25, 30, maybe 
even 40 years. Exercises like that would come down.
    In terms of equipping, spare parts, which are critical to 
keep our vehicles and helicopters flying, those would probably 
slow down as well. And I suspect that the broader categories of 
readiness would degrade proportionate to the amount of money 
that was less in the budget.
    On a broader scale--you asked about conflict with the near 
peer--the way we evaluate risk is task, time, and troops.
    So can the United States Army, in this case, accomplish the 
task that the combatant commander asks it to do in the various 
war plans, yes or no, can it accomplish the task? And we know 
that through various war games, et cetera. Can you do it on 
time, in the timelines required by the war games? And can you 
do it at an acceptable level of cost, expressed in casualties 
of U.S. forces?
    We do all those calculations, spend a whole year doing all 
that. That results in our annual risk assessments that are 
classified, reported to Congress, Secretary of Defense, and so 
on.
    And I would argue that if the budgets were to drop 
precipitously, or significantly, that the levels of risk would 
proportionally go up, and the probability of offering an 
opportunity to an adversary that we were perceiving to be 
weak--we were being perceived to be weak, or that we lacked the 
will to support a large, capable, competent military with both 
capability technologically and capacity, those would be signals 
that we wouldn't want to send. So I think risk would go up.
    Mr. Lamborn. Thank you.
    And for Secretary Wilson or General Goldfein, it is my 
great honor to represent the airmen of the Air Force Space 
Command in Colorado Springs. We are talking a lot these days 
about the imminence of the threat that our near-peer 
adversaries pose to our space assets. What benefits would a 
space-focused either combatant command or a space corps provide 
for your space warfighters?
    Secretary Wilson. Congressman, we are the best in the world 
at space, and our adversaries know it, and they are seeking to 
develop the capability to deny us the use of space in crisis or 
in war.
    In fiscal year 2019, the Congress supported a change in 
about $5 billion in our defense--in our space budget and an 
addition of $7 billion over the FYDP. This year's fiscal year 
2020 budget also represents a significant increase in space 
spending in fiscal year 2020 and beyond, because it is shifting 
from a benign to a contested environment. The forces that we 
have in Colorado, as you well know, are operating some of our 
most important space assets, and they are exceptional airmen.
    Mr. Lamborn. Thank you.
    The Chairman. Thank you very much.
    Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chair.
    General Milley and General Goldfein, General Neller, 
Commandant of the Marine Corps, recently raised the alarm that 
he was experiencing severe and dangerous deficiencies in the 
Marine Corps due to unplanned demands placed on the Armed 
Forces. On March 22, I sent a letter to each of you and to 
Admiral Richardson asking whether your services also had the 
same readiness issues associated with unfunded mandates, 
including the southwest border operations. Do you have an 
update on when you will each respond to my letter?
    General Milley. Acknowledge receipt of the letter. Got it, 
I think it was last week. We are going to respond. The Army 
staff is working through it, and we will get it over to you 
shortly.
    Specifically, though, the Army and the Marines are 
fundamentally different in terms of size of scale and scope. So 
what General Neller wrote, he is representing the Marine Corps 
and stands alone, and let it stand on its own merit.
    [The information referred to was not available at the time 
of printing.]
    Mr. Gallego. I understand, General.
    General Milley. That is not the position of the Army.
    Mr. Gallego. I will go deeper into questions on that----
    General Milley. Sure.
    Mr. Gallego [continuing]. Later. Thank you, though.
    General.
    General Goldfein. Sir, we will get that back to you right 
away. And the only thing I would add, tell you, is that 
probably the largest unfunded mandate that we are facing right 
now is we are cash-flowing Tyndall recovery and Offutt 
recovery.
    [The information referred to can be found in the Appendix 
on page 109.]
    Mr. Gallego. Thank you.
    General Neller listed serious problems with the current 
funding mandate. He said the Marines were working in structures 
compromised by natural disasters, that exercises and 
engagements with allies around the world had to be cancelled, 
and that the Corps would have to stop hurricane work in May.
    Are airmen or soldiers also working under these same set of 
dire circumstances as their Marine Corps counterparts? 
Understanding, obviously, that I understand the difference 
between Marine Corps, Army, and Air Force.
    General Milley.
    General Milley. That is not the same for the Army, no.
    Secretary Wilson. Sir, it is--there is a similarity with 
the Air Force in that the Marine Corps was hammered by a storm 
at Camp Lejeune. We were hammered at Tyndall and at Offutt. 
Last week I had to stop 61 facility projects in 18 States.
    If we get to the 1st of May and we still don't have any 
help, we are going to have to put a pause on Tyndall recovery, 
where it will affect flight operations, and we will have people 
there who will have to continue to work in degraded facilities. 
And then the decisions that I will have to make in May, and 
then my successor in July and September, will be similarly 
difficult.
    Mr. Gallego. General.
    General Goldfein. Sir, same.
    Mr. Gallego. Have you spoken to Acting Secretary Shanahan 
about these readiness issues that you just brought up, 
Secretary Wilson or General Goldfein, about the readiness 
problems and issues meeting your requirements, specifically in 
terms of natural disaster recovery?
    Secretary Wilson. Yes.
    Mr. Gallego. Okay. Have either of you spoken to President 
Trump about his desire for a wall at the southern border 
outweighing your service funding requirements?
    General Milley.
    General Milley. I have not personally talked to President 
Trump about that, no.
    Mr. Gallego. Secretary Wilson.
    Secretary Wilson. No.
    General Goldfein. No.
    Mr. Gallego. Great.
    Secretary Esper and Secretary Wilson, have you spoken to 
Secretary Spencer about General Neller's concern and whether 
they were reflected at all in your services? I know this is 
kind of redundant, but I want to make sure we are covering all 
bases.
    Secretary Esper. No, I don't believe we have.
    Secretary Wilson. No, I don't believe I have.
    Mr. Gallego. How can we be confident the money that we 
authorize or that appropriators send to the Department to meet 
shortfalls won't be reprogrammed into the future to something 
that doesn't help the readiness issues that we have been 
discussing, for other issues or for other programs, such as a 
wall on the southern border, going into the future?
    Secretary Wilson. Sir, in the case of the Air Force, it has 
to do with recovering from the storm and the need for the 
supplemental.
    Mr. Gallego. Right, I understand. But politically speaking, 
what confidence do I have going into the future that more 
money, as I said, won't end up at some other project, whether 
it is the border wall or something else into the future?
    Secretary Wilson. Senator, we are trying to work with you 
on the supplemental.
    Mr. Gallego. Thank you for the promotion.
    Secretary Wilson. I am not sure how to answer your 
question.
    Mr. Gallego. I am sure you have already heard many Members 
of Congress on both sides say that because of this situation, 
because of what President Trump is forcing us--or what is 
occurring--it really creates a lot of confidence problems about 
how we fund our military and whether we have to be stricter 
into the future in terms of flexibility, which I think also at 
the end is a detriment.
    And I guess it is not really appropriate for you to comment 
one way or the other, but I think I just want to reiterate what 
many of my other colleagues, both on the right and the left 
side of me, have said in regards to how disturbed we are that 
money is going to be taken without legislative approval for 
projects from the military which we have clearly designated as 
important priorities to us.
    But with that, I yield back my time.
    The Chairman. Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman. I appreciate all my 
colleagues' interest today in MILCON projects at Fort Drum. 
Because of this interest, I expect that you each who have 
referenced it will partner as we fund this railhead in the 
MILCON approps bill. But let me state for the record regarding 
the border security questions. The House Appropriations 
Committee released a list of vulnerable projects, and that does 
not include Fort Drum. I think that is important to note for 
the record.
    Moving on to my question, Secretary Esper and General 
Milley, with the standup of Army Futures Command, can you 
explain how the new command is interfacing with academia, 
industry, and the greater S&T [science and technology] 
enterprise? I know the Army has prioritized advanced 
prototyping within the RDT&E [research, development, test, and 
evaluation] budget for fiscal year 2020. Can you expand upon 
this decision and how you plan to also maintain support for 
basic research?
    Secretary Esper.
    Secretary Esper. Sure, Congresswoman. I think the first 
part was our selection of Austin, Texas, as the headquarters of 
Futures Command. We set it right there in a city growing, a lot 
of capability in terms of research and development. It is 
embedded in the University of Texas system, and we are not 
behind walls or barbed wire. We are actually out in the 
community, we are working with young entrepreneurs and 
innovators, and we are also reaching out to academia there and 
in other places.
    So for example, a couple months ago I went to Pittsburgh on 
a recruiting pitch and spent some time at Carnegie Mellon 
University where we opened up the Artificial Intelligence Task 
Force. And as we did that, there were a dozen, two dozen 
companies, and other institutions of higher learning there, so 
we are trying to involve all parties in this to make sure that 
we do that.
    Critical to that is sustaining predictable--sustained 
predictable funding for S&T. That is what--and now we have 
aligned 80 percent of that to our six modernization priorities, 
so we are making sure we get good ROI [return on investment] on 
each dollar we invest.
    Ms. Stefanik. General Milley, did you want to add to that?
    General Milley. AFC [Army Futures Command] has got 
tentacles throughout the entire Nation, centered in the great 
State of Texas as previously mentioned, but tentacles 
throughout academic and S&T and R&D [research and development] 
throughout the entire Nation.
    Ms. Stefanik. Thank you.
    I will yield back the balance of my time to Mr. Waltz.
    Mr. Waltz. Thank you, Representative Stefanik, and thank 
you all particularly to your families who bear the brunt of all 
of our service, so thank you.
    And Secretary Esper, I just also wanted to--and General 
Milley, to commend the Army on Futures Command. I started on 
the M1 tank which hasn't been modernized in 40 years, and that 
entire vehicle.
    But taking a step back, I think the defense strategy is 
right to shift back to great power competition, but we also 
can't forget the wars that we are in. We have to be prepared 
for future years, but we have to be also still focused on the 
60 to 70 countries right now as we speak where we have special 
operators and other folks deployed that need our support.
    So shifting over to you, General Goldfein, and to Secretary 
Wilson, we all know--we don't need to rehash the issues with 
the A-10 over the years, your predecessors that essentially 
Congress has forced the Air Force to keep it. Now we have the 
light attack aircraft that seems to be--procurement seems to be 
dragging along, and just as a--just very quickly, in 1952, your 
predecessors on both sides, Secretary of the Air Force, 
Secretary of the Army, agreed to where Army aviation ends, Air 
Force aviation begins. I wonder with this kind of seemingly 
over the years, I don't know, resistance, cultural resistance 
to the close air support mission, is it time, maybe, to shift 
that light attack----
    General Goldfein. Sir, first let me----
    Mr. Waltz [continuing]. Over to the Army and have them take 
that on?
    General Goldfein. Sir, let me first respectfully push back, 
if I could.
    Mr. Waltz. Sure.
    General Goldfein. I have been fighting side by side with 
the United States Army my entire career. I have been on the 
ground. I have been in the air. There is no resistance. No 
resistance, and I will tell you. We are going to fly to the 
sound of guns, or we are going to die trying, so we are 
committed----
    Mr. Waltz. I appreciate that, General.
    General Goldfein. So we are committed to close air support.
    Mr. Waltz. We cannot let that pendulum swing too far to fly 
high, fly fast, fly far while we still are--there is a lot of 
folks in this town that want to wish those wars away. They are 
still ongoing. We have dead Green Berets in Niger that had to 
rely on the French for close air support.
    General Goldfein. Sir, I would----
    Mr. Waltz. We need that capability now not years from now.
    Thank you.
    General Goldfein. Thank you for the opportunity to state 
without equivocation that we are and we will always be 
dedicated to supporting on the ground with close air support. 
Can I talk for a minute about light attack? If I could----
    Mr. Waltz. Absolutely.
    The Chairman. You can talk for 20 seconds about light 
attack.
    General Goldfein. I can't give you a better example of how 
I believe we have aligned ourselves with Congress, with 
congressional content on the authorities you gave us to advance 
the business of light attack. And if there is a follow-up 
question where I have time, I would love to walk you through 
just what we have accomplished with those authorities.
    Mr. Waltz. Mr. Chairman, I will be back for a following 
question.
    The Chairman. Thank you. Just so you know, we have got 
votes 1, 1:15ish, so we are going to press on and get as much 
as we can before they call votes or until we are done with 
witnesses.
    Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman. I think it is 
critically important that we have an overarching vision for ISR 
modernization. That is certainly a joint effort. The TAC 
[Tactical] Air and Land Subcommittee had a pretty good briefing 
from both the Air Force and the Army on current capabilities 
and modernization. The Air Force--I know in open sources, I 
have read that of the 76 squadrons that you are looking to 
expand to over the next several years, 22 are C2-ISR squadrons.
    The COCOM [combatant command] commanders have an unsatiable 
appetite for intelligence and information, and my concern is 
that when we are in a contested environment that the Army may 
not be putting its best foot forward right now in the 
modernization effort, and so let me ask this question.
    And you know, when I look at the eight cross-functional 
teams, I don't see ISR in there. And while I know when we go to 
war, you are going to go as a joint force, there are going to 
be operations and moments out there where you can't rely on the 
Air Force for whatever reason, not because they are not 
unreliable but because the contest is too great, so that there 
is going to be an operational tactical need for ISR 
capabilities. Where is that in the Army modernization program, 
and is it reflected in your budget?
    Secretary Esper. So thank you, Mr. Brown, for raising this 
issue. ISR is critically important, and you have hit the nail 
on the head. It is how do we adapt our systems or procure 
future systems to be effective in an environment that is very 
contested with very capable enemy air defenses and other means. 
So ISR is part and parcel of several of our cross-functional 
teams. It is critical.
    What comes to mind immediately is long range precision 
fires in order to do deep targeting. You can look at even the 
next-generation combat vehicle which is considering organic 
drones to do over-the-horizon type of capabilities and even 
down to the soldier lethality CFT [cross-functional team] where 
soldiers are backpacking small drones to use at the tactical 
level. That said, we also have an ISR task force within the 
Army that works at the organic level, the joint and the 
national level, to make sure we are well integrated. We are 
pushing hard on this front to make sure we can do this.
    I would be remiss as well since you were a helicopter 
pilot, as part of our future vertical lift we are looking at 
manned/unmanned teaming, if not fully autonomous, where we can 
penetrate enemy air defenses and do unmanned with our rotary-
wing aircraft the ISR we need to help with the ground force 
maneuver.
    Mr. Brown. So are there--are you contemplating any force 
structure changes over the next 10 years?
    Secretary Esper. You know, our Futures Command is working 
this right now. As we pool multi-demand operations, our new 
doctrine forward and develop it, they are actually looking at 
how do we organize the Army differently if need be? How do our 
formations change? How does all that happen? And this is part 
and parcel to that.
    Chief I don't know if you----
    General Milley. Yeah. A couple of comments, Congressman. 
First we are putting 4\1/2\ billion dollars into ISR in this 
budget, so it is not like we are not doing it. It didn't make 
it into the top six as a stand-alone, but it is embedded 
within--as the Secretary said, it is embedded within almost 
every one of those, so ISR is a piece of it.
    Thirdly is armies don't fight wars. We fight as a joint 
force. So it is important to understand, as Congressman Waltz 
and I know you understand and everybody else. We fight with the 
Air Force, the Navy, the Marines, and we fight as a combined 
force with our allies, so all of these things are 
interoperable, and we leverage each other's capabilities.
    I think it was mentioned, for example, the F-35s being the 
quarterback of the joint force. And we are leveraging these 
capabilities from space and the air domain. So there is a 
significant amount of ISR out there. We recognize its 
importance. We think we are putting in the appropriate amount 
of money and investment in ISR in this particular budget, and 
it is embedded within those priorities.
    Mr. Brown. You know, and I appreciate the joint fight, the 
joint force effort. I just think that there are going to be 
times when a COCOM commander is going to be out there, is going 
to make a request for ISR, and the demands are going to be too 
great. Currently, they have organic capabilities. They are 
operating now more in uncontested environments. Are those 
organic capabilities going to be able to survive and be 
effective in a contested environment? But I think--it sounds 
like the answer is you are making the investments. It is in the 
budget.
    Let me just use the remaining 20 seconds to say that I am 
not picking up the A-10 mantle like Representative McSally, but 
we have got A-10s in the Maryland Air National Guard. I am 
concerned that they are programmed to be grabbed and taken by 
fiscal year 2021, but yet we have not yet heard about the 
replacement airframe, the C-130J. So for the record, if you 
could just follow up with my office on the status of the field 
and the C-130J to the Maryland Air National Guard.
    I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Mr. DesJarlais.
    Dr. DesJarlais. Thank you, Mr. Chairman, and thank you all 
for being here today. First, I would like to thank Secretary 
Wilson for having Under Secretary Matthew Donovan meet with the 
Arnold Air Force Base's community council yesterday at the 
Pentagon to address their concerns, so we are grateful for 
that.
    We can't address the threats laid out in the National 
Defense Strategy without solid investment in our range and test 
facilities and the associated testing and evaluation workforce, 
and I should also note the Director of Operational Test and 
Evaluation recently released a report highlighting the need to 
improve U.S. infrastructure to conduct operationally relevant 
testing of the next generations of weapons.
    So Secretary Wilson and Secretary Esper, what is your 
assessment of the U.S. capabilities to fully test hypersonic 
technology?
    Secretary Wilson. Sir, we are actually going to be building 
some more wind tunnels, hypersonic wind tunnels. I just visited 
where we are going to be building one in Indiana and then 
another one at Arnold, and so those are the two places that I 
am aware of.
    Overall on testing and training ranges, there is a 
significant investment in the Air Force budget in improving our 
testing and training ranges.
    Dr. DesJarlais. Okay. And Secretary Esper, I know that you 
have a fondness for this region of the country because both our 
wives share the same home county of Franklin, Tennessee, so I 
would like to get your input on Arnold in the same question.
    Secretary Esper. Yes, sir. On the Army test ranges, 
particularly as we look forward with regard to our six 
modernization priorities where we are pursuing anything from 
directed energy to hypersonics, you know, other systems we know 
that we need to continue to improve our test ranges and our 
infrastructure, you know. Sensors, for example, come to mind as 
you test hypersonics is how do you make sure you have the means 
to test them and track them and monitor their performance in 
flight.
    Dr. DesJarlais. Okay. Second question. What are the 
services doing to improve and modernize test capabilities 
within their respective range and test facilities?
    Secretary Esper. I will just pick up and say again, I have 
been to a couple of our test ranges, whether it is Yuma, 
Arizona, or White Sands Missile Range. We recognize 
improvements are needed to each, but it goes to all of our 
others. We need to look at that, and I think we can come back 
and give you more detail if you want that.
    Dr. DesJarlais. Okay.
    Secretary Wilson. Sir, our test ranges, and particularly 
our training ranges, are significantly impacted by the budget, 
a significant increase. The two that will be most impacted in a 
positive way are Nellis and JPARC [Joint Pacific Alaska Range 
Complex] in Alaska. We were going to be trying to bring those 
to what we call fifth-generation capability and then a number 
of other improvements in our ranges that are closer to home for 
many people in the lower 48.
    Dr. DesJarlais. Okay. And then kind of along the same 
lines, finally, are we adequately addressing the infrastructure 
and workforce needs to support the testing and evaluation of 
current and planned weapon systems?
    Secretary Esper. I think again, that is part and parcel of 
what we are looking at to make sure we improve. It is a 
combination of things. It is infrastructure. It is sensors. It 
may well be people as well. All those things we are looking at 
because we need to make sure we are postured to do the testing 
we will need to do in the coming years as we move forward on 
prototyping new systems and then certainly down-selecting and 
operationally testing them.
    Secretary Wilson. Sir, I think we are okay on testing. I 
would say that on our ranges, some of the things that are most 
expensive and difficult to get are the simulated enemy things, 
and we are adding in more what we call red air or contract red 
air to be able to imitate bad guys and fly against us.
    Dr. DesJarlais. That is all I have. Thank you.
    I yield back.
    Mr. Brown [presiding]. Thank you. Representative Houlahan 
will be next.
    Ms. Houlahan. Thank you so much for all of your time. I 
have two very brief questions, and one of them has to do with 
on the very 70, 80 days that I have been in Congress, one thing 
I have learned about my job here is to make sure that we 
deliver a budget on time so that you guys can be responsive to 
that budget and know what to plan for.
    And so I share the responsibility with Congress to make 
sure that that happens, but I also have learned a little bit 
about the--your responsibility as well on your side of the 
table to make sure that you provide clear priorities for us.
    And so I represent the State of Pennsylvania, and one of 
the things that has been striking to me is that in the most 
recent round of budgeting, there has been a reduction or no 
longer an ask for the Chinook upgrades, for armored multi-
purpose vehicles upgrades, and Bradley upgrades. And all of 
those things were, as of 18 months ago, in the prioritization 
of the budget and I think have caused a lot of consternation in 
the Pennsylvania supply chain, I can tell you.
    And so my question to you is what changed, you know, over 
the last 18 months, I guess, Secretary Esper, and General, that 
would have made you change your minds about the importance of 
these upgrades?
    Secretary Esper. Congresswoman, I will go first. I would 
say a few things. First of all, clear guidance from Secretary 
Mattis at the time with regard to our direction followed up by 
the National Defense Strategy which said shift from 18, 19 
years of counterinsurgency warfare to high-intensity conflict, 
and that caused us to relook everything we did.
    We also rolled out a modernization strategy, I think in May 
of last year, and then topped it off with the Army vision that 
I introduced at the beginning of this hearing. So the pivot 
toward being able to fight and win against near-peer 
competitors caused us to relook everything and fundamentally 
shift the direction with regard to how we train, how we man, 
and how we equip the force, and soon how we organize as well 
based on new doctrines.
    So five major lines of effort there that are driving all 
this and pulling us in the direction of those modernization 
priorities that you are referring to.
    Ms. Houlahan. Sir.
    General Milley. The same thing, Congresswoman. When the NDS 
[National Defense Strategy] was published by Secretary--then 
Secretary Mattis, that represents a fundamental shift, and it 
is authoritative. It is orders to us that we have to go back 
and do the analysis, and we have to make the appropriate 
shifts. If we do not shift, if we continue to produce legacy 
systems, then we are going to really put at risk, significant 
risk, very, very high risk, the first battle of the next war 
where soldiers that are probably yet unborn will be fighting 
with equipment that we see today, and that will not be a good 
thing, as you well know from your own service. So we have made 
a conscious, very, very difficult decision to shift gears and 
start laying the groundwork to fund the modernization of the 
United States Army.
    Ms. Houlahan. And I really understand that hard decisions 
need to be made. And I guess one of my questions to you is was 
there any consideration in making these hard decisions about 
the impact on the supply chain or the industrial base? In the--
--
    General Milley. Absolutely. It was discussed at great 
length, extraordinary pain, led by Secretary Esper and the 
whole Army staff, civilian and military, and massive amounts of 
hours. I can't even describe the level of pain that was 
throughout all that discussion. Absolutely yes.
    Secretary Esper. I would add as well, we had a number of 
conversations with the private sector, particularly the CEOs 
[chief executive officers] and senior leaders from, I think, 
some of the companies you are referring to. We could only be as 
transparent as we could with regard to particular cuts, but we 
were very clear with regard to where we are going, the six 
modernization priorities. And as I and the other chief senior 
leaders have messaged for well over a year, that is where we 
are going. There is predictability. Those priorities are not 
changing, and that is where we are shifting $30 billion into 
the future.
    So meet us there. Come talk to us about how you can be a 
player in that future because whoever gets on that bus will 
have a franchise or work or whatever you want to call it for 
decades to come after that because that is our new direction.
    Ms. Houlahan. Thank you, and I look forward to those 
continued conversations on that.
    I only have about a minute left, and so I will try and 
truncate my question which is what are we doing--I was a 
lieutenant in the Air Force, an engineer, and I looked up and 
didn't really understand in the late 1980s, early 1990s, what 
my career path looked like because of the change in threat.
    My question is what are we doing in this area of cyber to 
make sure that a young lieutenant such as me would look up and 
understand where they could head in a career in the military?
    Secretary Wilson. Congresswoman, over the next couple of 
months, we have been working for about 18 months looking at how 
do we evaluate, how do we promote officers, and develop 
officers for the future of combat. And probably by this summer, 
we will be rolling out new categories, including separate 
categories for different kinds of officers.
    There are about seven different subcategories so that a 
cyber officer doesn't have the same things to do in their 
career as a maintenance officer, and they don't compare to each 
other because we need to promote to the needs of the service 
and not just promote everybody like their line in the Air 
Force.
    Ms. Houlahan. Thank you so much for your time.
    I yield back.
    The Chairman. Thank you very much. Mr. Gaetz.
    Mr. Gaetz. Thank you, Mr. Chairman, and I want to begin by 
joining my colleagues in thanking Secretary Wilson for her 
service. You are well-thought-of throughout the Air Force, but 
particularly in my community where we have a number of Air 
Force assets. I am grateful for all the time you have spent 
with the amazing service members in northwest Florida.
    My questions springboard off of Dr. DesJarlais' questions 
about test and evaluation. Right now, we have a problem in the 
eastern Gulf of Mexico. It is that people want to drill there 
for oil, and it is where the Air Force tests experimental 
missiles, among many other things. And I am not a practitioner, 
but I would expect that testing experiment missiles over oil 
rigs is probably a bad idea.
    There is currently a moratorium in place that protects the 
Air Force and the military mission that is set to expire in the 
year 2022. General Goldfein, on the 23rd of June in 2017, you 
wrote Chairman Bishop a letter. You copied then Chairman 
Thornberry and myself on that letter. And in part you stated 
the moratorium that protects the Air Force is essential for 
developing and sustaining the Air Force's future combat 
capabilities. The Air Force needs the certainty of the proposed 
extension to guarantee long-term capabilities for future tests. 
Emerging technologies such as hypersonics, fifth-generation 
fighters, advanced subsurface systems will require in large 
testing and training footprints and increased Air Force 
reliance on the moratorium far beyond 2022.
    General Goldfein, has anything changed regarding the Air 
Force's position since you sent this information to then 
Chairman Bishop, and then Chairman Thornberry, and myself?
    General Goldfein. No, sir.
    Mr. Gaetz. Mr. Chairman, I would seek unanimous consent to 
enter this letter in the record.
    The Chairman. Hearing no objection, so ordered.
    [The information referred to was not available at the time 
of printing.]
    Mr. Gaetz. And I would ask General Goldfein, you know, 
right now, candidly, the bargaining going on is to trade away 
space in the Gulf test range for oil companies in exchange for 
an extended period of time that you say is essential for the 
Air Force's planning.
    If we had a Gulf test range that got smaller rather than 
larger, what impact would that have on the types of things that 
we need to test and evaluate given the current National Defense 
Strategy?
    General Goldfein. As we build longer-range capabilities, it 
is going to require longer-range testing. It is as simple as 
that. And it is going to have a devastating impact as we really 
build--as we work into directed energy, as we work into 
hypersonics, as we work into long-range capability. To make 
sure we stay ahead of the adversary, we cannot afford to have 
our ranges get smaller. They have to get bigger.
    Mr. Gaetz. And Secretary Wilson, do you have any basis to 
disagree with General Goldfein as to the need for a Gulf test 
range that is not getting smaller but getting larger?
    Secretary Wilson. No. And in fact, the number one reason 
that we need to rebuild Tyndall is because of its immediate 
access to the Gulf test range without going over any population 
area.
    Mr. Gaetz. Well, thank you. Well, Mr. Chairman, I know you 
appreciate brevity, but I would just state for the record that 
this is an issue where there is unequivocal--an unequivocal 
position of the Air Force that they need this. And during the 
115th Congress, the special interests who wanted to explore 
energy won, and we couldn't get these protections into the 
NDAA. And so I am hopeful that with the new majority in control 
that we would listen to the military officials and that we 
would consider the request that General Goldfein made in 2017 
to consider these changes and to consider an extension in the 
NDAA.
    The Chairman. I would be very open to that request. Just as 
the gentleman knows, you can have your 5 minutes. We won't rush 
you on the 5 minutes. It is just when we go over 5 minutes, and 
you always do a great job of going less than that, so I 
appreciate that.
    Mr. Gaetz. Well, seeking to earn extra credit and in 
protection of the Gulf test range, I will yield back my 
remaining 90 seconds.
    The Chairman. It is time off from purgatory. I appreciate 
that, but we will absolutely work on that issue. It is very 
important, and I appreciate your asking about it.
    Ms. Sherrill.
    Ms. Sherrill. Thank you, and thank you, Secretary Wilson. 
It has been an honor to get to know you over these first 
several months of Congress. I am sorry to hear you are headed 
to Texas instead of the great State of New Jersey. We will miss 
you, but thank you for your service.
    Secretary Esper, as you know, Picatinny Arsenal in my 
district has an outstanding record in designing, developing, 
producing, and delivering world-class lethality for all of our 
DOD components. They are responsible for delivering 90 percent 
of the DOD's lethality and for the implementation of 
acquisition, streamlining, and cost-saving initiatives that are 
modeled--that are a model for how we should be executing all of 
our acquisition programs.
    I am aware of several ongoing efforts to analyze roles and 
responsibilities of various Army organizations, and given that 
the workforce at Picatinny is a highly trained and skilled 
acquisition organization, I am curious because we know that 
ammunition is in continuous production. It gets produced, and 
then it is either used in training or set aside for times of 
conflict, so there is no transition to sustainment for 
ammunition like there would be in, say, a tank or a helicopter.
    So the lifecycle management of those programs should be 
done by acquisition experts, and I am curious. Can you give us 
some sense of the--and some detail on the McKinsey study 
entitled ``Transition to Sustainment'' or ``Roles and 
Responsibilities.'' What is the exact topic of those studies, 
when will each be completed, and when can I and other members 
of this committee receive the findings of these studies?
    Secretary Esper. So thank you for that question, 
Congresswoman. Picatinny is a great place. I was there last 
year, enjoyed really spending time with the workforce. They are 
wonderful and got briefed on a number of things they are 
developing to include technologies that are critical to our six 
modernization priorities. So I had a spectacular visit there.
    The Army is reviewing a number of reform proposals. I think 
what we call the Army Reform Initiative currently contains 
about 750 different proposals or so that came up from the 
ranks, from the field, from the commands, and we are working 
our way through those. That, in conjunction with ``night 
court'' which remains underway, we continue to look for reforms 
so we can shift money appropriately.
    There is a look at ammunition sustainment, particularly 
when you get into the purchasing piece of it. I am not current 
on where that stands, but that is being looked at between our 
acquisition folks and our Army Materiel Command jointly 
together to make sure that we again put it in the right place 
appropriate to ensure we sustain the force and the readiness of 
the force. And again, it is another reform initiative to make 
sure we get maximized efficiency in the service.
    Ms. Sherrill. Would you mind getting back to me just on 
exactly where you are at with that----
    Secretary Esper. Sure. Will do.
    Ms. Sherrill [continuing]. That process. Thank you.
    [The information referred to can be found in the Appendix 
on page 109.]
    Ms. Sherrill. And the National Defense Strategy also calls 
for ground forces to reform and prepare to face near-peer 
adversaries. How are we going to ensure that the ongoing 
research into long-range ammunition, mortars, and other 
projectiles has a path to transition into procurement against 
all the other competing budget priorities so we are not 
outgunned in future conflicts.
    Secretary Esper. Well, I will take the first stab. I am 
sure the chief has some points here as well, but obviously we 
spent a lot of time and money over the last couple years, for 
example, building up our munitions to ensure we were ready. And 
I will just leave it at that for now, but we are looking ahead. 
I mean, there is some incredible capabilities. The extended 
range of cannon artillery, for example, which will give us 70-
kilometers-plus range will--which will allow us to outrange 
Russian counterparts, it is not just about the gun in that 
case, but it is about the round. And I believe I actually saw a 
prototype of the round out at Picatinny, so it is developments 
like that.
    It is as well as the new cased ammunition for the next-
generation squad weapon. Also had a chance to witness a 
demonstration there at Picatinny, so I think Picatinny is on 
the leading edge of a number of things we are doing when it 
comes to ammunition, and ammunition is critical if we are going 
to get the ranges we need to fight and win future conflicts.
    Ms. Sherrill. Thank you very much.
    General, did you have anything to add?
    General Milley. No. I think the Secretary said it all, 
ma'am.
    Ms. Sherrill. Thank you.
    And then one final question. Secretary Wilson, was there a 
comparison of the cost of performing a SLEP or service life 
extension on the F-15C versus owning and operating the planned 
fleet of the F-15X? Anyone.
    Secretary Wilson. There was an analysis of that, and the 
airframe just really isn't going to make it. And so the most 
cost effective option was to buy off the end of the line the F-
15EX.
    Ms. Sherrill. Thank you. Thank you very much. I yield back.
    The Chairman. Thank you. Mr. Waltz.
    Mr. Waltz. Thank you, Mr. Chairman.
    General Goldfein, we will pick up that conversation on 
light attack, and I do want to be very clear. I am not and I 
don't know of anyone that is doubting the Air Force's march to 
the guns. I would not be here. I would be dead without the A-
10, without the AC-130, without those close air support assets. 
What I am talking about is capability.
    I would also be a rich man if I had a dollar for every time 
I called up for close air support, and the assets were up 
getting gas. They didn't have the loiter time that we needed 
and particularly in remote locations all over Africa and other 
places where we need it.
    So that is my point, and I would appreciate to be able to 
talk to your team for the record. My point is that capability 
was needed years ago. It is needed now. With all of the shift 
to near peer and a lot of that conversation, I fear the 
pendulum swinging too far and that we are still in the fight as 
much as many people in this town would wish it away.
    So I just appreciate for the record a discussion, a better 
discussion on when we are going to get those capabilities, 
particularly special operators.
    Switching to space, I believe the Space Corps is the right 
way to go. Thank you for the hard work and the proposal there. 
You know, I really think that we are sitting in a point in 
history. Air Force shifted away from the Army Air Corps in 
1947. They needed unique capabilities and people, and I think 
we are seeing that same shift now with space, with that new--
now that new warfighting domain.
    On some of your programs, particularly your launch 
programs, I did want to ask Secretary Wilson, you know. 
Obviously we need to retain our assured access to space. What 
are you seeing as the risk and benefits of the Air Force's 
strategy of selecting its service--two service providers, I 
understand, for launch?
    For the 5-year contract, we just had an award, my 
understanding, on the RDT&E side for upgrading the launch 
vehicles to be able to handle the military payloads, so that 
was just awarded. But before that research is done, we are 
going to have another award in terms of launch going forward 
for the next 5 years. How do you rationalize those two, and 
where do you see that going?
    Secretary Wilson. Let me give you a couple things on 
launch. First, we have had a 24 percent decline in unit cost of 
launch since 2012, and it is because of a competitive 
environment and advances in research and development. And we 
are 76 for 76 on the reliability of our launches.
    The guidance that we were working on, and it comes from the 
Congress, is to end our reliance on the Russian RD-180 engine 
by 2022, and we are on track to do that. The real challenge is 
in our most difficult area, the heavy lift area which is where 
this request for proposal that we expect to issue in April is 
going to address, the ideas or request for proposal in April 
for a 2020 decision in order to get off the RD-180 Russian 
engines by 2022. So the timeline is set by the congressional 
mandate and by our joint desire to not be reliant on Russian 
engines.
    Mr. Waltz. Thank you.
    One last question shifting over to you, General Milley. 
There is just a lot of buzz, take it for what you will, in the 
Special Forces community about a drop in standards for our 
Green Berets getting through that pipeline, long and difficult 
pipeline. Some would argue too long. That is to meet the demand 
that is being placed on our force; 18 years in and counting, I 
think we are in a generational war.
    The capacity-building efforts, I commend what you have done 
on the SFAB [security force assistance brigade]. Have you 
looked into that, into this issue, allegations of 
investigations down at Fort Bragg and retribution on cadre that 
are trying to raise these issues?
    And if you have looked at, you know, what do you make of 
it?
    General Milley. We have, and I say we. As you know, the 
United States Special Operations Command, SOCOM, has title 10 
responsibility for all U.S. special operations forces, Army, 
Navy, Air Force, Marines.
    And Tony--under Tony Thomas' leadership and Fran Beaudette 
who is the commander of the U.S. Army Special Operations 
Command, both of them have looked at those allegations in 
depth, and I have looked at it as a Special Forces veteran as 
well.
    So the basic conclusions are yeah, there has been some 
modification of changes but not to lower standards, to meet 
standards of an evolving world and evolving demand. So I don't 
think that the special operations standards in the Q Course, as 
far as I know, I don't think they have been lowered for any 
particular reason, and that is what I am getting out of----
    The Chairman. I am sorry.
    General Milley [continuing]. Lots of people. I am sorry.
    The Chairman. General, the gentleman's time has expired.
    General Milley. Okay. I am sorry.
    The Chairman. And I certainly take your point that it is a 
crucial issue, but it is good to know that they are maintaining 
the high standards, so----
    Ms. Escobar.
    Ms. Escobar. Thank you, Chairman, and thanks to all of you 
for being here and for your service to our country.
    To Secretary Esper and General Milley, thank you so much 
for all the time that you took with us recently, with me in 
particular, to talk about this budget and to answer and address 
the questions that I had.
    Secretary Wilson, good to see you again, and I want to 
thank you for the multiple conversations that we have had as 
you transition to El Paso and the great University of Texas at 
El Paso and to hear me out as I bring forward concerns by the 
community and talk about the opportunities that lie ahead.
    Secretary Esper, in reading over the budget and the memos 
about the budget, the fiscal year 2020 budget request for 
military construction, family housing, and BRAC [base 
realignment and closure] is an increase of over 387 percent, 
and it includes, please correct me if I am wrong, a backfilling 
of the funding that was taken by the emergency declaration for 
the wall?
    Secretary Esper. So Congresswoman, I think you are 
referring to--I think it is $3.6 billion that was inserted into 
the Army budget by the Office of the Secretary of Defense as a 
placeholder, if you will, along with another $3 billion or so 
for other emergency-type actions and then I think a couple 
billion for the bases that were destroyed by hurricanes.
    [The information referred to can be found in the Appendix 
on page 109.]
    Ms. Escobar. I just want to go on the record about how 
deeply concerning it is to me to know that funding was taken. 
And we have heard from a couple other members here today about 
our ability to trust that money that we have appropriated won't 
be moved for purposes that were not intended by this committee 
or by the Congress.
    And so I just want to state publicly how troubling that is 
to me, and it concerns me especially in light of what we 
discussed at our classified hearing, Secretary Wilson, about 
the challenges that the Army faces ahead and the money that is 
being cash-flowed in order to try to cover some of those 
challenges, so I just want to express my concern.
    I am also concerned about the fact that in this budget, 
there appears to be a $200 million decrease in family housing, 
is that correct?
    Secretary Esper. I would have to check on that. I don't 
believe so. We are actually investing substantial sums of money 
for MILCON and what we call FSRM [facilities sustainment, 
restoration, and modernization] which is sustainment and 
renovation to get our Army family housing up to Q1 and Q2 
levels at a much quicker time than what it was before, and I 
think we are now exceeding OSD standards.
    So I would have to come back, and maybe it is a--sometimes 
what happens is what we propose. For example, last year 
Congress adds additional money, and then we come up with more 
money over the proposal, but it looks like less because 
Congress inserted additional money. So let us do the forensics 
and come back to you as to how you are reading that.
    [The information referred to can be found in the Appendix 
on page 110.]
    Ms. Escobar. I appreciate that. I see that there is an 
increase in the remediation component----
    Secretary Esper. Right. Yes, ma'am.
    Ms. Escobar [continuing]. But this was brought to my 
attention during a recent veterans town hall meeting that I had 
in El Paso about the military housing for families, and so I 
would like to understand that more.
    Secretary Esper. Sure.
    Ms. Escobar. And to--one of the things that we learned at 
one of the other briefings, at least from my perspective, I 
think it is going to require a significant amount of investment 
to not just remediate, but I think in a lot of cases probably 
rebuild.
    Secretary Esper. Right.
    Ms. Escobar. So I look forward to a continued conversation 
on that.
    Secretary Esper. Some of it is, as well, the Army--most of 
the Army housing is privatized, so a lot of that funding--most 
all that funding comes out of what has been capitalized by the 
private partners.
    And Chief, did you want to add something there?
    General Milley. We can get you the actual forensics, 
Congresswoman, but I am pretty sure that some of that $200 
million or a good part of it is due to some completion of 
overseas projects in our OCONUS bases, but we will get you the 
actual numbers.
    Ms. Escobar. I appreciate it. As I mentioned, this was 
something important to some constituents at home, so I would 
like to learn more.
    Secretary Wilson, so again, congratulations on the 
nomination. I want to ask you about something, a trend that has 
been disturbing to me, on sexual assault and the Air Force. It 
remains a serious problem throughout the military, but these 
trends in our service academies are really of great concern. 
This February report surfaced that nearly half of female cadets 
in the Air Force Academy experienced sexual harassment during 
the 2017-2018 academic year. Another 15 percent reported 
unwanted sexual contact. Could you tell me what the Air Force 
has done to address that?
    The Chairman. And I apologize. This is a very, very 
complicated question to hit you with with 3 seconds to go in 
the time, so we are going to have to have you submit an answer 
for that for the record because I know the Air Force has worked 
on a great many different issues.
    So please get back to Ms. Escobar with a detailed 
explanation. It is just--it is not something you can do in 10 
seconds, I don't think.
    Secretary Wilson. Yes, sir.
    The Chairman. And with that, the gentlelady's time has 
expired.
    Mr. Bacon.
    Mr. Bacon. Thank you, Chairman, and I want to thank all of 
our witnesses here today for sharing us with your expert 
positions and opinions.
    I have a couple of points for questions. I want to, first 
of all, just congratulate Secretary Wilson for a job well done, 
and we have great universities too in Omaha for just future 
reference.
    Secondly, on the issue of the F-15, this was an issue 
forced on the Air Force over a decade ago. There was a desire 
for doubling the number of F-22s, and that decision was made 
outside of the Air Force to stop that production. Now we are 
left with a gap today that we have to fill. So I understand the 
predicament that you all are in.
    And thirdly, when it comes to the reprogramming, I don't 
think it is optimal, either. I don't think this is the way we 
should have gone forward, but Congress had the opportunity to 
work with the President, find a compromise for border funding, 
and it did not.
    It went backwards from the original position, and now today 
we are left with a crisis with 800 to 900,000 pace coming here 
illegally, being caught at the border and being swamped, 
swamping our DHS [Department of Homeland Security], our Border 
Patrol. Even Jeh Johnson, the Secretary of the DHS under Obama, 
President Obama, said we have a crisis, so this is something we 
can't ignore.
    Anyway, I appreciate your points on that earlier in the 
hearings, my first question is to General Milley. My 
understandings are tank modernization, our infantry fighting 
vehicle, our MLRS [Multiple Launch Rocket System] is behind 
what China and Russia is doing. We have some plans for the 
infantry fighting vehicle and the MLRS, but should we be 
concerned that we have this gap that we are--it appears to me 
that we are outgunned, outranged right now in these areas, and 
are we doing everything we can to close that gap? Do I have 
that right?
    General Milley. We are doing everything we can to close the 
gap. In terms of outgunned and outranged, typically what people 
mean by that is outgunned, is your adversary will have more of 
that type of--more capacity than you do. And in the case of 
Europe, yes. The Russians could mass more armor than the United 
States at a point of crisis, perhaps. That is possible.
    If you add up all of NATO, though, you get a different 
number. So the outgunned piece, you have got to be careful, and 
you have got to do the math, and it can be interesting. With 
China, the same thing.
    So as far as outranged goes, the tanks of the world, all of 
them, German, American, Chinese, Russian, et cetera, pick your 
tank, they are all within reasonable ranges and capabilities of 
each other. The Russian tank has a missile attached to it, ours 
does not, so they have extended range, et cetera. But I am very 
confident that the weapons platforms are within acceptable 
degrees of risk of each other.
    The real difference on any tank or any aircraft or anything 
is the training of the crew. It is the people. It is the skill 
of the operator. And I would match our skill against anyone.
    Mr. Bacon. Thank you.
    I want to thank Secretary Wilson and General Goldfein for 
visiting Offutt. Secretary Wilson, could you tell us what will 
be the impact if we do not get Tyndall and Offutt in a 
supplemental? You are doing cash flow right now, as you said. 
What is the impact if we don't get this done in a timely 
manner?
    Secretary Wilson. Sir, we have already had to hold back 
money for 61 facilities projects in 18 States on the first of 
May if we don't have--don't start to have funding flow. We are 
going to have to put the Tyndall recovery on hold.
    By the middle of May, we are going to have to stop some 
aircraft repairs, ground some bombers. Maintenance backlog is 
going to start to increase because we are having--we are going 
to have to cash-flow this, and if we don't have a supplemental, 
we have to take it out of this year's budget.
    And then at some point, probably sometime in the middle of 
the summer, we will have to defer the Offutt recovery.
    Mr. Bacon. Thank you.
    General Goldfein, considering Compass Call on our 
electronic warfare capabilities, and we have always tried to 
push for two replacement aircraft a year. And I know this year 
we were requesting one of the Air Force's. I just think it is 
hard on a squadron to have one Gulfstream, one EC-130. Could 
you just explain the problems here, and would you optimally 
want two a year or just--if you could give us a little 
background, I would be grateful.
    General Goldfein. Yeah. The challenge we have, Congressman, 
on this one is that we have got to take the aircraft--we have 
got to take the equipment from the C-130 and place it on the E-
37, so you have got--and we have got to do this while we are 
meeting combat and command requirements. So limiting ourselves 
is based on the fact that we have got to maintain C-130s at the 
same time we bring on the new aircraft and make that 
transition. And so while we would like to do it faster, what we 
built was the capability of doing it--essentially build the 
airplane while it is flying.
    Mr. Bacon. Concerning the RC-135, I heard from the HAF/A2 
[Headquarters Air Force director for ISR] that there is no plan 
to defund the RCs in the future, that it is the weapon of 
choice for the decades to come. Is that your understanding?
    General Goldfein. It is, but the same work that we are 
doing in Advanced Battle Management System as we look at what 
the replacement for Joint STARS [Surveillance Target Attack 
Radar System] is going to be, we are looking at all of these 
capabilities. The ones that right now are more platform-
centric, to how do we look at all of the sensors that we have 
and all of the domains and all of the services and use that as 
our asymmetric advantage as we fuse that information to get 
greater fidelity and better decision making.
    Mr. Bacon. Thank you, Mr. Chairman.
    The Chairman. A couple quick comments.
    One thing has come up that I don't think this committee has 
focused on, and I know Mr. Scott mentioned this, we need a 
supplemental. I appreciate your comment on that and the impact 
that has had on the military, but also it's had a devastating 
impact on a large number of communities across the country. We 
need to work through and get a deal on that.
    On the border wall, I don't disagree that there is, without 
question, a huge problem at the border right now. The problem 
that we have is that a wall is no solution to any of that. So 
with all the problems that we have down there, to take, you 
know, 5, 6, 10, $20 billion, whatever it is to build a vanity 
wall, that does not solve the problem.
    The problem is we have got people pouring up here from 
south of the border, and I think a thoughtful policy--certainly 
things have not gotten better since the Trump administration 
has implemented whatever immigration policies they have wanted 
to implement. It has gotten worse. And then to say we are going 
to cut off the funding from Central America, you know, when I 
think the one country where things have gotten better is El 
Salvador where USAID [United States Agency for International 
Development] has been down there helping so that people don't 
have to flee. Yeah, we have got big problems at the border. The 
solutions coming out of the White House are making it worse, 
not better, and I darn sure don't want to take 6, 7, $8 billion 
out of DOD to build some wall that isn't going to make the 
situation any better.
    So we definitely have to work on that. We are not saying it 
is not a problem. This is not the solution, and we don't want 
the money taken out of DOD. So happy to work with you on that.
    Ms. Haaland.
    Ms. Haaland. Thank you, Chairman, and thank you all for 
being here, and thank you for your service to our country.
    Secretary Wilson, as you are well aware, the fuel spill on 
Kirtland Air Force Base resulted in up to 24 million gallons of 
jet fuel leaving dangerous toxins and contaminants in our 
ground soil that posed a threat to Albuquerque's clean drinking 
water.
    I have heard from many of my constituents that the Air 
Force is not clearly communicating its efforts to remediate the 
spread of those dangerous contaminants, and there is a 
discrepancy between the progress the Air Force claims and what 
has been asserted by community stakeholders.
    So my question is--or my questions. Community stakeholders 
have repeatedly expressed that the Air Force has either refused 
to take their input or refused to share information about the 
cleanup, leading them to believe that environmental restoration 
at Kirtland is no longer a priority. Any budget priorities must 
include a responsibility for this and other contamination that 
the Air Force has caused in New Mexico, and it has happened at 
other places too as I am sure you know.
    Can you tell us whether the Air Force remains committed to 
the environmental restoration efforts at Kirtland and elsewhere 
and protecting the drinking water upon which thousands of 
Albuquerque citizens rely? And what are you doing to gain back 
the public trust on that issue?
    Secretary Wilson. Congresswoman, we are committed to the 
Kirtland project. It is a pump and treat project, largely, 
which will continue over a long period of time.
    Ms. Haaland. Thank you. And of course, as I mentioned, the 
community stakeholders have a different idea of what the--how 
that progress is going, and I am hoping that you will or 
someone will contact them and leave the door open so that they 
can have some assurance that what they believe and what the Air 
Force is doing are not two different things.
    Secretary Wilson. Happy to work with you on that.
    Ms. Haaland. Thank you. When are you leaving?
    Secretary Wilson. The end of May.
    Ms. Haaland. Okay. We might have time, then. Thank you.
    My second issue is military housing, and it has already 
been mentioned by a few of my colleagues, but I wanted to see 
if we could just--if I could get my issues out there a little 
bit, go a little bit deeper and more detailed.
    But military families have met with House and Senate 
Members regarding the harrowing impacts that poor military 
housing conditions have wreaked on their health and safety. 
These dire conditions range from mold, to vermin, to lead, to 
roofs and floors caving in.
    I grew up in a military family and lived on military--lived 
in military housing all of my young life. The housing was 
always a direct reflection of the discipline that my dad's 
Marine Corps career demanded, and it doesn't seem like it is 
that way any longer. I know firsthand that service members like 
my dad have the highest degree of readiness when they know 
their family's basic needs are being met.
    So the services have announced a number of measures to 
address these issues going forward, but sadly, many families 
are already suffering the financial hardship from unexpected 
moves, uncontestable security deposit withholdings, repair and 
medical bills that they don't get reimbursed for, severe health 
problems, lead poisoning, respiratory issues from black mold, 
and so it appears that your budget priorities must include 
that.
    I know that it looks like there is a $200 million decrease 
in the Army's family housing budget and just a modest increase 
in the Air Force's. What are the services doing to support 
those families who have experienced the impacts from these poor 
housing conditions?
    Secretary Esper. Congresswoman, we have instituted a couple 
dozen initiatives. We provide updates to the committees. I am 
sure we can get that to you as well if you haven't seen those, 
but it runs the gamut of everything you have said, and we have 
completed 100 percent inspections of all of our homes. We have 
had townhalls. We are negotiating or actually discussing with 
the CEOs changes to all those policies you talked about, non-
refundable policies. We are upstaffing at the Army with regard 
to our garrisons to ensure that there is 100 percent quality 
assurance, quality control whenever there is a handover of 
quarters.
    I mean, there is just a couple dozen things we are doing to 
make sure we take care of our families because they are number 
one, and this is--you know, this has been an eye opener for 
everybody. And the Army, the leadership is getting back 
involved in the housing business, and that is our number one 
commitment.
    [The information referred to can be found in the Appendix 
on page 110.]
    Ms. Haaland. Okay. That is good.
    The Chairman. I am sorry. The gentlelady's time has 
expired.
    Ms. Haaland. Thank you.
    The Chairman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. Ma'am, gentleman, thank 
you for being here today.
    I was tardy because I was on the floor of the House of 
Representatives speaking on the need for disaster relief, and I 
just want to make sure that you are all aware that both bills 
failed in the Senate yesterday. Both bills failed. The 
Republican bill failed 44-49, and the Democratic bill failed 
46-48. Obviously there is partisan politics going on right now. 
If the disasters had hit New York or Vermont, I have no doubt 
that they would have--that assistance would have already been 
provided.
    But I do have a question, Secretary Wilson. Has the 
administration submitted a request for disaster assistance for 
disaster supplemental?
    Secretary Wilson. The money is actually attached to the 
fiscal year 2020 budget, so it is in there with an emergency 
clause, and it clarifies the amount.
    Mr. Scott. My understanding, though, is that OMB [Office of 
Management and Budget] has not actually requested a 
supplemental package. I mean, obviously, we need a supplemental 
to pass within the next 8 days. And just so--so you understand 
where the calendar is, 8 days from now we leave for Easter 
break, and we do not return until April 30th.
    Now, I am fine if we don't leave for Easter break until we 
get a disaster bill done, but I would suggest to you as someone 
who has been fighting since October to get a disaster bill done 
that we need help. We need help making sure people understand 
the damage that is going to be done if we don't get a bill 
passed. And I don't think--I don't think most of the Members of 
Congress recognize the damage that is going to be done to the 
Air Force and our military readiness, much less the public.
    And it is embarrassing to ask you this, but some of you are 
going to have to get on the news and talk about--and when I say 
get on the news, it has got to happen now. We have 8 days until 
we leave until April 30th. And I am just asking for your help, 
asking for the President to turn it up. This is ridiculous.
    Obviously there is partisan politics going on over there, 
but the truth of the matter is the President could have done 
more to help with this before now too, and I am asking you for 
help.
    Secretary Wilson. Congressman, you will have every ounce of 
help that I can provide you including I have been talking 
publicly about this, sometimes hard to break through, but this 
has been a priority for the Air Force since October, and we 
have talked about it, worked together on it.
    Mr. Scott. Yes, ma'am.
    Secretary Wilson. And we are doing everything we can.
    Mr. Scott. But I have seen no stories on this in the 
mainstream media, none whatsoever, about what the implications 
of no disaster bill, Congress taking a 2-week or 3-week break 
between now and April 30th. If this doesn't get done, and from 
the standpoint of time, we have tomorrow in which case we have 
got a major event on the House floor which is going to take up 
a lot of time.
    Then there is a fly-out. So of the 8 days left, 5 are 
legislative, 3 of the 5 are fly-in and fly-out days where the 
time is going to be very limited.
    I just--you have done a good job of making the point to the 
choir that this needs to be done. The House has passed two 
bills. The House has passed two bills. The Senate has yet to 
pass a bill. And I would just ask that as you leave here, we 
need people on the news making sure that Congress does not 
leave for Easter break until a disaster assistance bill is 
done.
    And I will tell you. I think there is very little chance 
that a bill is done before we leave for Easter break. So with 
that, Mr. Chairman, I will yield the remainder of my time and 
maybe somebody has got some good news.
    The Chairman. Well, thank you. I appreciate you emphasizing 
that issue. It is unbelievably important.
    Ms. Luria.
    Mrs. Luria. Well thank you all for being here today.
    I would like to start with General Goldfein. In your 
statement, you said the Air Force need is 386 operational 
squadrons. Also, in your statement you compared this to the 
height of the Cold War. Previously you mentioned that was, you 
know, at the start of Desert Storm that you had 401 operational 
squadrons.
    I am trying to compare the two timeframes, the advancement 
in technology and lethality of weapons and weapon systems and 
aircraft that we have and just trying to understand how we are 
trying to go back to something so close to our Cold War height 
with all of the advances we have made in our weapons systems. 
Have we not gained any efficiencies?
    General Goldfein. Thanks. No. Thanks, ma'am, and I would 
characterize it as not going back but absolutely going forward. 
So here is what we did. To answer the Congresswoman's question 
of what Air Force do you need to successfully execute the 
National Defense Strategy with moderate risk?
    We started off with a fully burdened campaign plans, the 
global campaign plans for both the China and the Russia plan. 
And I say fully burdened because it won't be just the EUCOM 
[U.S. European Command] commander that will be supported with 
joint capabilities. It will be the EUCOM commander, the 
STRATCOM commander, the NORTHCOM [U.S. Northern Command] 
commander. All commanders are going to need forces.
    So we took the fully burdened global campaigns, and then we 
looked at the assessment of the threat, again, the best threat, 
and then we ran 2,000 iterations, computer simulations of 
different force elements and force structures to find the 
optimum force that we need to be able to execute the strategy. 
That is what we have laid forward.
    Mrs. Luria. I appreciate the amount of data and analysis 
that went into that. I was just--for comparison sake and the 
amount it cost to invest in the squadrons and each aircraft 
which is increasingly more expensive, I was just trying to get 
at, really, is there no more efficiency because we have 
increased lethality, and we have increased capability of 
aircraft over time?
    General Goldfein. Actually, there is, ma'am, built into it. 
And remember, 401 to defeat a rogue nation that is non-nuclear, 
386 to defeat a China or a Russia or nuclear peer.
    Mrs. Luria. Okay. And so, you know, just comparing it to 
the, you know, Navy's analysis where they come up with, you 
know, something about half of their Cold War peak number that 
they are saying they need in ships now, I would really like 
just an opportunity separate from this forum because we don't 
have time to understand the analysis that you put into taking--
to creating that number, and I will shift now.
    What percentage of global combatant commander demand for 
strike aircraft did you meet last year?
    General Goldfein. Say that again, ma'am. I am sorry.
    Mrs. Luria. What percentage of combatant commander demand 
did you meet worldwide last year both for strike aircraft and 
for tanker aircraft? I have asked this of the Navy relative to 
carriers, so I am interested for the Air Force.
    General Goldfein. Yeah. So when we did our analysis, 
interestingly enough, not surprising, long-range aviation was 
in the most demand. Tankers, bombers.
    Mrs. Luria. Okay. I am just trying to get for combatant 
commander demand this year. Do you have those numbers? Can you 
get that back to me?
    Secretary Wilson. Is the question are we meeting the combat 
commander demand?
    General Goldfein. I think you are looking for a 
percentage----
    Mrs. Luria. Yes. What percentage. So I asked each combatant 
commander about the demand that they had for aircraft carriers, 
and EUCOM said less than a half, CENTCOM is less than a fifth, 
and PACOM [U.S. Indo-Pacific Command] is getting 70 percent. So 
do you have a percentage equivalent for Air Force assets 
relative to combatant commander demand?
    General Goldfein. We can get you those details, but it is 
always a trade. And the chairman, as the global integrator of 
capability----
    Mrs. Luria. Right.
    General Goldfein [continuing]. Brings those decisions to 
the Secretary of Defense.
    Mrs. Luria. I understand that is the GFM [Global Force 
Management] process.
    General Goldfein. That is how we determine that.
    Mrs. Luria. But I now shift to General Milley. The same 
thing as far as brigade combat teams. Do you have an assessment 
of what combatant commanders requested this year versus what 
was provided and where those gaps are?
    General Milley. We are meeting the global combatant command 
demand on brigade combat teams, and roughly speaking, about 60 
percent of global combatant command demand is for Army forces, 
so we are meeting it. We are at the margins. We are much less 
than the 1:2 deployment-dwell ratios. We are spinning hard. And 
as you know, the size of the Army has reduced significantly 
from the peak of the surge in Iraq and Afghanistan, although 
the number of forces required in Afghanistan and Iraq, et 
cetera, have been roughed as well.
    Mrs. Luria. Thank you.
    General Milley. We are spinning pretty hard.
    Mrs. Luria. Thank you very much.
    In the interest of time, I will shift to another topic for 
Secretary Wilson. Are you familiar with the 2014 independent 
review of the DOD nuclear enterprise?
    Secretary Wilson. I am not sure I would know it by that 
name, but--so I am not--I am not sure I can answer the question 
accurately.
    Mrs. Luria. Okay. Well, my followup was that that 
particular review, and I believe that General Goldfein was 
involved in that process as well, and in your position at the 
time----
    Secretary Wilson. The nuclear posture review?
    Mrs. Luria. No. The DOD review of the nuclear enterprise. 
So it reviewed all nuclear assets including ICBMs 
[intercontinental ballistic missiles], nuclear deterrents as 
far as submarines, bombers, our NATO dual-capable aircraft.
    General Goldfein. Yes, ma'am. I think what you are 
referring to is nuclear posture review, and yes, we were 
involved in that.
    Mrs. Luria. I am not referring to the nuclear posture 
review, but the assessment that was made in 2014.
    So I am out of time, but I will try to follow up you with 
separately on the question. Thank you.
    The Chairman. Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman.
    Secretary Esper, you were in Indiana a couple of weeks ago, 
and we appreciate you visiting AM General. I was happy to read 
the press accounts of your statements about the need to 
modernize the Humvee as the Army retains it as the workhorse of 
the tactical vehicle fleet for the coming decades to come.
    The Army has requested funding to initiate a nonarmored 
Humvee modernization program in fiscal year 2020, and I want 
you to know that my colleagues and I stand ready to support 
your initiative to modernize the Humvee fleet for the future.
    So Secretary Esper, can we also count on your best effort 
to proceed quickly in this Humvee modernization program?
    Secretary Esper. Congressman, my best effort is to proceed 
quickly on every modernization program. I am not as familiar 
with this one, but we are always trying to move quickly. Speed 
is essential here. It is a key component of acquisition reform.
    Mr. Banks. Appreciate that very much.
    Moving on to a different subject. As the Army and the Air 
Force focus on modernization, one of the major concerns that I 
have is the competition with our peers in fielding offensive 
and defensive hypersonic technology.
    Secretary Wilson, a few weeks ago, you too were in Indiana 
visiting Purdue University to see some of the strides that they 
are making in several areas of advanced technology such as 
hypersonics. Can you highlight the importance for us of 
hypersonic technology in a future fight?
    Secretary Wilson. Congressman, we think that it is very 
important to the future fight because it gives us speed and the 
ability to strike at a standoff range, and it is actually a 
very good example of where all the three services, but in this 
case particularly, the Army and the Air Force are working 
together where the Army had tested a weapon with Navy funding, 
where the shell worked better than the one we did, but we had 
some good rockets.
    And so we are--we put together a tri-service program to 
develop a hypersonic weapon, drop it and test it off of a B-52, 
launch it from the ground or launch it from the deck of a ship. 
And by working together using best technology, we accelerated 
the advancement of hypersonics by 5 years.
    Mr. Banks. Can you as well, Secretary Wilson, talk about 
the role that universities can play in the testing and research 
of technologies like the advancement of hypersonics?
    Secretary Wilson. When we look at the future force, we need 
to invest in research, development, testing, and evaluation 
both at the early stages but also in developing prototypes and 
testing them and moving very rapidly. Our adversaries are 
innovating faster than we are, and we need to figure out where 
they cannot go and get there faster to create dilemmas for our 
adversaries.
    Mr. Banks. So as you head off to higher education, you see 
an important rule that universities play?
    General Milley. I absolutely do, and it is--and we are very 
close to finishing our new science and technology strategy for 
the Air Force, and it will emphasize partnerships outside of 
the government laboratories.
    Mr. Banks. Okay. I want to move on to another subject, 
Secretary Wilson. We have been hearing for quite some time that 
the Air Force has made a firm decision regarding the future of 
our strategic bomber force. We are concentrating on the old and 
the new. The new is the B-21 penetrator. The old is the B-52, a 
pre-Vietnam-era aircraft that has served our Nation well, but 
it is old.
    And the Air Force has embarked on a commercial engine 
replacement program [CERP]. Secretary, the Air Force's fiscal 
year 2019 budget justification document forecasted fiscal year 
2020 funding for this program at $312 million. However, the 
fiscal year 2020 budget exhibits reflect a funding level of 
just $175 million for B-52 CERP, or $137 million less. What is 
your expected timeline to complete this program to ensure our 
B-52s will be able to continue operating at a critical piece of 
our strategic plan?
    Secretary Wilson. Congressman, I will have to get back to 
you on the specific laydown of the funding and give you a 
detailed answer if I could.
    [The information referred to was not available at the time 
of printing.]
    Mr. Banks. I appreciate that. Are any fundamental changes 
to the acquisition strategy for this important upgrade for the 
B-52 fleet, are there any?
    Secretary Wilson. No. We are modernizing the bombers. We 
are, of course, buying the B-21, the long-range standoff 
weapon, and modernizing the intercontinental ballistic 
missiles. The other part that is not often mentioned in the 
importance of the nuclear deterrent is nuclear command control 
and communication, and about three-quarters of that is in the 
Air Force as well.
    Mr. Banks. Okay. We will look forward to seeing some more 
of those answers for the record. I appreciate your testimony 
very much, and I yield back.
    The Chairman. Mr. Moulton.
    Mr. Moulton. I thank you, Mr. Chairman, and I thank you all 
very much for your service.
    Secretary Wilson, we will miss you, and so I figured I 
would start with you. I have significant concerns about our 
current and future competitiveness with Russia and China, as 
you know, particularly in space, cyber, and artificial 
intelligence [AI]. I know you have been an advocate for more 
investment in these areas, in these next-generation 
capabilities. And you have testified before, in front of this 
committee, that we currently can match China in AI.
    As you depart your position, do you believe our current 
level of investment and level of focus on AI will be sufficient 
to compete with China over the next 30 years?
    Secretary Wilson. Congressman, 30 years is a long time. I 
think it is an absolute priority. And when we come out with our 
science and technology strategy, one of the things that it will 
emphasize is speed and complexity, and particularly speed to 
decision making, which means that algorithms and gathering vast 
amounts of information and understanding that information 
quickly will be one of the keys to success in future warfare.
    Mr. Moulton. So China's made a commitment of $150 billion 
between now and 2030, which is only 11 years away. I think the 
number in this year's budget was $927 million for the 
Department of Defense on AI. Do you feel comfortable?
    Secretary Wilson. I don't think any of us can feel 
comfortable with respect to artificial intelligence.
    Mr. Moulton. Thanks. Secretary Wilson, in your testimony, 
you stated that our potential adversaries are rapidly fielding 
capabilities that approach our own, and in order to prevail in 
conflict, we will need systems that can penetrate contested 
environments or have long-range effects. What does a sixth-
generation fighter need to be able to do, that the current 
fighters can't?
    Secretary Wilson. Congressman, I am not--I may defer to the 
chief here on some things, but this isn't something that I am--
that I feel really comfortable talking about in open session. 
But the sixth generation is probably still pretty far off. We 
are focused on buying the fifth generation, but--Chief?
    General Goldfein. We are not--Congressman, we are not 
committed to a platform, per se. We are committed to some key 
technologies----
    Mr. Moulton. How soon do we need to make these commitments?
    General Goldfein. Well, we have already made--what you will 
see in our budget is a commitment to next generation of air 
dominance. Speaking at the unclassified level, I will just tell 
you that there are some key technologies that we are advancing, 
that we believe will come together and be very important to 
going forward. One of those----
    Mr. Moulton. How soon will we need those capabilities, 
General?
    General Goldfein. Well, we are going to need those 
certainly into the 2030s.
    Mr. Moulton. Into the 2030s?
    General Goldfein. Absolutely.
    Mr. Moulton. These are capabilities that the F-35 has or 
does not have?
    General Goldfein. Some that the 35 has, and some that the 
35 is going to complement, and that is about as far as I can go 
in this forum.
    Mr. Moulton. Okay. General, you have been fighting 
admirably for more resources for your service. And I just ask 
you, do you agree with this statement, quote, if I had more 
money, I would put it into lethality, not bureaucracy.
    General Goldfein. Yes.
    Mr. Moulton. Okay. So that was your service secretary 
testifying against the creation of a space force. Secretary 
Wilson continued, quote, the Pentagon is complicated enough, we 
are trying to simplify. This will make it more complex, add 
more boxes to the organizational chart, and cost more money.
    So what has changed about the Pentagon in the last year and 
a half--year and a half--since that testimony, to change your 
opinion on the bureaucracy, vis-a-vis a space force?
    General Goldfein. I will tell you, for me, sir, what 
changed was, the decision that both the Department, the Air 
Force, and the White House made, to build a force inside the 
Department of the United States Air Force. Because for me, as a 
warfighter, it became recognizable in the business of space 
warfighting, and business of joint warfighting, because there 
really is no such thing as war in space. There is war----
    Mr. Moulton. So, in other words, you are supportive of a 
space force created within the Air Force?
    General Goldfein. Yes. I am.
    Mr. Moulton. But not supportive of a space force created 
outside of it?
    General Goldfein. That is correct. And I would----
    Mr. Moulton. Then why do we need the bureaucracy of a space 
force? Isn't the Air Force capable of doing these things?
    General Goldfein. The Air Force is fully capable----
    Mr. Moulton. Okay, great. Secretary Wilson, Admiral 
Stavridis has written, Trump is right to warn that we might be 
attacked from space someday and of the need to be ready for it. 
But we are being attacked from cyberspace right now, and that 
demands an immediate response. He is arguing for the need for a 
cyber force ahead of a space force. Do you agree or disagree 
with Admiral Stavridis?
    Secretary Wilson. I think Admiral Stavridis highlights an 
important problem that is also reflected in our budget, which 
is the need to make sure that we are resilient with respect to 
cyber capabilities and that we develop more tools for cyber----
    Mr. Moulton. Would you agree with his prioritization, that 
cyber right now, because we are literally being attacked daily 
by Russia and China, is more important than space?
    Secretary Wilson. I think they are both important.
    Mr. Moulton. Thank you. I yield back.
    The Chairman. Thank you.
    Ms. Torres Small.
    Ms. Torres Small. Thank you all for your service, and thank 
you specifically to Secretary Wilson. We will miss you, and I 
am also hopeful that there are some things we can work on 
together in this last dwindling time that we have.
    New Mexico Air National Guard is the only Air National 
Guard in the country without an operational flying mission, and 
it is one of just three States without its own aircraft. Yet 
the Air National Guard enterprise is based on established 
capstone principles that set the foundational framework for 
mission set application throughout the 54 States and 
territories.
    Specifically, one of those capstone principles is to 
allocate at least one unit-equipped wing and flying squadron to 
each State. Secretary Wilson, are States that are currently 
unable to align with these core principles, due to divestiture 
of aircraft in the past, given priority for new mission 
opportunities?
    Secretary Wilson. Congresswoman, the way we do new missions 
in the Air Force is to look at what are the requirements of 
those missions and which bases or States or localities are the 
best to be able to accomplish those missions. As you know, I 
have a strong--a big part of my heart in the New Mexico Guard, 
and my husband was a ``Taco.'' He was a member of the New 
Mexico National Guard. Their loss of their F-16 aircraft was, I 
know, devastating to the members of the Guard and the State of 
New Mexico. And I hope long term that they are able to develop 
a mission. One of the things that I think is important is for 
those units to look at how can they partner with Active Duty 
forces and meet an operational Air Force need.
    Ms. Torres Small. Switching now to another topic that is 
incredibly important for New Mexico, and across the country, as 
we see increasing impacts, when it comes to PFAS [per- and 
polyfluoroalkyl substances]. Last week, I expressed my deep 
concerns to Acting Secretary Shanahan on the lack of leadership 
by the Department of the Defense to proactively address the 
PFAS contaminants at military establishments.
    Secretary Wilson, I want to convey that the Air Force has 
showed that same lack of urgency when it comes to PFAS 
contaminants, particularly in New Mexico. Secretary Wilson, 
please explain what efforts the Air Force has taken to work 
with the communities affected around Cannon Air Force Base and 
now Holloman Air Force Base.
    Secretary Wilson. When the EPA [Environmental Protection 
Agency] identified PFAS and PFOA [perfluorooctanoic acid] as 
emerging contaminants, the services--all of the services went 
out and surveyed our sites. We looked at, I think it was 297 
different sites where we might have been using this 
firefighting foam. We have replaced a hundred percent of our 
firefighting foam. We have surveyed the drinking water on each 
of our bases. We have done 110 detailed site inspections. We 
are providing alternative water at 21 locations.
    There is not currently a cleanup standard. And we have 
reached out to both the Department of Agriculture as well as 
the EPA and Health and Human Services to try to encourage them 
to establish a cleanup standard. There are some things we can 
do under existing law, to be able to prevent further migration 
of any plume, but--and we are doing that where we have 
identified problems.
    Ms. Torres Small. So my real concern is a lack of ownership 
by the Department of Defense and the Air Force specifically 
about this issue. It came up at the last hearing as well, EPA 
standards were brought up, and also in some of our 
conversations and conversations with staff about a lack of 
authority to do certain things, that were having real impacts 
on consumption and water in New Mexico.
    So I want to make sure that we are working together to 
address this, rather than trying to pass the buck. So what is 
it that the Air Force needs to be able to do more, to start 
acting to collect--to stop increased plume spreading?
    Secretary Wilson. We do have the authority to prevent any 
further migration of the plume and also to provide clean water, 
both on base and off base, to people who are affected. The 
Department of Agriculture has some other authorities with 
respect to agricultural products which we don't have the 
authority to do. I would say that one of the things that is 
important is that less than 4 percent of this chemical was sold 
for firefighting foam, and a very small percentage of that, for 
the military firefighting foam.
    So there is 1,100 commercial airports, and this particular 
chemical is used in waterproofing, it is used on the coatings 
for fast-food wrappers. It is prevalent. And so there is a 
national issue, of which we are trying to get after the part we 
are responsible for.
    I have to say, almost no one else even wants to look. And 
so I think--I think, you know, we are trying to do what we can 
with the authorities we have for the things we are responsible 
for. But 96 percent of the problem is not even identified.
    Ms. Torres Small. I would ask that you prioritize 
addressing----
    Secretary Wilson. Absolutely.
    Ms. Torres Small [continuing]. The part that we know.
    Secretary Wilson. Absolutely.
    Ms. Torres Small. Thank you. I yield my time.
    The Chairman. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman. I just want to 
thank our witnesses and make one observation. Going back to 
Secretary Wilson's initial comments about the Air Force we 
need. For many--for a number of years on this committee, a 
frustration among a number of members that service chiefs and 
secretaries were not really giving us their best military 
judgment about what was needed to execute the mission that they 
were given.
    And I think--I just want to emphasize, I think it is 
important for us to hear from you, the Army you think you need 
to carry out the missions you have been given, the Air Force 
that you need--and it may or may not come to pass. But under 
the Constitution, it is our responsibility to build and 
support, provide and maintain the military forces. And we 
have--we will have to have a conversation about what is 
acceptable risk, what is not.
    But as I have been listening to all of the different items 
under discussion here, it just reinforced to me, the need that 
we hear from the people in you-all's position about what you 
believe it takes to do what you have been asked to do. And then 
the process will proceed from there.
    I think you-all have done that today, and I appreciate it.
    The Chairman. Thank you. And I completely agree with 
Ranking Member Thornberry on that. I think it is very helpful 
for us to hear from you on that. I think, you know, the next 
step is, okay, if we are not able to do what it is we are 
asking you to do, I always submit that there are--well, there 
is three options, the last one of which I will close with in a 
second. One is, okay, we need to buy more stuff.
    Two is, we need to change what the mission is. You know, it 
may be that we are asking you to do things that don't need to 
be done, and stretching you too thin from other things that do 
need to be done. And that is the piece that I don't think this 
committee traditionally does as much as it should of drilling, 
you know, what is the mission, why are we doing this, why do we 
say we need that. And that is a part of it I want to examine.
    And the other piece is something that I really want to 
thank Mr. Thornberry for his work on this, and that is the 
issue of how we spend the money at the Pentagon. And what I 
have always wanted to hear more from our witnesses is, not 
just, okay, here is where we are short, but here is where, you 
know, we are spending money that frankly we don't need to be 
spending, or here is an area where, you know, we looked at the 
books and, oh my gosh, we spent $3 billion on this and we 
shouldn't have. And we want to fix that.
    Because it would be a lot easier for us up here to advocate 
for more money for you if we knew it was being well spent. And 
sadly--the audit is not just an esoteric thing, it is not just, 
oh, gosh, we would really like to sort of see it. It is not 
like a teacher writing on your paper, show your work. You know, 
it really matters, because we don't know where the money's 
going. We can't figure out whether we need to spend it.
    And without question, because of the mess where we don't 
adequately account for all the money that is spent in the 
Pentagon, a ton of money has been wasted. And a lot of the 
problems, I submit, on the F-35, on all these programs that we 
had, on future combat systems, on the expeditionary fighting 
vehicle, all these programs that were just--you know, on the 
aircraft carriers, that were nightmares from the start, in 
terms of how much they wound up costing, could have been 
reduced if we knew what we were spending the money on, if we 
had an adequate accounting system within the Pentagon.
    So we are going to continue to emphasize making progress on 
that, because it is all connected. You save money there, then 
you got more money to meet, you know, the demands that you have 
outlined to us.
    And I agree with the ranking member, you outlined them very 
well.
    So, with that, I thank you very much for your testimony, 
and we are adjourned.
    [Whereupon, at 1:16 p.m., the committee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                             April 2, 2019

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 2, 2019

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 2, 2019

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MR. GALLEGO

    General Goldfein. The CSAF replied to Rep Gallego on 12 June 2019. 
In the letter (attached), he addresses the Congressman's concerns on 
the effects of unfunded mandates, including southern border operations. 
[The letter was not available at the time of printing.]   [See page 
38.]
                                 ______
                                 
            RESPONSE TO QUESTIONS SUBMITTED BY MS. STEFANIK
    General Milley. The Army supports the Defense Health Agency (DHA) 
assuming full administration, direction and control of Medical 
Treatment Facilities (MTFs) with the goal of maintaining high quality 
of care for our beneficiaries, seeking greater efficiencies in 
healthcare services, while the Military Departments continue to focus 
on readiness. For the Army, Phase I consisted of Womack Army Medical 
Center (WAMC) at Fort Bragg, NC, transitioning to DHA on 1 Oct 2018. 
Since the transition, Regional Health Command-Atlantic (WAMC's previous 
higher headquarters) continues to provide to WAMC a significant amount 
of its administration and management support such as human resources, 
resource management, information management operations, and logistics. 
DHA developing the necessary structure, processes, and resources to 
provide healthcare delivery capability and oversight at all echelons. 
The Army analysis is that DHA will not meet their functional transition 
plan for the remaining MTFs without an established Plan of Action and 
Milestones to facilitate the transfer of thirty-four required MTF 
administration and management functional capabilities from the Military 
Departments to DHA. We are collaborating with the Office of the 
Secretary of Defense, Defense Health Agency and the other Services to 
improve 21 DHA's transition plan with conditions-based milestones and 
establishing a human capital transition strategy to retain vital work 
force expertise. The Army recommends that DHA focus on the transition 
of the MTFs and the rollout of the Military Health System Electronic 
Health Record as a matter of priority and includes appropriately 
scoping DHA's Combat Support Agency role and continue further planning 
for additional entities (such as research and training) with execution 
after a synchronized MTF transition is successfully completed.   [See 
page 28.]
                                 ______
                                 
            RESPONSE TO QUESTIONS SUBMITTED BY MS. SHERRILL
    Secretary Esper. The Army contracted with McKinsey & Co. (McKinsey) 
to complete two distinct efforts relevant to life cycle management 
activities. The Transition to Sustainment project covered the 
synchronization and workload transition between the Program Executive 
Offices (PEO) and the Lifecycle Management Commands (LCMC) for systems 
and equipment. McKinsey delivered the guidebook documenting the process 
to establish transition-to-sustainment plans for systems and equipment 
in September 2018. The Army expects to finalize the guidebook in the 
fall of 2019; after which time, Army will provide a copy to Congress. 
The Joint Program Executive Office Armaments and Ammunition (JPEO A&A) 
coordinated a facts-based independent assessment (lead by McKinsey & 
Company) of the management of the ammunition industrial base. The 
assessment covers the Class V ammunition enterprise roles and 
responsibilities for managing government-owned, contractor-operated 
facilities. The final report titled DoD Ammunition Enterprise 
Organizational Assessment is not an official Army position, but was 
conducted to provide information and make recommendations for Army 
Senior Leader consideration. We anticipate a decision from the 
Secretary of the Army in the near future.   [See page 49.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MS. ESCOBAR
    Secretary Esper. Yes, the $3.6B includes backfill funding.   [See 
page 52.]
    Secretary Esper. There is not a $200M reduction to baseline 
funding. The difference between the FY19 and FY20 request for Army 
Family Housing is almost entirely due to the $189M drop in the 
construction account from FY19 to FY20. The FY19 budget was the Army's 
largest Family Housing construction request since FY09 due to large, 
one time, project costs associated with overseas housing. The Army has 
programmed several large Family housing construction projects since 
FY15, averaging $172M per year over the past 6 years. Last year, 
Congress funded the last of four projects totaling $241M to construct 
new high-rise towers at Camp Walker, KO (USAG Daegu), while 
simultaneously funding the third increment of a $302M high-rise 
construction program at Camp Humphreys, KO, and a $95M construction 
project at Vicenza, Italy. With our FY20 budget request, we have 
returned to baseline funding levels and will be able to meet the OSD 
goal of 90% good or adequate (Q1/Q2) Family Housing inventory.   [See 
page 52.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MS. HAALAND
    Secretary Esper. The Army is taking immediate steps to identify and 
resolve maintenance and customer service concerns in both Army owned 
and Residential Communities Initiative (RCI) privatized housing 
inventories. Army Commanders have conducted 100% home visits and 
barracks inspections at all Army installations, to immediately identify 
and addressall life, health, and safety deficiencies. In cases where 
the deficiency could not be corrected within 24 hours, the Army or RCI 
companies have paid to relocate Families to adequate quarters and then 
later returned them to their homes. In some cases, the RCI company 
offered Families a different home and paid all moving and incidental 
expenses. RCI companies are appropriately reimbursing residents for 
certain claims associated with damage or loss of property. No Family 
will be denied medical treatment resulting from health concerns 
associated with housing hazards. The Army's RCI companies have 
suspended the utility billing program and stopped charging non-
refundable pet fees. RCI companies may still charge pet deposits which 
will be refunded upon lease termination, unless damages are present. 
Residents can contest the deposit through their Army leadership, 
housing advocate, and the representative of the RCI Company. 
Reimbursements made by RCI companies are not included in the Army's 
budget. The Army is responsible if a reimbursement is for Army Owned 
Housing. Where there are questions regarding reimbursement from the RCI 
Company or the Army, residents are encouraged to involve their chain of 
command and the installation's Garrison leadership. Residents who have 
suffered unreimbursed economic harm caused by negligent conduct 
attributable to either the Army or a RCI company can pursue claims for 
damages.   [See page 57.]
    Secretary Esper. There is not a $200M reduction to baseline 
funding. The difference between the FY19 and FY20 request for Army 
Family Housing is almost entirely due to the $189M drop in the 
construction account from FY19 to FY20. The FY19 budget was the Army's 
largest Family Housing construction request since FY09 due to large, 
one time, project costs associated with overseas housing. The Army has 
programmed several large Family housing construction projects since 
FY15, averaging $172M per year over the past 6 years. Last year, 
Congress funded the last of four projects totaling $241M to construct 
new high-rise towers at Camp Walker, KO (USAG Daegu), while 
simultaneously funding the third increment of a $302M high-rise 
construction program at Camp Humphreys, KO, and a $95M construction 
project at Vicenza, Italy. With our FY20 budget request, we have 
returned to baseline funding levels and will be able to meet the OSD 
goal of 90% good or adequate (Q1/Q2) Family Housing inventory.   [See 
page 57.]

?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 2, 2019

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. WILSON

    Mr. Wilson. General Milley, in your testimony you commented on Iron 
Dome having a successful track record and the Army's report on Iron 
Dome says it provides ``the best value to the Army based on its 
schedule, cost per kill, magazine depth, and capability against 
specified threats.'' The acquisition requires an ``above threshold 
reprogramming'' request for FY19 funds.
    Is the ``Iron Dome'' an interim solution or an enduring solution? 
When do you plan on submitting the request to Congress? What would be 
the impacts to national security if the request is not approved? How 
can we move more quickly to a program of record and fielding of the 
system?
    General Milley. Iron Dome is an interim solution for indirect fire 
protection capability against rockets and cruise missiles. The Office 
of Management and Budget submitted an above threshold reprogramming 
package to Congress on April 22, 2019. The Secretary of Defense 
certified there is a critical need for the United States Army to deploy 
an interim cruise missile defense capability. As outlined in the 2018 
National Defense Strategy, we must develop layered regional missile 
defenses to deter aggression by near-peer adversaries. If the FY18/19 
above threshold reprogramming request for funding of Iron Dome is not 
approved, this capability will be significantly delayed. The timeline 
for fielding will be approximately 18 months after contract award. 
Congress approved the FY19 above threshold reprogramming (ATR) request 
for the purchase of two Iron Dome batteries, and to fund the 
experimentation and analysis of configurations to inform the enduring 
solution. The Army decision point will determine if an update to the 
requirements is warranted and if the Army will pursue components of 
Iron Dome (Missile Firing Unit and TAMIR interceptor) as part of the 
enduring solution. When the ATR request has been approved and contracts 
awarded, the Army will determine the feasibility to meet the FY19 NDAA 
September 30, 2020 deployment date.
    Mr. Wilson. General Scaparotti testified earlier this month to the 
Senate Armed Services Committee that there are possible shortfalls with 
intelligence, surveillance, and reconnaissance assets in Europe.
    Can you describe how this budget will address shortfalls in 
intelligence, surveillance, and reconnaissance capabilities?
    General Milley. Since 2017, the Army has been working closely with 
United States Army Europe (USAREUR) and United States European Command 
(EUCOM) to address theater specific intelligence requirements. These 
efforts have informed the Army's needs for additional Army intelligence 
capacity and capability in Europe for the Fiscal Year (FY) 2020 budget. 
In addition to these needs, continued support to the European 
Deterrence Initiative (EDI) funding is necessary. EDI funding has been 
important to improve our ISR capabilities to address ISR shortfalls in 
Europe. Listed below are some specific examples of how the Army in the 
FY20 budget and with additional EDI funding will address EUCOM's ISR 
shortfalls. The Army is preparing to deploy three Guardrail Common 
Sensor (GRCS) aircraft to Europe in FY20 to address shortfalls in 
indications and warning systems. Improvements in electronic 
intelligence and cyber sensors will enable the GRCS to provide the 
Ground Commander a tactical collection capability, currently absent in 
theater. The Army is developing an integrated signals intelligence 
(SIGINT), electronic warfare (EW), and cyber capability to improve 
ground intelligence collection capability and capacity. This new quick 
reaction capability can target modern tactical peer/near-peer signals 
of interest in support of ground combat maneuver elements' cyber and EW 
activity. This capability will address intelligence gaps dealing with 
Russian threats in Eastern Europe and the Baltics. The Army is 
modernizing six Prophet systems to replace the current systems in 
USAREUR to improve SIGINT and EW capabilities for the ground commander. 
This modernization of the architecture framework (both hardware and 
software) will facilitate the rapid integration of signals collection. 
The Army also is developing the next ground based system, the 
Terrestrial Layer System (TLS) which will integrate SIGINT, EW, and 
cyber into a common ground platform at the brigade combat team level. 
The Army will continue the Advanced Miniaturized Data Acquisition 
System (AMDAS) Dissemination Vehicle (ADV) pilot program to support the 
1st Infantry Division's operational needs in Europe for expeditionary 
access to national capability.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER
    Mr. Turner. Based on Russia's disruption of GPS during NATO's 
Trident Juncture drills last year, reports of China's investment in 
missiles that can take out GPS satellites, and reports out of Israel 
about Syria jamming and spoofing GPS, we have become increasingly 
concerned about future access to GPS in contested environments and 
operations.
    This especially concerning as Russian air defense systems are 
further limiting accessing.
    What is the U.S. Air Force doing to field cost-effective non-GPS-
reliant precision munitions with stand-off capability in the near-term?
    Have you surveyed allies and partners to see what capabilities they 
have and whether they can be fielded more quickly than a developmental 
program?
    General Goldfein. The U.S. Air Force continues to work to ensure 
our ability to deliver precision munitions in all conditions including 
GPS-contested environments. We have a family of systems that can 
operate in different ways to address these threats. We will be happy to 
come brief you and your staff on this subject.
    The Air Force recently participated in the Five Power Air Senior 
National Representatives (SNR) First AltNav Exploration Group Meeting, 
20-21 March 2019, in Germany. We are also actively engaging with IT, 
UK, FR, and GE to identify viable non-GPS solutions.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. COURTNEY
    Mr. Courtney. Section 1707 of the Space Force proposal asks for 
authority to involuntarily assign military and civilian personnel to 
the Space Force. That includes members of the Army, Navy, and Marine 
Corps, who could be ordered to join the Space Force even if they 
commissioned as officers in another service. Doing that would clearly 
impact the families as well because a Space Force career could be 
totally different than the Army or Navy career they were planning on. 
Civilians could also be involuntarily placed into a totally different 
career path or place of work as well.
    How do you plan on managing this reassignment of military and 
civilian personnel without negatively impacting their careers and/or 
families? Is this broad authority to involuntarily assign personnel 
really necessary--couldn't you simply rely on volunteers instead?
    Secretary Wilson. The Air Force will minimize involuntary military 
transfers to the greatest extent possible through the use of voluntary 
transfers using the monetary and non-monetary incentives at our 
disposal. The legislative proposal provides for involuntary transfer 
authority in the unlikely event that we are not able to satisfy mission 
requirements through details and or inter-service voluntary transfers. 
Involuntarily transfers would be an option of last resort if for 
example a mission was completely transferred from the AF and the 
incumbent individuals have skills not available through other means. 
These transfers would be handled on a case-by-case basis. The Air Force 
will seek to minimize any negative impacts to career development using 
existing policies and procedures.
    For the civilian force, in the case of a major reorganization such 
as this, civilian employees would transfer in place to the Space Force 
with the realignment of the mission and billet to which the employee is 
assigned, with no loss in pay. Employees would also have the ability to 
volunteer to transfer to vacant Space Force positions for which they 
qualify. If the individual does not desire to transfer with their 
position, the agency will make every attempt to place the individual in 
another position for which they are qualified in order to minimize the 
potential for adverse impact.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GARAMENDI
    Mr. Garamendi. Secretary Esper, I recently returned from Kuwait, 
where I saw the Army's prepositioned stocks at Camp Arifjan and the 
soldiers and civilians who work tirelessly to ensure they are ready for 
battle. Can you explain what the Army is doing to ensure resiliency for 
this vital mission given Camp Arifjan's location and the threat of 
Iranian ballistic missiles? How is the Army thinking about the posture 
and location of its prepositioned stocks in the Gulf in light of this 
threat? How is the Army coordinating with the Marine Corps to seek 
opportunities for joint facilities, storage, and maintenance 
capabilities to get equipment covered and reduce the maintenance cost 
associated with wear and tear from equipment being stored exposed to 
the heat and environment?
    Secretary Esper. The range and quantity of Iranian missiles means 
that the Iranians can hold locations in the Persian Gulf at risk. 
Therefore, the Army partners with the Joint Force and our Allies to 
provide protection against Iranian capabilities. The U.S. military 
possesses the ability to quickly adjust posture to deter Iranian 
aggression, and as we continue to implement the National Defense 
Strategy, we will retain the ability to dynamically employ the force 
across the globe. The Army is also cooperating with the other military 
Services and our Allies to efficiently maintain our prepositioned 
stocks. The Army coordinates regularly with the Marine Corps and other 
Services within the Joint Staff-led Global Prepositioned Materiel 
Capabilities Working Group. These efforts seek joint efficiencies in 
prepositioned storage. The Army prioritizes indoor storage for 
equipment with the most intensive maintenance requirements and those 
needed first in a contingency. Currently, 70 percent of the 
prepositioned equipment is stored indoors, which significantly reduces 
unscheduled maintenance.
    Mr. Garamendi. In 2016 the Pentagon set the cost at the Ground 
Based Strategic Deterrent (GBSD) program's Milestone A decision at $85 
billion in then year dollars, but called for a more up-to-date estimate 
by March 2018 given that the $85 billion figure was at the lower end of 
an independent CAPE office estimate that projected the cost as high as 
$150 billion. Both estimates were far higher than the Air Force's 
initial estimate
    Has the Air Force produced an updated cost estimate for the GBSD 
program? If so, what is it? If not, when can we expect an updated 
estimate?
    Secretary Wilson. The Service Cost Position update estimated for 
March 2018 was delayed due to the implementation of an updated Security 
Classification Guide. In June 2019, an updated Service Cost Position 
was presented in conjunction with the OSD Cost Assessment and Program 
Evaluation (CAPE) Independent Cost Assessment. It is pending public 
release.
    Mr. Garamendi. According to the 2018 NPR, the life of the Minuteman 
III ``cannot be extended further.'' However, neither RAND in a 2014 
report nor the Air Force's 2014 analysis of alternatives determined 
that another life extension is infeasible. Moreover, at a March 28 HASC 
hearing, Lieutenant General Richard Clark, USAF, Deputy Chief of Staff, 
Strategic Deterrence and Nuclear Integration said: ``We have several of 
the [Minuteman III] components that are becoming obsolete. The 
propulsion system, the guidance system, even the ability to provide the 
solid rocket motor fuel, we only have one more opportunity to do that 
for these weapons.'' Why did the NPR claim that the life of the 
Minuteman III ``cannot be extended further''?
    Secretary Wilson. The Minuteman III Intercontinental Ballistic 
Missile (MM III) weapon system is 39 years past its designed service 
life and must be recapitalized due to capability shortfalls, asset 
attrition, evolving security environment, degrading infrastructure and 
critical system component age-out.
    The NPR statements with regards to extending the service life of MM 
III are based on the funding requirements to overhaul all the systems/
components without additional operational capabilities necessary in the 
evolving threat environment. To do so would be fiscally irresponsible. 
GBSD, the MM III replacement system, is being designed with mature 
technologies and an open architecture to intentionally lower the life-
cycle costs and provide the flexibility to address identified/
unidentified future capability gaps of the ground component of the 
nuclear triad.
    Additionally, there are components of the MM III, which can no 
longer be life extended but would require remanufacturing, and in some 
cases would necessitate significant development work due to the 
obsolescence of the technology.
    Mr. Garamendi. In 2017 the CBO projected that $17.5 billion could 
be saved over the next 30 years by delaying development of a new ICBM 
by 20 years and instead extending the life of the Minuteman III by 
buying new engines and new guidance systems for the missiles. 
Crucially, however, this approach would save $37 billion through fiscal 
year 2036 when the vast majority of nuclear recapitalization spending 
is scheduled to take place, including other Air Force priorities such 
as the B-21 Bomber. Do CBO's estimates comport with the Air Force's 
estimate of the cost to sustain the Minuteman III relative to GBSD 
through 2036?
    Secretary Wilson. The Air Force's assessment does not align with 
the CBO's projected savings. The Ground Based Strategic Deterrent 
Analysis of Alternatives released in 2014 indicates that it is more 
efficient to develop a new ICBM capability rather than sustain the 
current Minuteman III.
    CBO focuses on the replacement of flight systems (propulsion and 
guidance), but additional ground systems would also require 
development/replacement due to parts obsolescence and other 
sustainability challenges to maintain the Minuteman III capability 20 
years beyond the current end of life. The CBO projection also does not 
address the increasingly complex global security environment and the 
need to modernize the nuclear force to counter competitors' coercive 
strategies as outlined in the National Defense Strategy. Additional 
ICBM capability will be required to address the need for payload 
increases to surmount competitors' defensive system improvements 
enabled by rapid technological advancements.
    Mr. Garamendi. The 2018 NPR stated that the Minuteman III missiles 
``will have increasing difficulty penetrating future adversary 
defenses.'' Which adversaries have the capability to defend against a 
large-scale ballistic missile attack?
    Secretary Wilson. [The information is classified and retained in 
the committee files.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SCOTT
    Mr. Scott. I commend you on making Army Readiness and Modernization 
your top priority. In addition, your focus on collective training 
emphasizes high-intensity conflict, utilizing complex terrain, and 
operating under degraded environmental conditions:
    1. Please explain why the U.S. Army does not have an urban warfare 
school despite having one for arctic, jungle, desert, and mountain 
warfare?
    2. General Milley, in October 2016, said the Army needs ``to man, 
organize, train and equip the force for operations in urban areas, 
highly dense urban areas, and that's a different construct. We're not 
organized like that right now.'' How has the Army prepared or changed 
for major operations in dense urban environments since October 2016?
    3. From the platoon level through the battalion level at the Combat 
Training Centers (CTCs), are you currently able to meet all your 
training requirements? What gaps do you foresee for potential future 
conflicts?
    4. The Joint Urban Operations Office closed with the Joint Forces 
Command in 2011 leaving the Department of Defense without an executive 
agent for urban operations. Any major combat operations in an urban 
area in the future will clearly be a joint operation. How is the joint 
force preparing for major combat operations in dense urban 
environments? What changes should be made for the joint force to do so?
    Secretary Esper and General Milley. 1. The U.S. Army Training and 
Doctrine Command (TRADOC), Maneuver Center of Excellence, the proponent 
for urban warfare doctrine, has published the Army Tactics, Techniques 
and Procedures (ATTP) 3-06.11, ``Combined Arms Operations in Urban 
Terrain.'' These tactics, techniques, and procedures are incorporated 
in unit training events. TRADOC has not developed a requirement for an 
urban warfare school given that many installations have their own urban 
warfare training sites. Urban warfare training at these home station 
sites can be supplemented by training at well-developed existing urban 
training sites--Mascatatuck at Camp Atterbury, IN; Shughart-Gordon at 
the Joint Readiness Training Center at Fort Polk, LA; and Tiefort City 
at the National Training Center Fort Irwin, CA.
    With regard to other schools, there are two primary U.S. Army 
Schools that instruct mountaineering/cold weather related courses; the 
Northern Warfare Training Center and the U.S. Army Mountain Warfare 
School. The Army does not have a jungle or desert warfare school. 
Instead, individual units, based on geographic location and anticipated 
mission, conduct training in these geographic and climatic regions. For 
example, the 25th Infantry Division in Hawaii operates a troop school 
that provides a Jungle Operations Training Course for 25th Infantry 
Division Soldiers.
    2. In 2018 the Army revised its primary doctrine manual ATP 3-06, 
Urban Operations, and the Army is currently working with the Joint 
Staff J-7 to revise Joint Publication 3-06, Joint Urban Operations. The 
Army established, and continues to refine, urban training programs at 
the Maneuver Center of Excellence, Fort Benning, GA, and also 
established a leader's dense urban and subterranean orientation course 
at Fort Hamilton, NY, in coordination with New York City. The Army has 
determined the collective urban training requirements and plans to 
further develop urban training facilities based on those requirements 
at its combat training centers.
    Beginning in 2017, the Army developed and designed a comprehensive 
approach to prepare for future operations; specifically addressed in 
the Multi-Domain Operations 2028 (MDO 2028) concept. MDO 2028 
identified operations in dense urban environments as a major challenge 
and incorporates essential success factors such as the need to man, 
organize, train and equip the force for success in an urban 
environment.
    The Army completed a major study on urban operations in Mosul with 
recommendations across 31 Doctrine, Organization, Training, Materiel, 
Leadership and Education, Personnel, Facilities and Policy (DOTMLPF-P) 
capabilities to improve urban operations. Army Futures Command 
identified necessary capabilities and is exploring potential solutions 
to meet the needs of dense urban operations.
    3. Yes. Army Combat Training Centers (CTCs) are able to build on 
home station training to prepare units for current known operational 
requirements and for decisive action in major combat operations against 
contemporary threats. The CTCs constantly examine ways to better 
prepare forces. For example, CTCs have increased the use of enemy 
drones, jamming, chemical attacks, unmanned aerial system sorties, 
indirect fire, and are planning to increase CTC capability to train 
forces in dense urban terrain. Army CTCs remain ready to adapt to 
specific requirements of any long-term contingency or named operation 
by providing mission rehearsal exercises for rotational forces. In the 
coming decade, the Army will develop operational concepts and training 
for multi domain operations. The CTCs will need to replicate civilians 
on the battlefield, dense urban terrain, and other complex terrain as 
parts of the operational environment (OE). OE factors that must be 
realistically replicated in CTC training include peer/near-peer 
opposing force capabilities in cyber, space, deception, electronic 
warfare, and artificial intelligence threats.
    4. The Army, as part of the Joint Force, prepares to conduct land 
combat operations in any and all operational environments, including 
dense urban environments. Army training follows Joint and Army doctrine 
for the conditions of the dense urban environment: Joint Publication 3-
06, ``Joint Urban Operations''; Army Techniques Publication 3-06, 
``Urban Operations''; Army Tactics, Techniques and Procedures 3-06.11, 
``Combined Arms Operations in Urban Terrain''; and Army Techniques 
Publication ATP 3-06.1, ``Multi-Service Tactics, Techniques, and 
Procedures for Aviation Urban Operations.''
    Mr. Scott. The Air Force has suffered significant severe storm 
damage at both Tyndall Air Force Base and Offutt Air Force Base.
    1. Please explain your supplemental funding needs to repair damage 
at these bases?
    2. What effects do continual delays of disaster funding have on 
your ability to conduct day to day operations?
    3. What are you prepared to do if you do not receive the 
supplemental funding?
    Secretary Wilson. Thank you for your support in helping the Air 
Force get FY19 supplemental funding. Although already passed, the 
response to your question is below.
    1) After the $200M reprogramming approved by Congress, the Air 
Force requires $1.1B in FY2019 and $3.9B in FY2020/FY2021 of 
supplemental funding for Tyndall AFB and Offutt AFB. FY19 immediate 
needs for Tyndall AFB include approximately $550M in Facilities, 
Sustainment, Restoration and Modernization (FSRM) & Support and 
approximately $150M in Military Construction (MILCON) Planning & 
Design. FY19 immediate needs for Offutt include approximately $120M in 
FSRM and approximately $234M to replace the damaged RC-135 Simulator.
    In FY20, Tyndall needs approximately $893M in FSRM and Support and 
approximately $2,534M in MILCON; Offutt's FY20 need is approximately 
$300M in MILCON.
    2) Continual delays of disaster funding affects ability to conduct 
day-to-day operations. On 1 May 2019, the Air Force stopped its Tyndall 
recovery while limiting aircraft maintenance repairs on 15 May 2019. 
Projected on 1 July 2019, the Air Force will have to limit recovery for 
Offutt and will cut flying operations by 1 September 2019.
    3) Without supplemental funding now, the Air Force must cut 
critical facility and readiness requirements, driving Air Force wide 
operational risks and negatively impacting recovery. These include: a) 
Stop Facility Repairs Air Force Wide: Defers 61 required facility 
projects at bases in 18 states across the U.S., impacting airfields and 
critical base facilities. b) Stop Tyndall Recovery: Stops all new work 
on Tyndall as of 1 May; delays the return of full base operations, 
severely impairs flight operations and forces personnel to continue to 
work in degraded facilities. c) Cut Aircraft Repairs: Curtails aircraft 
repairs creating various maintenance backlogs. d) Limit Offutt 
Recovery: Beginning 1 July, defers all Offutt recovery efforts, with 
the exception of immediate health and safety needs; delays facilities 
assessment and mitigation efforts, increasing damage from mold and 
water. e) Cut Flying Operations: Cuts 18,000 training flying hours 
starting 1 September, slowing our readiness recovery.
    Mr. Scott. We have had several conversations about the Joint 
Surveillance Target Attack Radar System (JSTARS) and the Advanced 
Battle Management System (ABMS) over the past few years. Now that the 
decision has been made to maintain the current fleet of JSTARS aircraft 
through 2034 while the Air Force transitions to ABMS, I am focused on 
the Air Force's Battle Management and Intelligence, Surveillance, and 
Reconnaissance (ISR) enterprise. With consistent resourcing shortfalls, 
the Air Force and the Department of Defense must field capabilities 
that exceed the current Battle Management-ISR enterprise, while 
ensuring the men and women at Robins Air Force Base receive all the 
assistance they need to make a seamless transition.
    1. Previously, you have assured me the ABMS mission will remain at 
Robins Air Force Base as JSTARS phases out. What is the Air Force's 
plan to begin MILCON for ABMS at Robins Air Force Base?
    2. Secretary Wilson, we have also discussed the personnel numbers 
associated with ABMS and the importance of the Guard component to 
Robins. When can I expect a final determination on the number of 
employees, Airmen, and civilians, that will be assigned to ABMS?
    Secretary Wilson. The Advanced Battle Management System (ABMS) 
Analysis of Alternatives (AOA) Team will complete the ABMS AOA by this 
summer. Once the ABMS AOA is approved later this CY, the AF will begin 
designing and building the ABMS organizational construct to include 
required manpower and MILCON for all units and locations that will be 
part of ABMS.
                                 ______
                                 
                     QUESTION SUBMITTED BY MR. COOK
    Mr. Cook. Dr. Esper, I was happy to hear about the Army's 
commitment to putting APS on all vehicles. What is the Army's schedule 
to do so on legacy vehicles? I see limited procurement budget devoted 
to putting APS on either Abrams or Stryker in either FY 20 or the rest 
of FYDP. I am concerned with this delay in procurement and what it 
means for having a fully protected and capable Army against peer and 
near-pear adversaries. You have made significant headway in increasing 
readiness and ensuring the Army is able to fight tonight, ensuring a 
greater percentage of ABCTs have APS would seem like part of that 
strategy.
    Secretary Esper and General Milley. The Army remains committed to 
providing increased protection for our vehicles and their crews. The 
Army is pursuing Non-Developmental Item-Active Protection Systems (NDI-
APS) as an interim solution to protect key combat vehicles in a select 
number of armored brigade combat teams (ABCTs) as we work towards an 
integrated Program of Record (POR) solution for all of our combat 
vehicles. The Army selected Trophy as the NDI-APS solution for the 
M1A2SEPV2 Abrams tank and will procure a total of four ABCT sets of 
Trophy. The Army plans to field the first set of Trophy APS in Fiscal 
Year 2020 (FY20) for the M1A2SEPv2 tanks in one of the pre-positioned 
ABCT sets in Europe. The Army plans to field the remaining three sets 
to Continental United States-based units. The Army selected the Iron 
Fist Light Decoupled (IFLD) system for the Bradley and that system is 
undergoing Urgent Material Release (UMR) testing now. If successful 
with UMR testing, the Army will procure and field IFLD for Bradley's in 
one of the Europe pre-positioned ABCT sets in FY22. The Army tested the 
Iron Curtain system for the Stryker platform and determined the system 
was not suitable for use on the Stryker. As a result, we are concluding 
testing and characterization on two other systems as we seek an 
effective way ahead for the Stryker platform.
                                 ______
                                 
                     QUESTIONS SUBMITTED BY MR. KIM
    Mr. Kim. What is the status of acquisition for the Cyber Persistent 
Training Environment and how do you coordinate the proposed 
capabilities and limitations of the Cyber Persistent Training 
Environment with the Unified Platform that the Air Force is developing?
    Secretary Esper. The Persistent Cyber Training Environment (PCTE) 
program is on cost and on schedule, and it is currently supporting 
limited Cyber Mission Forces (CMF) training today, including two large 
multi-service training events that were conducted in February and March 
2019. The PCTE program is executing an agile and streamlined 
acquisition strategy that delivers platform upgrades every six months--
the next upgrade drop is scheduled for Summer 2019. The PCTE program 
office is engaged in ongoing discussions with the U.S. Air Force's 
Unified Platform (UP) program office as both platforms mature in 
support of their separate missions supporting cyber operations. PCTE's 
mission to improve the training and readiness of the CMF will 
incorporate either virtually or physically any unique capabilities from 
UP to ensure the training on PCTE is relevant and realistic.
    Mr. Kim. As the acquisition strategy for the Persistent Cyber 
Training Environment (PCTE) and other programs get executed, the 
cybersecurity of the mid and lower levels of the Defense Industrial 
Base (DIB) become critical, as well as the supply chain logistics for 
the PCTE and other acquisition programs.
    How do 2nd, 3rd, and 4th level Defense Industrial Base (DIB) 
suppliers end up being cyber protected? For example, prime suppliers 
(e.g. Lockheed and NG) are offered cybersecurity assistance by USG, but 
not 2nd, 3rd, etc. DIB suppliers.
    Secretary Esper and General Milley. The PCTE program office takes 
cybersecurity very seriously. The hardware hosting the PCTE software 
training platform is procured using Government contracts that provide 
appropriate restrictions on suppliers based on Federal Acquisition 
Regulation and Defense Federal Acquisition Regulation clauses in the 
contracts. For all acquisition programs, the Army is directly involved 
with several DOD-led efforts targeted toward shoring up the 
cybersecurity posture of the Defense Industrial Base (DIB), throughout 
all tiers of the supply chain.
    First, the voluntary DOD DIB Cybersecurity Information Sharing 
Program, established under 32 Code of Federal Regulations (CFR) Part 
236, provides cyber threat information and cybersecurity best practices 
to DIB participants.
    Second, the DOD Protecting Critical Technology Task Force was 
established to serve as the primary mechanism to bring to bear all of 
the Department's technology protection efforts. This includes 
strategically assessing compliance of DFARS 252.204-7012 for all 
defense contracts and subcontracts containing controlled unclassified 
information, until a cybersecurity maturity model certification has 
been established to incentivize improved cybersecurity across the DIB.
    Third, the DOD Office of Small Business Programs has recently 
established cybersecurity training as a component of the DOD Mentor-
Protege Program in accordance with Section 1644 (Assistance for Small 
Manufacturers in the Defense Industrial Supply Chain and Universities 
on Matters Relating to Cybersecurity) of the FY19 NDAA. This training 
is educating the small business manufacturing community about 
cybersecurity requirements and challenges. Furthermore, the Army is 
conducting a cybersecurity operations center pilot program intended to 
provide small and medium-sized companies with cybersecurity assistance 
including assessments, training, incident response, and mitigation of 
vulnerabilities.
    Mr. Kim. Please tell me about the progress of the cyber Unified 
Platform, specifically the status of Service Oriented Architecture and 
Minimum Viable Product.
    Secretary Wilson. USCYBERCOM officially accepted Unified Platform's 
first set of capabilities (previously known as minimum viable product 
(MVP)) on 9 April 2019, which consisted of ten capabilities that were 
made immediately available to the Cyber Mission Force. Increment 2, 
scheduled for July 2019, will integrate Air Force capabilities. In line 
with NDAA 16 guidance and a Service Oriented Architecture (SOA) 
approach, UP utilizes an agile development/operations acquisition 
approach focusing on connecting and integrating existing Service 
capabilities. These standards strengthen data and information sharing 
and enhance lethality through full-spectrum cyber effects 
synchronization. Future increments will provide new and enhanced 
capabilities to the Cyber Mission Force.
    Mr. Kim. How are you coordinating with the other services the 
future integration of their Cyber Mission Forces with the Unified 
Platform?
    General Goldfein. All Armed Services submit relevant cyber 
operations requirements to USCYBERCOM's Cyber Requirements Evaluation 
Board (CREB) board for review, coordination and validation. In 
addition, all services and other key DOD stakeholders engage in a 
monthly requirements board which aligns, rationalizes and prioritizes 
development and delivery efforts for implementation for Unified 
Platform ensuring applicability to the Cyber Mission Force.
    Mr. Kim. In my district I have Joint Base McGuire-Dix-Lakehurst. 
The Joint Base is the largest employer in my district with over 65,000 
direct and indirect jobs. Under my district's New Jersey Air National 
Guard 108th Wing, I have the 140th Cyber Squadron.
    The 140th Cyber Squadron is relatively new in the DOD cyber 
ecosystem. So far the unit provides one full Cyber Protection Team 
(CPT) that can support a variety of defensive cyber operations.
    What is your vision and strategy to fully utilize Guard and Reserve 
units in the larger Air Force cyber mission?
    General Goldfein. The Air Force is committed to a Total Force 
integrated approach to resourcing and executing the cyber mission. Some 
of our most experienced cyberspace operations Airmen reside in the Air 
Force Reserve and Air National Guard, to include the Airmen of the 
140th Cyberspace Operations Squadron. We continuously provide 19 Cyber 
Protection Teams (CPT), one of which is sourced from the Air National 
Guard (ANG). New Jersey, along with Maryland, Washington, Kansas, 
Texas, California, Pennsylvania, Virginia, Iowa, Michigan, and Idaho, 
supply member to support that CPT. We currently plan and program ANG 
mobilizations for 6 months, and these Airmen serve in the same capacity 
as their Regular counterparts. The National Guard Bureau retains the 
responsibility of identifying, selecting, and mobilizing the specific 
ANG unit to fulfill this task. Air Force Reservists contribute to the 
Total Force cyber mission as Individual Mobilization Augmentees (IMA), 
often assigned to augment Regular Air Force units, and Traditional 
Reservists, assigned to Associated Reserve Unit. Reserve units 
augmenting Air Force Cyber organizations are located in Florida, 
Nebraska, Texas, Virginia, Georgia, Colorado, Oklahoma, California, 
Alabama, and Illinois.
    Guard, Reserve, and Regular Airmen and their units train to same 
standard and must maintain the same level of readiness. Thus, finding 
the proper balance for our Guard and Reserve to utilize their talents 
and expertise as Citizen Airmen, while maintaining their civilian 
commitments, is critical. These Airmen are talented and active members 
of the private sector cyberspace industry, and bring unequaled skills 
and experience, invaluable to the service of our country. Any 
transition from great power competition to armed conflict will require 
Guard and Reserve cyberspace Airmen as an effective counter against our 
competitors. Our Total Force Cyber Mission cannot be accomplished 
without sufficient and predicable resources, including funding and 
legislation, from Congress.
    Mr. Kim. What can Congress do to ensure our cyber Guard/Reserve 
units are being used to their full extent?
    General Goldfein. We need to ensure the Reserve Components are 
sufficiently funded to keep pace with the rapidly changing technology 
in this evolving mission set. To do so, we need Congress to fully 
support cyber funding in the FY20 budget.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MS. HORN
    Ms. Horn. Last month we saw a suspension of delivery of the KC-46A, 
which is an important part of the mobility triad, the next generation 
of aerial refueling tankers and is the replacement for the KC-135. In 
addition to the leftover debris and tools found on these newly 
delivered planes, there are reports of software and hardware issues 
with the remote vision system on the KC-46.
    What is the Air Force doing to ensure we don't see more problems 
with this platform and to make sure these planes get delivered on 
schedule; and how will this impact the Airforce Logistics Centers, 
specifically Tinker?
    How long until this remote vision system issue will be addressed 
and what impact will that have on the long term cost of the contract?
    Secretary Wilson. The Air Force takes Foreign Object Debris (FOD) 
and other quality/workmanship issues on the KC-46 aircraft very 
seriously. The Air Force has appropriate mechanisms in place and Boeing 
will be held accountable to the fixed priced contract's specifications 
in parallel with aircraft acceptance. Regarding the Remote Vision 
System (RVS), the Air Force and Boeing entered into a legally binding 
written agreement for the RVS fix at Boeing's expense. Implementation 
will take 3-4 years. The Air Force does not project additional delays 
to delivery schedules, or delays to aircraft inductions into Tinker AFB 
for depot maintenance.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. HOULAHAN
    Ms. Houlahan. What steps are you taking to ensure cyber issues are 
robustly covered by the intermediate and senior service military 
education programs and that graduates understand the information domain 
is an equal warfighting space? Are you building cyber career tracks to 
ensure promotion opportunity for both enlisted and officer ranks? Can a 
2nd lieutenant entering the cyber workforce feel confident that he can 
build an exciting 25-plus-year career toward the general officer ranks?
    Secretary Esper. As part of Intermediate Level Education, the 
Command and General Staff College (CGSC) currently teaches, 
Introduction to Cyberspace, as part of its core curriculum, providing 
an overview of what constitutes the cyberspace domain, major military 
considerations in cyberspace, brief case studies, and the doctrinal 
foundation of cyberspace operations. The curriculum also includes an 
introduction to the information joint function and to U.S. Cyber 
Command as a unified combatant command responsible for cyberspace 
operations. Select faculty and student SMEs are involved in the 
development of cyber/information warfare scenarios/products to support 
and assist in driving cyber considerations for Large Scale Combat 
Operations in next year's Advanced Operations Course scenario.
    The Army War College's School of Strategic Land power for colonels 
and lieutenant colonels addresses cyber issues within the framework of 
information as an instrument of national power, as one of five domains 
of war, and as one of seven joint warfighting functions. Cyber war and 
cyber power issues are interwoven across required and elective courses, 
in comparison and in combination with other domains (land, sea, air, 
and space). Warfighting courses also drive students to consider why 
information was added as a joint function, how a combatant commander 
may leverage information, and the integration of operations and 
information.
    In addition to Senior Service College at the Army War College, 
there are three other venues that align their coursework to cyber 
interests: the National Defense University's College of Information and 
Cyberspace; the Senior Service College Fellowship at Carnegie Mellon 
University's Institute for Politics and Strategy; and the Fellowship at 
the University of Pittsburgh's School of Computing and Information 
(Cybersecurity).
    At the senior service military education level (General Officer), 
the information domain and warfighting cyber challenges are robustly 
covered throughout all general officer education and development in the 
Army Strategic Education Program suite of courses. Additionally, the 
Nominative Leaders Course for Command Sergeants Major addresses cyber 
force development issues and resourcing for cyber capability 
development within the Army budget/force management lessons.
    Yes, the Cyber Corps builds and maintains career tracks that 
provide healthy viable career paths, ensuring progression and promotion 
opportunities, for officers, warrant officers, and enlisted Soldiers. 
Career paths are reviewed and updated annually with input from the 
various cyber operational units. Career progression is expected to 
include strategic, operational, and tactical assignments. The Cyber 
Corps is also instrumental in the Force Design Update and the Command 
Plan cycles ensuring appropriate ranks and skills are available at each 
echelon to meet mission requirements as organizations with cyber 
personnel requirements are created and/or modified. Moreover, the 
Army's Talent Management Task Force studied cyberspace career fields as 
a case-study on how to effectively close talent gaps. These findings 
will be considered to further refine career tracks in cyber, electronic 
warfare, and information operations, for Soldiers and Army Civilians in 
the Regular Army, the Army National Guard, and the Army Reserve.
    Yes, a 2nd Lieutenant may be assured of a healthy and viable career 
path through Colonel as a Cyber Officer, with potential for General 
Officer appointments. Assignments for Cyber Officers are available at 
the strategic, operational, and tactical levels, which includes Army, 
Joint, Interagency, Intergovernmental, and Multinational assignment as 
well as key developmental and broadening opportunities. Additionally, 
we anticipate future Cyber Corps growth within the force structure, 
creating exciting positions at various ranks and levels.
    Ms. Houlahan. If the Army is postponing/cancelling CH-47F Block 2 
because you want to use the money for other priorities, how are you 
going to fund the recapitalization of the Chinook fleet? How does the 
estimated cost of recapitalization compare with the estimated cost of 
Block 2 upgrades? How do you plan to sustain the Chinook fleet for the 
next 20-30 years without Block 2?
    Secretary Esper and General Milley. As highlighted during our 
recent testimony, we led an extensive review of our entire equipping 
portfolio. This initiative was intended to realign resources into our 
six Modernization Priorities rather than ask Congress for an 
unrealistic increase in our budget. During this process, we determined 
that we had insufficient investment in Future Vertical Lift platforms, 
to include our Future Attack Reconnaissance Aircraft (our top aviation 
priority) and Future Long Range Assault Aircraft programs. Given the 
threats outlined in the National Defense Strategy from strategic 
competitors such as Russia and China, these are critical requirements 
needed to meet our aviation reconnaissance capability gap and to 
replace the aging UH-60 fleet, which has an average age of 15 years.
    To address these resourcing shortfalls, we decided to accept risk 
in our youngest rotary wing fleet, the CH-47F, by halting the Block II 
upgrade for our conventional forces. The Army analysis of alternatives 
determined that the CH-47 fleet readiness for combat operations remains 
sufficient as long as the Army reaches full rate production by Fiscal 
Year (FY) 2030 to either recapitalize the CH-47F Block I or procure the 
CH-47F Block II or pursue an entirely new Future Heavy Lift Aircraft 
(FHLA) that has the range, speed, payload, and survivability need in a 
future high intensity conflict. Lifecycle costs to recapitalize the 
current CH-47F is projected at about $30 million (M) per aircraft, 
compared to about $31M for a remanufactured CH-47F Block II helicopter. 
The analysis of alternatives determined that the Army must begin 
procurements of either a Block II remanufactured helicopter or the 
recapitalization of the Block I by FY28 and reach full-rate production 
by FY30. The Army plans to address the decision to remanufacture or 
recapitalize the CH-47F, or pursue an entirely new FHLA aircraft in 
future budget cycles.
    Ms. Houlahan. I understand the Reserve Officers Association wrote 
to you, Secretary Esper, on March 15, 2019, arguing for the Army to 
``jumpstart the acquisition of waste management incinerators with the 
eventual goal of equipping all combatant commands to eliminate the 
toxic threat posed by burn pits.'' This letter also indicated that Army 
Soldier Systems Center, PM Force Sustainment Systems, has evaluated and 
validated technology for the safe and effective incineration of waste 
in an expeditionary environment.
    What is the status of the Army's evaluation of technologies for the 
safe disposal of toxic waste in expeditionary environments, and would 
you support investment in this technology?
    Secretary Esper. The Expeditionary Solid Waste Disposal System 
(ESWDS) program has successfully completed testing. We supported the 
technology for this development effort. The Army realigned procurement 
funding in FY19, however, based on higher Army modernization 
priorities. As the Army continues to review its investments in 
modernization, we will continue to consider ESWDS against other 
priorities based on future operational needs and available funding.The 
Expeditionary Solid Waste Disposal System (ESWDS) program has 
successfully completed testing. We supported the technology for this 
development effort. The Army realigned procurement funding in FY19, 
however, based on higher Army modernization priorities. As the Army 
continues to review its investments in modernization, we will continue 
to consider ESWDS against other priorities based on future operational 
needs and available funding.
    Ms. Houlahan. What steps are you taking to ensure cyber issues are 
robustly covered by the intermediate and senior service military 
education programs and that graduates understand the information domain 
is an equal warfighting space?
    Secretary Wilson. Air University's intermediate and senior 
developmental education (IDE and SDE) programs graduate over 700 joint 
and international officers each year. Both the in-residence and 
distance learning programs challenge students to think differently 
about the new realities of conflict and competition in the twenty-first 
century. The following provides an overview of the educational program 
elements that ensure Air University's intermediate and senior-level 
graduates understand the importance of cyber and the information 
domain.
    <bullet>  Air Command and Staff College (ACSC) Resident Program: 
The Air Command and Staff College educates and develops air-minded 
joint leaders. Its rigorous 10-month program offers various courses and 
lessons where cyber and information domain are the explicit focus of 
the discussion:
        - Airpower course: lesson on The Evolution of Cyber Warfare
        - Warfare Studies course: lessons on Irregular and Hybrid Wars; 
        lesson on Cyber
        - International Security I course: lesson on International 
        Order, with a focus on Cyberspace
        - International Security II course: lesson on National Security 
        Decision-making and Regional Security, with specific focus on 
        Resurgent Russia and Hybrid Warfare
        - Joint Warfare Course: lessons on Joint Operations in the 
        Space and Cyber Domains
        - Multi-Domain Operational Strategist concentration (MDOS) 
        lessons:
         <bullet>  Mastery of Domains: Electromagnetic Spectrum
         <bullet>  Cyber 1, Cyber 2, Cyber 3; taught at Top Secret 
        level
         <bullet>  Cyber College Joint AWC/ACSC Electives
         <bullet>  The Utility of Cyberspace as an Instrument of 
        National Power
         <bullet>  Foundations of Advanced Cyber Thinking & Strategy
    <bullet>  Air War College (AWC) Resident Program: The Air War 
College educates and develops senior military and civilians joint 
leaders. Its rigorous 10-month program highlights cyber and the 
information domain primarily in the Warfighting core course, with 
specific lessons including:
        - Future Environment
        - Future Air Force Programs and Technology
        - Cyberspace, Today and Tomorrow
        - Multi-Domain Command and Control
        - Rapid Global Mobility
        - Adaptive Domain Control
        - Joint Airpower in Integrated Air and Missile Defense
    <bullet>  Air University's eSchool of Graduate PME:
    ACSC Distance Learning (IDE--On-Line Master's Program): The 
eSchool's Air Command and Staff College distance learning (DL) 
intermediate developmental education (IDE) program exists to produce a 
more effective field-grade officer serving in operational-level command 
and staff positions. The demanding program consists of 10 eight-week 
courses (six core courses and four concentration courses) with specific 
focus on cyber and information domain as follows:
        - The Airpower Studies course, with eight weeks of facilitated 
        learning, includes core lessons on space and cyber capabilities 
        as force enhancers and critical enablers to traditional 
        airpower missions.
        - The Joint Air Operations course is also an eight-week 
        facilitated experience, with numerous lessons focused 
        explicitly on the importance of cyber and information 
        operations. These lessons include Cyberspace Operations (CO); 
        Information Operations (IO) and Cyberspace Operations 
        Relationship; Information and Cyberspace Superiority; 
        Cyberspace and Information Operations Vulnerabilities; 
        Integrating IO and CO at the Operational Level; Strategic 
        approaches to cyberspace based on perspectives from Clausewitz 
        and Sun Tzu; and, JFACCs integration of joint force IO and 
        cyber capabilities in airpower planning and execution
    Intermediate Developmental Education--Distance Learning 6.0 (non-
degree awarding): In addition to its Master's Degree program, the 
eSchool of Graduate PME offers a non-degree distance learning (DL) 
version of intermediate developmental education (IDE). Focused learning 
on cyberspace and the information domain occurs throughout the DL 6.0 
program, with specific lessons embedded in the following courses: 
Warfare studies, Airpower studies, Applied Warfare (with several 
specific assignments on synthesizing cyber and information ops into 
campaign planning), Joint Airpower Operations, and Applied Joint 
Warfare (with assignments on integrating cyber effects)
    Intermediate Developmental Education--Distance Learning 7.0 
(forthcoming, non-degree awarding): The next evolution of the eSchool's 
IDE DL program (DL 7.0) offers an even more explicit focus on 
cyberspace and information operations. This next version of the course 
will include threaded student/faculty discussions on these lesson 
topics, all of which have a strong cyber component, specifically, 
Contested Domains, Cyber Superiority, Cyber Interdiction, Joint 
Functions and Cyberspace, and Space and Cyber in Stability Operations
    Senior Developmental Education--Distance Learning 18.0: The 
eSchool's Air War College distance learning (DL) SDE 18.0 program 
provides a strategic ``air-minded'' curriculum that prepares graduates 
to provide strategic leadership, appropriate expertise and critical 
thinking in support of national security objectives. This senior-level 
DL course includes:
        - 15-hour Course on Airpower and National Strategy with focus 
        on integration of air, space and cyber
        - 45-hour Course on Space and Cyberspace Operations
        - 3-week facilitated course on Applied Airpower and Security 
        Studies, with focused discussions on: Cyber and space operating 
        environments; AF operating environment in the 21st Century; 
        Developing an effective cyber deterrence strategy; and Waging 
        Cyber War the American Way
                                 ______
                                 
                QUESTIONS SUBMITTED BY MS. TORRES SMALL
    Ms. Torres Small. The New Mexico Air National Guard has an 
abundance of underutilized facilities and infrastructure coupled with 
ideal flying weather, ranges, training synergies, and tremendous 
capacity to grow in terms of manpower. Additionally, Kirtland AFB, due 
to its full scale services from AF medical facilities to base housing 
and other support functions is ideally suited for the bed down of the 
active duty airmen that would be required for an active association. 
Finally the community of Albuquerque is extremely supportive unlike 
some states that have received new missions recently. Secretary Wilson, 
can you tell us if these factors are, in fact, important considerations 
in the AF basing process and, if they are not, why aren't they?
    Secretary Wilson. The Air Force strategic basing process uses a 
criteria-based analysis, tailored to the specific mission under 
consideration, to identify locations best suited to support any given 
mission. The approach takes into consideration well-defined evaluation 
criteria in the following four categories: mission, capacity, 
environmental, and cost. The Air Force also applies ``best military 
judgement'' to address considerations outside the specific, 
quantitative criteria. The facility, range and weather characteristics 
you cited are considered under the mission, capacity, environmental, 
and cost categories, while a qualitative assessment of community 
support attributes is considered through the application of best 
military judgement, where necessary to support a mission.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. ESCOBAR
    Ms. Escobar. Recently, HASC received a request from DOD to 
reprogram $1 billion in Army personnel funds for fencing--in my 
district, in El Paso--as well as in Yuma.
    Was this fencing a priority the Army identified? What does the Army 
assess is the military necessity or value of this fencing?
    Did OSD relay an assessment of the military value of this fencing 
to the Army at any time before or after informing you of reprogramming?
    Secretary Esper. DOD determined it was a priority to support the 
DHS mission on the Southwest Border. DOD has the authority and 
responsibility to provide upon request certain types of support, such 
as is being conducted on the Southwest Border, to agencies of the 
United States for counterdrug activities, including Sections 124 and 
284 of Title 10, U.S. Code. In the exercise of this authority, there is 
no existing requirement to identify an additional military purpose, as 
the Department of Defense counterdrug mission is clearly established in 
law.
    Ms. Escobar. Fort Bliss is critical to our military's force 
generation capabilities--getting forces and equipment to a conflict 
quickly and efficiently when needs arise. As you know, Fort Bliss is 
one of just two MFGIs in the Army. Our troops are already engaged in 
snap deployment exercises that improve our readiness, such as some of 
our 1st Armored Division is currently engaged in Poland.
    Knowing that stable investment is critical: Please explain how this 
budget reflects our modernization needs? Are we on pace to overmatch 
our near-peer competitors and the scale of investment they have 
provided?
    Secretary Esper and General Milley. Fort Bliss is critical to the 
Army's current and future readiness. As you know, we are in the midst 
of transforming one of the existing brigade combat teams into an armor 
brigade combat team. The Army's Fiscal Year (FY) 2020 budget request 
provides momentum to achieve the Army's Vision for 2028 of a force that 
is well organized, trained, and equipped for prompt sustained ground 
combat against near-peer competitors such as Russia and China. The FY20 
base budget request for research, development and acquisition is $34.0 
billion. There is an increase in Research, Development, Test and 
Evaluation programs in the near term to account for the work we are 
doing to research, design, develop and test new systems. This will 
flatten out as more funding is invested around the FY22/23 timeframe in 
order to begin procuring next generation weapons systems and equipment. 
In terms of the size of defense budgets, a direct comparison of the 
U.S. budget and that of our adversaries is complex, as our potential 
adversaries have different missions, different priorities, different 
values, and different investments in everything ranging from soldier 
pay to housing.
    Ms. Escobar. General Milley, you've repeatedly identified the 
Army's priorities as 1) Readiness and 2) Modernization.
    The committee received the Army's UPL/UFR list. Does each item 
identified on that list directly contribute to either readiness, or 
modernization, or both?
    Do the fencing projects identified in the DHS RFA directly 
contribute to readiness. If so, please describe how the projects 
contribute to readiness.
    Do the fencing projects identified in the DHS RFA directly 
contribute to modernization? If so, please describe how the projects 
contribute to modernization.
    Can you attest that this project in no way adversely affects the 
Army's readiness? Please explain.
    Are there opportunity costs to pursuing these projects? For 
example, what other requirements were not funded because funds were 
used to support the DHS RFA?
    To you knowledge, why were UFRs not funded ahead of requests from 
outside departments? Please identify any internal guidance that 
requires such a prioritization.
    General Milley. Everything on the unfunded requirements (UFR) list 
is linked to modernization and readiness. The Army's FY19 budget was 
sufficient to support Army readiness and modernization requirements. 
The funds allocated by DOD to the border-fencing projects fall within 
DOD's purview. The Army returned approximately $1 billion in personnel 
funds in FY19 to DOD when the Army recognized it would fall short of 
recruiting goals. DOD utilized these funds according to their 
priorities. DOD has the authority and responsibility to provide upon 
request certain types of support to agencies of the United States for 
counterdrug activities, including Sections 124 and 284 of Title 10, 
U.S. Code. In the exercise of this authority, there is no existing 
requirement to identify an additional military purpose, as the 
Department of Defense counterdrug mission is clearly established in 
law.
                                 ______
                                 
                   QUESTION SUBMITTED BY MS. HAALAND
    Ms. Haaland. The Air National Guard enterprise is based on 
established Capstone Principles that set the framework for aircraft in 
the 54 States and territories. Specifically, one of those Capstone 
Principles is to allocate at least one unit-equipped wing and flying 
squadron to each State. Yet the New Mexico Air National Guard is the 
only one in the country without an operational flying mission and one 
of three States--New Mexico, Virginia, and Washington--that lack 
ownership of aircraft. Please explain what the Air Force is doing to 
address the lack of a unit-equipped wing and flying squadron in the New 
Mexico Air National Guard and to address aircraft ownership in New 
Mexico, Virginia, and Washington.
    Secretary Wilson and General Goldfein. While we recognize the value 
and intent of the ANG's Capstone Principles, our Strategic Basing 
Process does not give specific priority to states based on their 
alignment with them. We do, however, work hard to ensure the enterprise 
we define for each basing action is as inclusive as possible.
    The Strategic Basing Process evaluates candidates through a number 
of important factors (e.g., suitability of existing facilities, 
capacity to absorb additional mission, location demographics and 
environmental factors) and all three components are fully represented.
    As mission demands evolve and resource constraints remain, the Air 
Force continues to ensure it leverages the collective talent and 
experience of the Regular, Guard and Reserve Forces to compete, deter 
and win.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MRS. LURIA
    Mrs. Luria. 1. At the end of this fiscal year, what metrics will 
you use to look back and say the Army accomplished its objectives in 
line with the five priority missions in the National Defense Strategy?
    2. What metrics will you use to look back and say you provided a 
good return on investment for taxpayers.
    3. Can you provide me with the list of all metrics you will use?
    Secretary Esper. The Army staff is currently assessing the best 
metrics to use. I envision a number of possible metrics nested under 
four broad objective areas: 1. Measure progress toward building 
readiness for high-intensity combat in large scale operations, e.g., 
unit readiness recovery for large scale combat operations. 2. Measure 
progress toward a more resource-sustainable approach, e.g., speed of 
key processes (especially acquisition). 3. Measure progress toward 
modernization for multi-domain operations, e.g., development of 
priority modernization program efforts (for next generation combat 
capabilities, including long range precision fires and integrated air 
and missile defense). 4. Measure progress toward strengthening 
alliances and partnerships, e.g., fiscal savings from burden sharing 
with allies and partners, and the level of interoperability with key 
allies and partners.
    Return on investment to the American tax payer is measured by Army 
readiness levels to meet National Defense Strategy requirements. Once 
the Army selects metrics, it will leverage the Army Campaign Plan to 
review and assess progress toward its strategic goals and objectives.
    Mrs. Luria. What percent of global combatant commander requests for 
brigade combat teams did the Army meet this year?
    General Milley. The Army met 100 percent of the global combatant 
commander requests for brigade combat teams.
    Mrs. Luria. 1. At the end of this fiscal year, what metrics will 
you use to look back and say the Air Force accomplished its objectives 
in line with the five priority missions in the National Defense 
Strategy?
    2. What metrics will you use to look back and say you provided a 
good return on investment for taxpayers.
    3. Can you provide me with the list of all metrics you will use?
    Secretary Wilson. The Air Force uses a complex variety of 
analytical and assessment tools and metrics to evaluate our ability to 
achieve the priority missions in the National Defense Strategy. We do 
comprehensive assessments that show how our investment portfolio aligns 
to specific NDS strategic guidance and priorities. This not only lets 
us better articulate our budget priorities but it lets us prepare to 
better address key future shortfalls.
    To help us better understand operational effectiveness in both 
current and potential future scenarios we evaluate operational 
performance (lethality) and risk using a variety of tools and metrics, 
including robust all domain war-games, modeling and simulation, and 
statistical analysis methods. We assess our ability to execute specific 
campaign objectives and mission requirements in support of the National 
Defense Strategy, that in turn helps us identify where additional 
investment may be necessary. As the November 2018 National Defense 
Strategy Commission recommended in their report, the AF continues to 
work very hard to ``. . . link objectives to operational concepts to 
programs and resources.''
    Mrs. Luria. Are you familiar with the 2014 Independent Review of 
the DOD Nuclear Enterprise? That report recommended quarterly meetings 
with the Secretary of Defense on required corrective actions which the 
Secretary started in 2014. Are these meeting still occurring? If no, 
have all of the corrective actions from the two independent reports 
done in 2014 been corrected?
    Secretary Wilson. Yes, the Office of the Secretary of Defense (OSD) 
and the Services continue to address the list of recommended actions 
from the 2014 Independent Review of the DOD Nuclear Enterprise. Within 
the Department, this activity is referred to as the Nuclear Enterprise 
Review (NER). Overseeing this activity is the Nuclear Deterrence 
Executive Review Group (NDERG), which is chaired by the Deputy 
Secretary of Defense and meets twice per year to consider progress on 
reconciling the 130 recommendations included in the NER. To support 
this effort and to ensure progress between NDERG meetings, the 
Department leverages two subordinate level meetings: the Nuclear 
Deterrence Working Group (NDWG), which meets every two weeks, and the 
Nuclear Deterrence Senior Oversight Group (NDSOG), which meets 
quarterly. However, only the NDERG possesses the authority to close NER 
recommendations and closure is only considered when the owning Service 
provides data-driven evidence indicating the recommendation has been 
resolved. In 2014, the NDERG was tracking 130 recommendations as part 
of the NER. Since that time, 70 have been closed and eight are in the 
process of closure. Additionally, the NDERG will consider several 
recommendations for inclusion on an enduring list of metrics that will 
be continuously monitored by OSD and the Services through assessments, 
inspections, and the NDERG process.
    Mrs. Luria. 1. In your statement you said the Air Force need is 386 
operational squadrons. You also compared this to the height of the Cold 
War where the Air Force had 401 operational squadrons. Why doesn't the 
advancement in technology on our airframes today reduce the number of 
operational squadrons instead of being so near Cold War levels?
    2. The Navy's new requirement for ships is about half peak Cold War 
levels so I am very interested in the data behind this number. We don't 
have the time here but I would like a separate briefing on exactly how 
you arrived at that number.
    3. What percent of global combatant commander demand for strike 
aircraft did you meet last year?
    4. For tanker aircraft?
    General Goldfein. The National Defense Strategy provided the 
foundation for the Air Force's 386 operational squadrons, which 
include, among others, space and cyber missions that were absent during 
the Cold War. We would be happy to provide a CLASSIFIED briefing that 
provides the detailed analytical foundations for the Air Force's 386 
operational squadron requirement.
    Advancements in technology have certainly increased our Service 
capabilities, however foreign governments have also leveraged 
advancements in commercial and military technologies as well, while at 
the same time many have increased their national investment in military 
capability. We have to prepare for the current and anticipated future 
threats we will face in accordance with the National Defense Strategy 
priorities.
    We would be happy to provide details global combatant commander 
demand for Fighter/Attack (``strike'') and Tanker aircraft over the 
past year in a classified environment.

                                  <all>
</pre></body></html>
